<html>
<title> - ASSESSING U.S. FOREIGN POLICY PRIORITIES AMIDST ECONOMIC CHALLENGES: THE FOREIGN RELATIONS BUDGET FOR FISCAL YEAR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                ASSESSING U.S. FOREIGN POLICY PRIORITIES
                    AMIDST ECONOMIC CHALLENGES: THE
                      FOREIGN RELATIONS BUDGET FOR
                            FISCAL YEAR 2013

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2012

                               __________

                           Serial No. 112-132

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
73-119                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New 
EDWARD R. ROYCE, California              Jersey<greek-l>deceased 3/6/
STEVE CHABOT, Ohio                       12 deg.
RON PAUL, Texas                      BRAD SHERMAN, California
MIKE PENCE, Indiana                  ELIOT L. ENGEL, New York
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
CONNIE MACK, Florida                 RUSS CARNAHAN, Missouri
JEFF FORTENBERRY, Nebraska           ALBIO SIRES, New Jersey
MICHAEL T. McCAUL, Texas             GERALD E. CONNOLLY, Virginia
TED POE, Texas                       THEODORE E. DEUTCH, Florida
GUS M. BILIRAKIS, Florida            DENNIS CARDOZA, California
JEAN SCHMIDT, Ohio                   BEN CHANDLER, Kentucky
BILL JOHNSON, Ohio                   BRIAN HIGGINS, New York
DAVID RIVERA, Florida                ALLYSON SCHWARTZ, Pennsylvania
MIKE KELLY, Pennsylvania             CHRISTOPHER S. MURPHY, Connecticut
TIM GRIFFIN, Arkansas                FREDERICA WILSON, Florida
TOM MARINO, Pennsylvania             KAREN BASS, California
JEFF DUNCAN, South Carolina          WILLIAM KEATING, Massachusetts
ANN MARIE BUERKLE, New York          DAVID CICILLINE, Rhode Island
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Hillary Rodham Clinton, Secretary of State, U.S. 
  Department of State............................................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Hillary Rodham Clinton: Prepared statement.........     6

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    55
Written responses from the Honorable Hillary Rodham Clinton to 
  questions asked by committee members during the hearing........    57
Written responses from the Honorable Hillary Rodham Clinton to 
  questions submitted for the record by:
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida, and chairman, Committee on Foreign 
    Affairs......................................................    75
  The Honorable Howard L. Berman, a Representative in Congress 
    from the State of California.................................    96
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    98
  The Honorable Eni F.H. Faleomavaega, a Representative in 
    Congress from American Samoa.................................    98
  The Honorable Donald A. Manzullo, a Representative in Congress 
    from the State of Illinois...................................   100
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................   101
  The Honorable Steve Chabot, a Representative in Congress from 
    the State of Ohio............................................   103
  The Honorable Russ Carnahan, a Representative in Congress from 
    the State of Missouri........................................   103
  The Honorable Connie Mack, a Representative in Congress from 
    the State of Florida.........................................   104
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................   106
  The Honorable Ann Marie Buerkle, a Representative in Congress 
    from the State of New York...................................   109
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   111


 ASSESSING U.S. FOREIGN POLICY PRIORITIES AMIDST ECONOMIC CHALLENGES: 
           THE FOREIGN RELATIONS BUDGET FOR FISCAL YEAR 2013

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
Because the Secretary must leave at 4:00, after opening remarks 
I will ask the Secretary to summarize her testimony, and then 
we will move directly to the questions from our members. Given 
the vote situation, the ranking member will be recognized to 
deliver his opening remarks if we are going to be interrupted 
by votes, but here you are and there's no problem.
    So I am going to give my remarks and then yours, because 
you were going to be----
    Mr. Berman. You were going to give my remarks?
    Chairman Ros-Lehtinen. No, I will give my remarks. I don't 
trust you with my remarks. But without objection, members may 
have 5 days to submit statements and questions for the record.
    Madam Secretary, welcome back to the committee to discuss 
the administration's foreign relations budget request. All of 
us have great respect for you, Madam Secretary, as well as for 
the dedicated men and women who promote the interests and 
values of our Nation throughout the world.
    Our Nation faces unsustainable deficits, so we must justify 
every dollar that we spend, especially because 35 cents of 
every dollar is borrowed. I appreciate your restraint with the 
top-line number in your budget proposal, coming in at $5.2 
billion below last year's request, but I disagree with the 
priorities and programs funded with those limited resources.
    In Iraq and Afghanistan, both these governments must be 
pushed to take the necessary steps to be our long-term, 
reliable partners. We are not seeing such a commitment from 
Karzai or Maliki. Too much American blood and treasure have 
been invested in both countries for us to have governments in 
place that threaten American interests. Iran's belligerent and 
unhelpful role in Afghanistan and Iraq is worrisome, 
particularly with reports indicating their co-option of those 
governments at senior levels. So, Madam Secretary, what 
additional pressure can we bring to bear to offset the Iranian 
influence in Afghanistan and Iraq?
    In Pakistan, the level of cooperation, as we know, that we 
get from the government continues to fall short. Serious 
questions persist about whether elements of the Pakistani 
Government support prominent insurgent groups fighting against 
our troops in Afghanistan.
    In other Middle Eastern countries, I have had concerns from 
day one about the administration's approach to the Arab Spring 
and to the forces at work there, including radical Islamist 
groups. The administration appears focused on spending a lot of 
money in search of a policy. Your budget request doubles down 
on that approach by requesting a $770 million Middle East and 
North Africa Incentive Fund, a fund with almost no restrictions 
on how it can be used.
    Even though press reports indicate that Egypt may have 
decided to lift the travel ban on our NGO workers, we should 
not reward Egypt with aid when it is demonstrating hostility to 
Western democratic entities and is engaging in an ongoing dance 
between authoritarians and the Muslim Brotherhood. In contrast, 
the administration did the right thing by enforcing U.S. law 
and cutting off funding to UNESCO after it undermined peace by 
admitting the nonexistent state of Palestine.
    Your request to now change the law and send $80 million to 
UNESCO would be a grave mistake. Any weakening of U.S. law 
would undermine our credibility and give a green light for 
other U.N. agencies to grant recognition of a Palestinian 
state. U.S. funding for UNESCO must only be restored if UNESCO 
votes to un-admit Palestine.
    The budget for the Western Hemisphere, which is not 
mentioned in the prepared testimony, is another example of 
misplaced priorities. The administration has requested an 
increase in funding for the general budget of the Organization 
of American States, yet you cut U.S. contributions to the OAS 
Fund for Strengthening Democracy by almost $2 million.
    The administration is proposing increased financial 
assistance to Nicaragua, Bolivia, and Ecuador, three 
governments that continue to undermine U.S. security interests 
in the hemisphere, disregard human rights, and ignore the rule 
of law. There can be no justification for such an increase in 
funds to these countries. In Nicaragua, State has spent 
millions to promote free, fair and transparent elections. That 
money was not used wisely, as the elections in Nicaragua were 
fraudulent and ran afoul of the Nicaraguan constitution.
    We must not repeat last year's performance in Ecuador or 
Bolivia, where State Department spent more money on 
environmental programs than counternarcotics operations or good 
governance. This budget fails to hold abusers of democracy in 
the region accountable, and cuts support for democracy. Instead 
of standing in solidarity with the Cuban and Venezuelan people 
in their time of need, this budget turns its back on them.
    Repression continues unabated in Cuba. The Castro regime 
orders its State Security Forces to beat members of the Ladies 
in White, Las Damas de Blanco, as they leave church services on 
Sundays. Prisoners of conscience die while many worldwide turn 
a blind eye to their plight. In Venezuela, the Chavez regime 
has demolished the authority of the National Assembly and 
intimidated the opposition by leveraging control over the 
judicial system.
    Turning to the disastrous situation in Syria, this 
administration does not appear to have a coherent strategy. The 
Russians and the Iranians clearly have a strategy, and it could 
be summarized as ``actively support the repression by the 
Syrian Army.'' The Iranian regime defies responsible nations 
and pursues nuclear weapons capabilities. A nuclear-armed Iran 
is unacceptable, and we must oppose any policy that relies on 
mere containment as a response to this mortal threat. President 
Obama has said that the United States has an ironclad 
commitment to the security of Israel. So, will the U.S. 
militarily back Israel if it decides to protect itself from an 
Iranian nuclear threat?
    Finally, Madam Secretary, I have grave concerns about 
today's North Korea announcement, which sounds a lot like the 
failed agreements of the past. While it is good that it 
mentions the uranium enrichment program whose existence the 
North Koreans had so long denied, we must recall that regime's 
constant duplicity. We have bought this bridge several times 
before.
    One troubling new aspect is the discussion of nuclear 
issues and food aid in the same announcement, which blurs the 
separation of humanitarian aid from the nuclear negotiations, 
which has been maintained since 1995. The North Koreans will 
view this food as payment due for their return to the 
bargaining table, regardless of the transparency and monitoring 
we hope to secure in the future.
    Again, Madam Secretary, thank you so much for making 
yourself available today. I look forward, and the members do as 
well, to receiving your testimony.
    And now I am pleased to recognize my friend, the gentleman 
from California, the ranking member, Mr. Berman, for his 
opening statements.
    Mr. Berman. Well, thank you very much, Madam Chairman. And 
Madam Secretary, welcome. Thanks for being here. At the 
outset--there are some differences in our view--I would like to 
commend you for your hard work on North Korea. Today's 
announcement that Pyongyang has agreed to freeze long-range 
missile launches, nuclear tests and uranium enrichment 
activities, and allow the IAEA back into the country appears to 
be an important step on a long and difficult path. You know, 
the chair knows, I know, we all know that we have been down 
this road before, and it does remain to be seen whether the 
North will keep its promises this time.
    But in a more general sense, I would like to recognize the 
tremendous commitment and dedication you have shown to 
reestablishing the United States, not just as an indispensable 
power, but as an indispensable partner. You have made it your 
mission to show the world the best of who we are as Americans.
    Eloquently and consistently, you have spoken up for women, 
for the poor, and for those whose human rights and dignity has 
been trampled. You have elevated development alongside 
diplomacy and defense as a pillar of our national security. 
Within the administration and in the halls of Congress, you 
have fought to ensure that our diplomats and aid workers 
receive the resources they need and the respect that they 
deserve. They risk their lives every day to support American 
interests abroad, and in the face of mounting deficits here at 
home, it is important to remember that these civilian efforts 
are much less costly than deploying our military.
    Today, we are here to assess how the President's Fiscal 
Year 2013 international affairs budget responds to the threats 
and priorities we face as a nation. Many people believe, 
erroneously, that foreign aid accounts for 20 percent or more 
of our budget. The truth is, we spend just over 1 percent of 
our national budget on diplomacy and development.
    Yet, these programs have an outsized impact on our health, 
prosperity, and security here at home. With one in five 
American jobs dependent on trade, and half our experts going to 
developing countries, our overseas programs are a critical part 
of strengthening the American economy and getting Americans 
back to work.
    Our security is threatened if nuclear weapons fall into the 
wrong hands, or if fragile and failing states become training 
grounds for terrorists. Our foreign assistance dollars help 
counter the flow of illicit narcotics and control the spread of 
organized crime. Nearly a quarter of the 2013 Fiscal Year 
international affairs budget request is dedicated to supporting 
critical U.S. efforts in the front-line states of Iraq, 
Afghanistan, and Pakistan.
    And finally, the principles we cherish are undermined if we 
allow families to go hungry, children to die of easily 
preventable diseases, and girls to be kept out of school. In 
short, helping countries become more democratic, more stable, 
more capable of defending themselves, and better at pulling 
themselves out of poverty is just as important for us and our 
national security as it is for them.
    To succeed, we must ensure that our budget resources are 
allocated wisely, our international programs are carried out in 
the most efficient and effective manner.
    Before closing, I would like to highlight two of my top and 
somewhat interrelated priorities: Middle East peace and the 
effort to prevent Iran from developing a nuclear weapons 
capability.
    Madam Secretary, for the past 3 years, the Palestinians 
have simply refused to engage seriously in peace talks. My sad 
conclusion is that Palestinian leaders don't have the will or 
the desire to make the compromises necessary to achieve peace. 
They don't want to engage seriously because they know that, in 
the end, they won't be able to do the deal.
    That is what happened at Camp David in 2000, at Taba in 
2001, and in the Olmert talks in 2008. And now, nearly two 
decades after Oslo, I see no evidence that the Palestinians 
have begun in the slightest to prepare their public for the 
prospect that they will have to relinquish the so-called right 
of return and recognize Israel as a Jewish state, two critical 
elements of any peace deal.
    I find that disturbing. Meanwhile, the Israelis continue to 
say they will negotiate any time, any place. If Palestinian 
leaders really want statehood, they will have to show it both 
through their public commitments and by engaging in serious 
negotiations with Israel. If they try to circumvent 
negotiations by once again taking their case to the United 
Nations, they will get no recognition from the United States 
and they won't get the time of day from the U.S. Congress.
    The only solution to the Israeli-Palestinian conflict that 
can bring peace and security to both parties is a two-state 
solution, and that only can become a reality through direct 
negotiations.
    Let me turn to another issue, what I consider the greatest 
security challenge facing both Israel and the United States, 
namely the threat of a nuclear-armed Iran. I believe it was 
during your first testimony before this committee in 2009 that 
you first said that our goal was to impose crippling sanctions 
on Iran if the regime doesn't suspend its uranium enrichment 
program and otherwise comply with the demands of the U.N. 
Security Council.
    Now the sanctions are finally starting to have some bite, 
and within a few weeks or so the Congress is likely to pass new 
legislation for the President to sign--legislation that 
tightens sanctions and that gives the administration new 
authorities to tighten sanctions still further. The House 
passed its version of that legislation, the Iran Threat 
Reduction Act, by an overwhelming vote late last year. Can you 
give us a status report on the impact of sanctions in Iran and 
on whether there is any sign that they are starting to have the 
desired effect on the thinking of Iranian decision-makers?
    Thank you, Madam Secretary. I look forward to hearing your 
testimony.
    Chairman Ros-Lehtinen. I thank the ranking member. It is 
the chair's intention to continue the hearing during votes. And 
now, it is an honor to welcome the Secretary to our committee 
today. The honorable Hillary Rodham Clinton has served as the 
67th Secretary of State for the United States since January 21, 
2009: The latest chapter in her four decade career of public 
service.
    She has served previously as a United States senator from 
the State of New York, as First Lady of the United States and 
of the State of Arkansas, as an attorney and a law professor. 
Madam Secretary, without objection your full written statement 
will be made part of the record. If you would be so kind as to 
summarize your written remarks, we can then move quickly to the 
question and answer discussion under the 5-minute rule in the 
hope of getting to all of our members before you have to 
depart.
    So Madam Secretary, welcome again, and the floor is yours.

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Secretary Clinton. Thank you very much, Madam Chairman and 
Ranking Member, and it is very good to be back here. I am 
grateful to your committee and the members for the support and 
consultation that we've enjoyed over these past 3 years. I look 
forward to your questions. I will submit my entire statement to 
the record, and look forward to having a chance to exchange 
views with you today. Thank you.
    [Secretary Clinton's prepared statement follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you. So we can get right to 
the question and answer, Madam Secretary?
    Secretary Clinton. Yes.
    Chairman Ros-Lehtinen. Delish. Thank you so much. So, the 
Chair recognizes herself for her questions.
    Madam Secretary, I have heard from a number of my 
constituents--as you know, I represent South Florida, the 
gateway to the Americas--who are worried that ALBA countries, 
led by Chavez, continue to pressure to invite Cuba to the 
Summit of the Americas in April, even though the Castro 
dictatorship does not meet the criteria to join the meeting, as 
you know.
    Will you pledge here today that if Cuba is invited, that 
President Obama and you, Madam Secretary, will refuse to attend 
the summit meeting?
    And secondly--and I will ask it all at once, so you can 
answer, Madam Secretary--on Iran in the Western Hemisphere: 
Just last month Ahmadinejad's tour of tyrants, as I called it--
his trip to Venezuela, Nicaragua, Cuba and Ecuador--reaffirmed 
Iran's commitment to undermine U.S. national security 
interests. I am concerned about Iran's willingness to attack 
the United States homeland or our critical allies, such as 
Israel.
    With the rising threat posed by the Quds Force and its 
Iranian proxies such as Hezbollah in our region, will we 
dedicate more attention to these illicit activities in the 
annual terrorism report?
    And lastly, what is the administration doing to ensure 
cooperation from our allies in the hemisphere with respect to 
Iran, and to hold accountable those countries that are 
supporting and enabling Iran's threatening activities?
    Thank you, Madam Secretary.
    Secretary Clinton. Thank you very much. With respect to the 
question about the Summit of Americas, we do not believe there 
is any intention to invite Cuba. We have made our views on that 
well known. They don't fit the definition of democratic 
countries and the development of democracy in the hemisphere. 
So at this point, we see absolutely no basis and no intention 
to invite them to the summit.
    Regarding Iran and the Western Hemisphere, obviously Iran, 
facing these very effective sanctions and their aggressive 
enforcement, is becoming increasingly desperate, looking for 
friends wherever they think they can find them. And they are 
not getting the kind of response--on that tour of tyrants that 
you referenced, our analysis of what happened is that it fell 
very far short of what the Iranians had hoped for.
    That said, we are concerned about the activities of Iran 
and Hezbollah in the Western Hemisphere. We continue to monitor 
the situation closely. We will take appropriate action to 
counter any threat that may arise. We are aware of and 
concerned about allegations that some Latin American drug 
trafficking organizations are linked with Hezbollah and Iran. 
We have not found information to verify a lot of the 
allegations, but of course the recent incident concerning the 
attempted assassination of the Saudi Ambassador is a very large 
question mark and wake-up call.
    We are continuing to look for direct links, and we are 
engaged very extensively with our partners in the hemisphere, 
both to educate them about the dangers posed by Iran and 
Hezbollah, and also to work with them to heighten our 
intelligence sharing. Now, we did impose sanctions in 2008, and 
extended them last year, on the Venezuelan Military Industries 
Company for violating a ban on technology that could assist 
Iran in developing weapons. So if we find information that we 
can verify, we are committed to taking action.
    But what we instead are seeing, much to our encouragement, 
is that our partners in Latin America are really understanding 
the threats. Recently at the IAEA Argentina, Brazil, Mexico and 
Chile joined us in voting for a resolution calling on Iran to 
address concerns about the nuclear program. Last year, Chile, 
Mexico, and Brazil voted to create the U.N. Human Rights 
Council Special Rapporteur on Iran. And our close coordination 
with Mexican authorities actually was instrumental in breaking 
up the assassination plot against the Saudi Ambassador.
    So I think, Madam Chairman, we are alert to this. We are 
watching it closely. We are building a very strong 
international and hemispheric coalition against any efforts by 
Iran and Hezbollah in our area.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. I yield 
back the balance of my time. Mr. Berman?
    Mr. Berman. Thank you very much, Madam Chairman. Madam 
Secretary, the Obama administration is the first administration 
to use congressionally-mandated sanctions on Iran in a robust 
way, and you deserve considerable praise for that. I know that 
the President and you, and numerous officials at State, at 
Treasury, at Defense, have put in literally thousands of hours 
trying to persuade foreign officials and foreign businessmen to 
respect our sanctions and to help isolate Iran, all for the 
purposes of implementing a policy intended to lead Iran to 
abandon its nuclear weapons program.
    In that regard, I think it would be helpful to put to rest 
concerns of some observers that the administration is resigned 
to Iran's becoming a nuclear threshold state. I think it is 
very important to reassure us on that point. Based on my 
understanding of the administration's policy, I think you 
should be able to do that.
    Three months ago, on December 1st, Secretary of State Burns 
and Israeli Deputy Foreign Minister Ayalon issued a joint 
statement that spoke of ``preventing Iran from developing a 
nuclear weapons capability,'' and a Pentagon publication last 
month also said that the U.S. seeks to ``prevent Iran's 
development of a nuclear weapons capability.''
    So when Senator Graham yesterday asked whether the 
administration seeks to deny Iran the ability to become a 
nuclear threshold state, you responded by saying that, ``It is 
the position of the administration to prevent them,'' meaning 
the Iranians, ``from attaining nuclear weapons.'' So I think it 
is important to clarify.
    Is it, in fact, administration policy to prevent Iran's 
development of a nuclear weapons capability, or is the policy 
merely to prevent Iran from attaining nuclear weapons? And what 
is the real difference between these two? Does the 
administration have a red line beyond which it will not allow 
Iran's nuclear program to progress? Can we feel assured that it 
is the administration's policy to make sure Iran remains well 
short of the ability to produce nuclear arms?
    Secretary Clinton. Well, Congressman, I think it is 
absolutely clear that the President's policy is to prevent Iran 
from having nuclear weapons capability. And that has been the 
stated position of this administration. It has been backed up 
and reiterated. So let there be no confusion in any shorthand 
answer to any question, the policy remains the same.
    And certainly in pursuance of that policy, we have worked 
closely with the Congress to implement the most far-reaching 
sanctions that have ever been imposed. And after 3 years of 
intensive diplomatic effort, we have developed an international 
coalition that recognizes the importance of preventing Iran 
from obtaining nuclear weapons capability that is working with 
us.
    You know, 3 years ago we didn't have that consensus in the 
international community. There was a lot of unwillingness, and 
resistance, even, to going along with tougher sanctions. But 
from the beginning, we have had a two-track policy: Pressure 
and engagement. And as we talk today, the pressure is 
ratcheting up. We are aggressively working to implement the 
sanctions.
    We have very strong support for this position from the 
recent report by the International Atomic Energy Agency 
pointing out all of the suspicions and questions about Iran's 
pursuit of nuclear weapons, and we have seen, finally, a 
response from Iran that they are willing to discuss their 
nuclear weapons program with the P5+1. So we think that these 
sanctions are affecting the thinking of the Iranians in the 
leadership, but we have to remain vigilant and we have to keep 
the pressure on.
    Mr. Berman. Well, thank you very much. Do you think I could 
get a question and answer in 44 seconds?
    Chairman Ros-Lehtinen. Or you could yield back and give 
other members more time, as I did.
    Mr. Berman. All right. Well, with that appeal to----
    Chairman Ros-Lehtinen. Thank you, sir. Thank you. And being 
the wise legislator that he is, Dr. Paul elected to stay here, 
and so he gets to ask his question.
    Mr. Paul. Well, that is wonderful.
    Chairman Ros-Lehtinen. Congressman Paul of Texas is 
recognized. I have learned not to say anything negative about 
Ron Paul.
    Mr. Paul. Welcome, Madam Secretary. I do want to get your 
comments a little bit about the stir that was caused by the 
apology over the Qur'an. And the administration has received a 
lot of criticism about this, and I think you have expressed a 
point that maybe this doesn't help your job any by stirring up 
the resentment. But the whole issue of an apology, I think, is 
an interesting one from a national level.
    And I recall what happened after McNamara wrote his 
memoirs. And he was apologetic about what happened, and how he 
orchestrated the Vietnam War. And a reporter asked him if he 
should apologize, and he said, ``What good's an apology?'' He 
says, ``If the policies are wrong, you have to learn something 
from it and change the policy.''
    So a lot of emotions come out on this issue of apology, and 
I keep thinking that those who criticize him, I don't think 
they criticized the last administration when the President 
apologized for using the Qur'an as a target. So sometimes they 
are not--apologies aren't always all equal. But even that said, 
there is--there were torture photographs before, they were very 
aggravating. Recently there was urinating on bodies, on 
corpses. We didn't particularly apologize for those, did we? I 
mean, there weren't apologies there.
    But some of these things are emotional, but what about the 
whole idea of invading a country, and occupying a country, and 
disturbing their country, creating hundreds of thousands of 
refugees and suffering? Does it ever get to a point where 
apologizing about the Qur'an is rather minor to some of the 
other problems that we have created in these countries? And can 
you comment on that?
    Secretary Clinton. Well, Congressman, first I appreciate 
the very measured comments you have made about our Presidents--
not only this one, but prior Presidents--offering apologies 
when we are deeply sorry for unfortunate incidents that occur, 
that were not intentional, and which we know have emotional 
resonance with people.
    The larger question you ask, I think it is also important 
to put into context. President Obama promised to wind down the 
Iraq war. He has done so. He is in the process of transitioning 
out of Afghanistan in a manner that is done appropriately, in 
keeping with the very large decisions that have to be made 
about helping the Afghans defend themselves, working with our 
partners and allies in that effort.
    And I think the underlying premise is certainly one that 
can be debated among Americans of good faith. I believe that we 
were justified in going to Afghanistan, which is the----
    Mr. Paul. I want to apologize, because I don't want to get 
on that subject.
    Secretary Clinton. Sure. And I accept your apology. Thank 
you, sir. [Laughter.]
    Mr. Paul. There you go. But I do want to touch on something 
else, to get a little different perspective on the nuclear 
enrichment in Iran. Because we hear different stories. Even in 
Israel there are debates. Tamir Pardo actually said, ``If they 
get a weapon, it's not an existential threat to Israel.'' So I 
am sure there is probably a more nuanced debate in Israel than 
there is here sometimes. But isn't it true that Iran has the 
right to enrich up to 20 percent for peaceful purposes?
    Most people--you know, the way we talk, and you hear the 
discussion, they have absolutely no right to enrich. Don't they 
have that protection under the Nuclear Non-Proliferation 
Treaty? But it never seems to have a balanced approach to that, 
and the best I can tell from what I read, there is no evidence 
that they have a bomb. There is no evidence that they are on 
the verge of getting it.
    And even the administration, whether it is Panetta or 
Clamper or General Dempsey, they are saying, ``It wouldn't make 
any sense to have a preemptive attack on there.'' Could you 
give us a sense of a proper balance here? Because a lot of 
people are convinced it is Syria, and then it is Iran. And I am 
personally concerned about that, because the last thing the 
American people need is another war. We don't have the money. 
We don't have the resources. And the military is not ready for 
another war.
    Chairman Ros-Lehtinen. 9 seconds.
    Secretary Clinton. Congressman, I would direct your 
attention to the most recent Director General's Report from the 
International Atomic Energy Agency, not an American document, 
which outlines the concerns about the non-peaceful use of 
civilian nuclear power. There is increasing evidence that what 
the Iranians do is not consistent with--you are right--their 
right to have the peaceful use of nuclear power. And I will be 
happy to get you a copy of that, because I think you ask a very 
important set of questions.
    Chairman Ros-Lehtinen. Thank you so much, Congressman. 
Thank you, Madam Secretary. Mr. Ackerman, the ranking member on 
the Subcommittee on the Middle East and South Asia.
    Mr. Ackerman. Thank you. Welcome, Madam Secretary. Always 
great to have you here.
    Secretary Clinton. Thank you.
    Mr. Ackerman. It is exceptional to me that sometimes you 
can't win for winning. And even with the unprecedented 
victories that you and the administration have had in the 
foreign policy area, some people continue to look at it--I 
guess I would call it the Goldilocks game, with the three 
bears: The porridge is always too hot, or the porridge is 
always too cold. I think you got it just right. I think, 
instead of Goldilocks, you are more like the guy on the Ed 
Sullivan show who used to be up there with the 12 bowling pins, 
juggling them all at the same time, bouncing basketballs up and 
down over his knees, and he has these sticks with the plates on 
top that he is twirling in the air, and nothing ever falls to 
the ground.
    And it is more difficult, because you are really twirling 
somebody else's dirty dishes, but nonetheless, you seem to have 
everything pretty much together--I don't want to jinx it--with 
all of the unprecedented problems in the world that we are 
facing all at the same time. And I just want to thank you, and 
congratulate you and the administration.
    Three areas: North Korea, Egypt, and Iran. Hotspots. First, 
on Egypt, congratulations on the announcement that we just 
received within the hour that the flight restrictions on 
Americans have been lifted. I think that is miraculous. I know 
the great effort and work that you have put into this, both 
behind the scenes as well as publicly, and how delicate this 
negotiation has been.
    Does this indicate to us some sense of where the power 
shifting and shuffling in Egypt is going, and who is exercising 
it, at least at this very sensitive moment? Or don't we want to 
speculate on that?
    Secretary Clinton. Well, Congressman, we do not have 
confirmation that the travel ban has been lifted. We hope that 
it will be, and we will continue to work toward that. And the 
reporting is encouraging, but we have no confirmation.
    Mr. Ackerman. Yes, we always get stuff from the AP first 
also, before we hear that.
    North Korea, congratulations on that as well. I know there 
is never any nexus between humanitarian aid and shifting 
policies, but congratulations on the great coincidence of the 
240 metric tons of humanitarian aid and it's happening 
coincidentally at the same time that the North Koreans have, at 
least apparently, agreed to a lot more transparency than they 
have had before, and cessation of their nuclear program.
    Were other countries parties or observers at this bilateral 
discussion that we had with the North Koreans? Did the 
Russians, or the Chinese, or the South Koreans play any role, 
or was that just us?
    Secretary Clinton. Well, the meeting was held in Beijing. 
The Japanese and South Koreans were intimately involved in the 
back and forth of the negotiations. We also kept all of them 
informed. But no one else was a direct participant, besides the 
United States and North Korea.
    Mr. Ackerman. In reading all the reports of that, it says 
that they will allow inspection at Yongbyon. Do we have access 
to other sites, or just that main site? Or isn't that clear 
yet?
    Secretary Clinton. That is not clear yet. I mean, that was 
our principal objective, and we obviously have to continue 
building on what was achieved.
    Mr. Ackerman. And like some others that you deal with, you 
know more than others that they are masters at the shell game.
    And lastly, Iran. Congratulations on the biting effect, 
that the sanctions are finally grabbing them and taking effect 
to a tremendous extent. There seems to be a lot of indication 
that some of our allies--one in particular in the Middle East 
is very concerned and interested in us laying down markers, 
rather than saying all options are on the table. And I suppose 
that is going to get more play in coming days.
    What are the red lines that the Iranians cannot cross? Are 
we going to make that public, or are we going to continue to do 
quiet negotiations on that?
    Secretary Clinton. I think it is probably smarter for us to 
be pressing on the sanctions and the negotiations, while we 
keep our objective of no nuclear capability absolutely clear, 
instead of setting other benchmarks at this time publicly.
    Mr. Ackerman. I want to thank you for not concentrating on 
strutting your stuff, and delivering on the steak and not 
worrying about the sizzle. Thank you.
    Chairman Ros-Lehtinen. Thank you. My colleague from 
Florida, Mr. Rivera. Wise man, staying around.
    Mr. Rivera. Thank you very much, Madam Chair. I learned 
from the best, from you.
    Madam Secretary, thank you so much for being here today. As 
you know, recently we marked the 14th anniversary of the 
February 24, 1996, shoot-down of the Brothers to the Rescue 
airplanes in which, as you know, four Americans were murdered 
over international airspace by the Castro dictatorship.
    Subsequent to those murders, the U.S. Congress and then-
President Clinton passed and signed into law the Helms-Burton 
Bill, which has never been fully implemented, as you well know, 
because of a provision which allows a waiver, or a suspension, 
every 6 months, to that law, for implementation of that law. 
And that suspension, I believe, takes place around every 
January or February, and mid-year as well. So we probably have 
just recently seen the Obama administration suspend the Helms-
Burton law, as it has been done twice a year, every year, since 
1996.
    Now, the rationale allowed in the Helms-Burton law for 
suspending implementation of the law is twofold. Number one, 
that it serves U.S. interests, and number two, that it would 
expedite a transition to democracy in Cuba. Given what we have 
seen in the last few years during the Obama administration, and 
what has been occurring in Cuba in terms of the wave of 
repression against human rights activists and dissidents, given 
the deaths of several hunger strikers, given the recent 
persecution against the Ladies in White, peaceful activists in 
Cuba that have been calling for democratic reform, given the 
stern rebuff that Former Secretary Richardson received in Cuba 
to his recent overtures or negotiations, can you tell us, just 
in the last few years of the Obama administration that the 
Helms-Burton law has been suspended, how has that expedited a 
transition to democracy in Cuba?
    Secretary Clinton. Well, Congressman, we take a backseat to 
no one in our condemnation of the denial of human rights that 
is a continuing feature of the Castro regime. And the 
particular instances that you mentioned are ones of great 
concern to us. We do think that increasing people-to-people 
contact, supporting civil society in Cuba, enhancing the free 
flow of information, promoting the capacity for more 
independence, economically and politically, from the Cuban 
authorities is in the interest of the Cuban people, and is in 
the interests of the United States.
    Mr. Rivera. And we may agree to disagree on that, but I am 
just wondering if there is any evidence of results as a result 
of that policy that the Obama administration has been pursuing. 
Do we have any evidence at all of any inkling of democratic 
reform, or a movement toward democracy? Is there anything 
positive that has resulted from the Obama administration policy 
toward Cuba that we have evidence, tangible evidence?
    Secretary Clinton. Well, in the last 3 years, there have 
been considerable changes in Cuba's economic policies, which we 
see as a very positive development. We think having the Cuban 
people given more economic rights, to be able to open 
businesses, to have more opportunity to pursue their own 
economic futures, goes hand in hand with the promotion of 
democracy.
    I wouldn't claim that our movements were a direct cause, 
but they were coincident with. And very often in oppressive 
regimes like Cuba, economic freedom precedes political freedom.
    Mr. Rivera. Well, then you would agree that if there has 
been economic freedom--and I dispute that, I don't believe 
there has been any real economic reforms, genuine economic 
reforms in Cuba. But you would agree that if there have been--
and we can disagree on that--there certainly have been no 
political reforms, or a movement toward democracy, 
notwithstanding the economic movements.
    Secretary Clinton. Well, despite our very strong objection 
to the treatment of Alan Gross, the in our view totally 
unjustified charge and detention, a great number of political 
prisoners have been released. And again, that in and of itself 
is not final evidence of anything, but the fact that so many 
political prisoners were released in the last 3 years is, in 
our view----
    Mr. Rivera. Are you aware----
    Secretary Clinton [continuing]. A positive move.
    Mr. Rivera [continuing]. That those releases were followed 
by required expulsions from the country? You are aware of that.
    Secretary Clinton. Well----
    Mr. Rivera. They weren't released into the country. They 
were expelled from the country.
    Secretary Clinton. I am aware of that, Congressman. And as 
I look out over the world and take a historic perspective, I 
see sometimes that political prisoners are released and 
expelled, where they continue to pursue their democracy work 
and their advocacy on behalf of human rights from outside the 
country. So I think the fact is, letting political prisoners go 
is a very positive development.
    I wish that they were inside Cuba, continuing to agitate 
and advocate for freedom and democracy, but their voices are 
still being heard, especially in the new communications 
environment in which bloggers and others exist, so----
    Mr. Rivera. I hope we will continue.
    Chairman Ros-Lehtinen. Thank you, Mr. Rivera.
    Mr. Rivera. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Mr. 
Faleomavaega?
    Mr. Faleomavaega. Thank you, Madam Chairwoman. Madam 
Secretary, I have a couple of written questions that I want to 
submit for your consideration.
    Madam Secretary, that may be one of the last times 
together, and so I want to publicly thank you for 
reestablishing America's influence abroad, especially toward 
the Asia-Pacific region. As you aptly stated, and I quote, 
``The future of politics will be decided in Asia, not in 
Afghanistan or Iraq, and the United States will be right at the 
center of the action.''
    Thanks to your efforts, Madam Secretary, I believe the 
United States will be front and center, so I thank you for 
bucking tradition for your first trip overseas. On your first 
trip overseas, you visited Asia to convey a strong message that 
America's relationships across the Asia-Pacific region are 
indispensable. And in your many trips since then, from Vietnam 
to Cambodia, to Myanmar, to China, to South Korea, to Japan and 
beyond, you have been about the business of making and keeping 
economic and strategic commitments that will pay dividends many 
times over.
    I applaud you for recognizing the importance of the Pacific 
island nations in this multifaceted undertaking, and in the 
context of this hearing, the foreign relations budget hearing, 
I reiterate what you have stated, and I quote, ``Those who say 
that we can no longer afford to engage with the world have it 
exactly backward. We cannot afford not to. From opening new 
markets for American businesses to curbing nuclear 
proliferation, to keeping sea lanes free for commerce and 
navigation, our work abroad holds the key to our prosperity and 
security at home.''
    I want to also note for the record, Madam Secretary, that 
when American Samoa and the independent State of Samoa were hit 
by the most powerful earthquake in 2009, which set off 30-foot 
waves of a tsunami, which to this day have not yet fully 
recovered, and yet your office were among the first to stand 
with us. You have fought to make sure that relief supplies were 
airlifted to us, and your tireless efforts for and on behalf of 
those did not go unnoticed.
    And I thank personally Assistant Secretary Dave Adams for 
his help in this regard. At my request, Madam Secretary, you 
personally made it a point to visit my little district, and on 
behalf of the thousands of Samoan men and women who proudly 
serve in the Armed Forces of our country, we are grateful for 
your recognition of their services. My people thank you for 
remembering us amid the many things you have done for our 
nation.
    Madam Secretary, it has been an honor to serve with you, 
and I commend you for the initiatives you have taken, outlined 
in this budget submission, for the East Asia and the Pacific 
region.
    I am glad I still have a couple of seconds to ask you a 
couple of questions. Madam Secretary, can you reiterate again, 
for the record, our fundamental policy of engagement with the 
People's Republic of China, especially in reference to the 
crisis we are faced with at the South China Sea?
    Secretary Clinton. Well, first, thank you for those very 
kind comments, but it is a great honor to represent the people 
of your district, and to reach out to the South Pacific region 
on behalf of our Government.
    We are working to further a positive, cooperative and 
comprehensive relationship with China. We think that is in the 
interests of the American people, both economically and 
strategically. We have welcomed the peaceful rise of China, and 
we expect as China continues to develop that it will assume 
more responsibilities globally.
    With respect to the South China Sea, it has been our 
position that, while we do not take any stand on the rights 
attached to any territorial claim, we strongly support the 
peaceful resolution of such claims in accordance with 
international law.
    That has been the position we have taken at ASEAN, at the 
East Asia Summit. Because it is not only about the South China 
Sea, which is, as you know so well, a very important part of 
the world's oceans, through which more than 40 percent of the 
world's trade passes. But it is also about how we resolve 
disputes concerning territories in or near bodies of water, 
whether it is the Arctic or the South China Sea.
    So it is very important we stand for the rule of law, and 
we stand for the peaceful resolution of any disputes. And we 
have made that known to our friends in the region, as well as 
to China.
    Mr. Faleomavaega. Thank you, Madam Secretary. Thank you, 
Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Faleomavaega. And 
Madam Secretary, lacking other members, Mr. Berman and I have 
agreed to share our 5 minutes with you, if that would be all 
right?
    Secretary Clinton. Thank you very much.
    Chairman Ros-Lehtinen. I am going to ask about the Keystone 
pipeline, so start the clock.
    Mr. Berman. I withdraw mine.
    Chairman Ros-Lehtinen. As gas prices continue to soar, 
Madam Secretary, burdening the American people in this time of 
economic hardship, we must continue to examine avenues to 
depend less on foreign oil from rogue regimes. In October 2010, 
you mentioned that you were ``inclined'' to sign off of the 
Keystone project because the U.S. will either be ``dependent on 
dirty oil from the Gulf or dirty oil from Canada.''
    What was it about the pipeline that led you to change your 
previous assertion, and can you please explain why an 
additional, stable source of oil from a democratic ally such as 
Canada does not deserve a national interest determination from 
the Department of State?
    And Mr. Berman, if you would like to ask your question?
    Mr. Berman. A very specific question about Syria, the 
security of the chemical and possibly biological weapons in 
Syria should the Assad regime fall. How real is the danger of 
these horrific weapons and substances leaving Syria and falling 
into the hands of terrorists and terrorist groups? And what 
about a Nunn-Lugar-type program to secure, dismantle, and 
remove chemical and biological weapons and technology from 
Syria?
    Secretary Clinton. Well, first, with respect to Keystone, 
what I said in 2010 was that energy security considerations 
exist and needed to be taken into account, but that it had to 
be part of what is the legal and regulatory requirements for 
evaluating any pipeline application that crosses an 
international boundary.
    The State Department was in the process of making such a 
determination, and when it became necessary to make a decision, 
we did not recommend that the President say no, but rather that 
the presidential permit for the project at that time be denied.
    And with respect to the national interest, what we were 
working on was a resolution of the very strong concerns 
expressed by one of the states through which the pipeline would 
move, a state that at that time did not have its own process 
and needed to pass legislation, figure out what the alternative 
route would be.
    And then, of course, it fell upon the State Department to 
evaluate the alternative route. That had not been established 
when we were required to make our decision, therefore it was 
impossible to assess the impact of that new route that had been 
requested.
    Chairman Ros-Lehtinen. Thank you.
    Secretary Clinton. No, just in the last 2 days, TransCanada 
has made a move through a letter indicating their intent to 
submit a new application which crosses the U.S.-Canada border. 
At the same time, they are moving forward with parts of the 
pipeline, like from Oklahoma to Texas, that don't cross the 
border and don't need State Department evaluation or decision.
    So I think we have handled this, Madam Chairman, in a way 
that was commensurate with the law and the regulations. I 
strongly believe we have to increase our energy security. I 
strongly support the creation of our new Energy Bureau. Just 
last week, we signed an important agreement with Mexico to 
encourage transboundary exploration in the Gulf of Mexico, 
something that was legally in limbo. So we are committed to 
doing all that we can to help Americans get the energy supplies 
we need.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. And now 
to Syria, from Canada.
    Secretary Clinton. Yes, now on to Syria. Well, we are 
concerned. I think that it is an issue that deserves the 
attention of the international community. Nunn-Lugar, of 
course, was in a permissive environment. It was after the 
Soviet Union had fallen, the new Russian Federation came into 
being. They welcomed our work with them, as in Kazakhstan and 
Ukraine and other countries.
    At this time, there is no permissive environment, but we 
are going to stay very focused on the potential dangers posed 
by any storehouse or depot of such weapons.
    Chairman Ros-Lehtinen. Thank you very much, Madam 
Secretary, for your time. Mr. Smith from New Jersey, the 
chairman of the Subcommittee on Africa, Global Health, and 
Human Rights, is recognized.
    Mr. Smith. Thank you very much, Madam Chair. Welcome, Madam 
Secretary. Let me associate myself with the remarks of our 
distinguished chairwoman on Cuba. We had a hearing just a 
couple of weeks ago with Dr. Oscar Biscet, who had a 25-year 
sentence. He is now out of prison, but he is not out of prison.
    And he spoke via telephone right here, and the man is 
unbelievably brave. He is calling for freedom, human rights, 
and we have got to be very hard-lined, I believe, but also very 
prudent. So I would hope--the gentlelady made a very important 
point about not attending, and I hope that will be the case.
    Let me ask you with regards to the Iranian Pastor, Youcef 
Nadarkhani--we will have a resolution on the floor later on 
today. If you could speak to the Iranians, if you would, and to 
the world--there is a ratcheting up of persecution against 
Christians that is unprecedented.
    I have held two hearings on the Coptic Christians. The 
kidnapping of Coptic Christian girls who are forced into Islam 
as minors and then given to a man in Egypt who happens to be 
Muslim is outrageous. It is an act of trafficking, and it is 
not an isolated incidence. It is a serious, ongoing and 
pervasive human rights hearing.
    I actually held my first hearing on the global persecution 
of Christians on February 15th, 1996. It was getting worse 
then. It is now awful. In China, North Korea, we all know 
people are tortured to death simply because they are 
Christians. If you could speak to that.
    I would like to ask you, if you would--and a very specific 
and yes or no answer might suffice--and I thank you for the 
briefing on Bosnia and the work you are doing to try and bring 
Bosnia into NATO, as well as the other countries that are in 
line.
    Is there any instance, Madam Secretary, or instances, where 
the Obama administration has withheld or has threatened to 
withhold or plans to withhold, or use its voice and vote at 
international and U.N. institutions to reward with debt relief 
or loans, or to deny such, or in any other way provide a 
retaliatory means based on that nation's policies on abortion, 
and based on that nation's support or opposition to resolutions 
at the U.N. regarding abortion?
    Secretary Clinton. Well, as to that second question, 
Congressman, I would like to take it for the record, because it 
had so many parts to it and I don't want to give you an answer 
that is not as accurate as I can make it. So I will certainly 
get back to you on that.
    As to the very troubling case of Pastor Nadarkhani, you are 
100 percent right. His case is particularly egregious, but it 
is, unfortunately, part of what we see as increasing 
discrimination and persecution on the basis of religion. In 
some parts of the world, it is sects of Islam. In some parts of 
the world, it is Christians. But wherever it occurs, it is 
deplorable, against freedom of religion, against human rights 
that are universally recognized.
    The United States has condemned the sentence against Pastor 
Nadarkhani. We have pushed very hard, reached out to like-
minded countries, international organizations, to get a stay of 
execution, to get him released from prison. He has done nothing 
more than maintain his faith, and it is absolutely contrary to 
every element of the universal basis for human rights that 
someone like that would be condemned to death for being who he 
is, worshipping as he chooses, exercising his freedom of 
conscience.
    So we call on Iran to honor its own constitutional 
commitment to the protection of religious freedom, and its 
obligations under international law. And they can begin by 
commuting this death sentence and letting this man go free.
    Mr. Smith. If you could get back on the other question as 
quickly----
    Secretary Clinton. Yes.
    Mr. Smith. We hear from U.N. ambassadors that some are 
fearful they will lose foreign aid if they don't back the U.S. 
position on abortion at the United Nations. You know, you are 
shaking your head no, so I am happy to hear that, but if you 
could provide a very definitive answer it would be very 
helpful.
    You probably saw the spate of articles that China is 
changing its policy slogans on the one child per couple policy 
but not the law itself. That was one of the headlines that 
Yahoo! News had. There is a whole spate of articles to that 
effect.
    I would hope that we would redouble our efforts to combat 
the one child per couple policy. The fact that there are so 
many missing girls--as we all know, the estimates are in excess 
of 100 million missing girls, systematically exterminated 
simply because they happen to be girls. And by 2050--and I had 
a hearing on this very recently. I have had 38 congressional 
hearings on human rights abuse in China--by 2020, 40-50 percent 
of men won't be able to find wives because they have been 
systematically eliminated. So China is becoming and will 
increase as a trafficking magnet.
    I am almost out of time, but if you could really speak out 
strongly against forced abortion, forced sterilization, and for 
those baby girls in China who are suffering immensely, along 
with their mothers.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Sherman, 
the ranking member on the Subcommittee on Terrorism, 
Nonproliferation, and Trade, is recognized.
    Mr. Sherman. Madam Secretary, glad to have you back here. I 
want to join so many of my colleagues who have praised your 
work for our country, and how much you have been able to 
accomplish with less than 1 percent of our budget. I have got a 
lot of topics to cover, and would expect that you just want to 
respond for the record, but interrupt me at any point if the 
spirit moves you.
    The first is to focus on the Javakh region of Georgia. We 
have been very generous to the Republic of Georgia. Javakh is a 
region in Southern Georgia with a large ethnic Armenian 
population, and the Embassy of Georgia is now in support of the 
idea of the United States focusing a good chunk of its aid for 
Georgia on the Javakh region. This would help bind Javakh to 
the Republic of Georgia, and would help achieve our goals in 
the Caucasus.
    Last time you were here, I mentioned the idea of Voice of 
America broadcasting in the Sindhi language. This committee 
adopted my amendment unanimously to direct the Voice of America 
to spend $1.5 million broadcasting in the Sindhi language. I am 
not sure that that bill will become law, but it does show the 
wisdom of the committee.
    There are elements in the government in Islamabad who would 
prefer to try to impose the Urdu language on the entire 
country. In fact, the idea of imposing the Urdu language on 
what was then East Bengal created, as much as anything, the 
independent Republic of Bangladesh. And I would hope that in 
deciding whether or not to broadcast in the Sindhi language, we 
not try to accommodate the most extreme nationalistic, or just 
extreme, position of some elements in Islamabad. Because right 
now we are broadcasting in Urdu, and Sindhi is spoken by far 
more people in Pakistan. And we do have a very complicated 
relationship with the Pakistani Government. We need to reach 
out to the Pakistani people, particularly those in the Sufi-
influenced south of Pakistan, where the version of Islam is so 
compatible with American values.
    I know I won't be the only person up here to talk about 
Camp Liberty and how important it is that we ensure the 
humanitarian safety of everyone who is there. There are certain 
elements to how that camp has been set up that makes it look 
almost like a prison camp. There are reports that the residents 
have no access to lawyers, their family, no freedom of 
movement. And obviously, the Iranian Government is going to be 
pressing the Iraqis to be as inhumane as possible to the 
residents of that camp, and I hope that we will be pressing on 
the other side.
    And then finally--and this is a propitious day with regard 
to this issue--as you may know, there is the SWIFT system, 
which is the Society for Worldwide Interbank Financial 
Telecommunications. There is an effort to exclude all Iranian 
banks from that system, and earlier today I had a chance to 
talk to Chairman Bernanke, who represents us in the SWIFT 
system and has a role in supervising that system.
    And he said that he didn't have a national security advisor 
over at the Federal Reserve, and would want to hear from 
elements of the government that do focus on national security 
whether it is in our interest, not just to exclude some Iranian 
banks, but all Iranian banks from the SWIFT system, thus 
further isolating Iran's financial system. And so perhaps you 
could respond right here as to whether you would advise the 
chairman to do everything possible to exclude all Iranian banks 
from the SWIFT system.
    Secretary Clinton. Yes, we certainly would. And we believe 
that using the SWIFT system is a very effective way of further 
isolating Iran, and the Iranian flow of financial transactions. 
So we will engage with the Federal Reserve in terms of 
providing such information, and with respect to all of your 
other issues, Congressman, we will get back to you in a timely 
manner.
    Mr. Sherman. Thank you. And I hope your advice to Bernanke 
would be all Iranian banks, not just those that have been 
sanctioned by the EU.
    Chairman Ros-Lehtinen. Thank you, Mr. Sherman. Thank you, 
Madam Secretary. Mr. Burton, the chairman on Europe and 
Eurasia, is recognized.
    Mr. Burton. Madam Secretary, it is nice seeing you again. I 
understand that today or yesterday there was an indication that 
we might once again open some kind of dialogue with North 
Korea, and I just checked and we gave North Korea during the 
Clinton administration over $1 billion in fuel and food aid, as 
well as money we spent building their light water reactor. And 
of course, they violated the agreement that they made.
    The only reason that I bring that up is, I hope that if we 
start a dialogue with them we realize that their history is one 
that you certainly can't trust. And even though Kim Jong Il is 
gone, and we have a new leader there, I think it is extremely 
important that the State Department get everything written in 
blood, so to speak, to make sure that we are not shafted again.
    Recently Tom Donilon and the chairman of the Joint Chiefs 
went over to visit Israel, and the tone of the reports that I 
received--and of course, all this isn't in writing, but the 
tone was that they were urging Israel not to take any 
unilateral action as far as an attack on Iran is concerned. And 
I know that they just recently said that they certainly weren't 
going to in any way involve, so to speak, the United States, to 
give us some semblance of separation from that.
    I wonder why it is that the administration doesn't give 
complete support to Israel and say, ``If Iran continues with 
its program, we will do whatever is necessary to stop that 
program,'' and give Israel the support that I think they need. 
Right now, they are surrounded by all of the potential enemies 
you can count. And they really need, I think, in the world of 
public relations, to know--and the world to know--that the 
United States is with them through thick and thin.
    The last thing I talked to you about when you were here--
and I will give you a chance to respond--was that I have been 
very concerned about the entire northern tier of Africa and the 
Persian Gulf becoming radicalized. Tunisia, Libya, Egypt, maybe 
Syria, and in the Persian Gulf area I have been talked to by a 
number of the ambassadors and others there. They are all 
concerned about radicalism taking over. And although we want to 
get rid of people like Muammar Gaddafi and Mubarak--although he 
was a pretty good friend as far as the Camp David accords are 
concerned--although we want to get rid of the bad guys, I would 
like to know what we are doing to guarantee that we are not 
supporting radical Islamists who are going to end up causing a 
bigger problem than the problem we already had.
    I understand that we want to get rid of people that are 
persecuting their populations, but we also have to be concerned 
about what it means to the United States as far as energy is 
concerned, and stability in the region, Israel and all those 
things. And I would like to know what guarantees we have that 
the governments that we are supporting over there, or the 
fledgling governments that we are supporting over there, are 
not going to be radicalized and start supporting and 
implementing Sharia law, and thus we would face a more 
difficult problem down the road than we face right now.
    Secretary Clinton. Well, Congressman, with respect to 
Israel, I can assure you that not only does the Obama 
administration strongly support the defense and security of 
Israel, but we have put more money behind that pledge than has 
ever been put before. We have increased U.S. security 
assistance to Israel every year since FY09. This budget 
includes $3.1 billion for foreign military financing, a $25-
million-increase from the FY12 level. We have a very strong 
support for Israel's missile defense programs, which are an 
essential aspect of what Israel needs in these very challenging 
times.
    And you know, Prime Minster Netanyahu has called the 
bilateral security cooperation unprecedented, particularly with 
respect to cooperative missile defense developments and 
realistic military exercises. So there is an ongoing 
consultation at the very highest levels between our two 
governments. And we share our assessments with the Israelis We 
listen to their assessments. And I think that the Prime 
Minister's words really speak for themselves, that it is 
unprecedented, the level of cooperation and funding that we are 
providing.
    And I will look forward to providing an answer on the 
record regarding North Africa. I just returned from a visit to 
Tunisia, and Algeria, and Morocco. I think we have an 
opportunity there, but I am conscious of the risks and dangers 
you identified.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Thank 
you, Mr. Burton. Mr. Meeks, the ranking member on the 
Subcommittee on Europe and Eurasia.
    Mr. Meeks. Thank you, Madam Chairman. Madam Secretary, it 
is always a delight to have you before us. And I just want to 
say, on behalf of I believe all of the American people, what a 
splendid job you are doing.
    I have three questions that I am going to try to ask you in 
the time that we have allotted. One about our complex 
relationship with Russia, which I believe presents significant 
accomplishments, challenges and opportunities, and our 
disagreements are sometimes profound and frustrate multilateral 
efforts for coordinated action to confront threats of life as 
in Syria, or global security as in Iran. Notably, however, the 
Cold War is behind us, and the United States and Russia are no 
longer eyeball to eyeball with fingers posed over red buttons 
that would release arsenals aimed at one another, and we are 
often now elbow to elbow at conference tables, which I think is 
a good thing.
    Madam Secretary, will you comment on your priorities and 
the strategy with respect to Russia? You may know, or may not 
know, that I am particularly interested in expanding trade and 
economic relationships with Russia, which in the year ahead I 
hope will be a good news story for the United States.
    Secondly, Turkey, which continues to be a strategically 
important player in a challenging part of the world. In fact, 
Turkey has demonstrated leadership in supporting change and 
peace in Syria, and receiving the tens of thousands of Syrian 
refugees who spill across the common border. They have stepped 
into the spotlight, too, regarding events in the Middle East 
and north Africa, and they facilitate U.S. redeployments from 
Iraq. Can you speak about Turkey's growing prominence and the 
United States' relationship with Turkey, including what seem to 
be rough spots with Israel and Iran?
    And lastly, the U.S. leads the world in promoting racial 
and ethnic tolerance and gender empowerment, and I want to 
commend you for your personal leadership in these efforts. I 
would like to focus your attention for just a second on the 
U.S.-Brazil joint action plan, as well as the U.S.-Colombia 
action plan to promote racial and ethnic equality, and I would 
like to hear about your plans for continuing these works on 
these initiatives, especially since I didn't see--I was not 
clear about the funding of these initiatives in 2013, and it is 
very much a concern to me whether that is going to continue in 
the Bureau of the Western Hemisphere.
    And when I was in Brussels, now being the ranking Democrat 
on Europe, our European counterparts have expressed a strong 
interest in concluding such a joint action plan with us also, 
and so I was wondering if the State Department could expand on 
this initiative and look into negotiating an agreement with the 
EU.
    Secretary Clinton. Well, thank you very much for that 
description of a lot of the most important issues that we face. 
Let me focus at the start on Russia, because there will be 
coming before the Congress important work to be done in order 
for American businesses to benefit from Russia's membership in 
the WTO. The United States believes that having Russia in the 
WTO is very much in the interests of the kind of rules-based 
economic system that we think benefits Americans, and that we 
are very keen on establishing firmly for the 21st century.
    So we are looking to have the Congress vote to grant 
permanent normal trade relations to Russia, because it is a 
vote to create American jobs. For U.S. businesses, farmers and 
workers to receive the maximum benefit from Russia's entry into 
the WTO, we have to give unconditional permanent normal trading 
relations treatment to Russian goods that we provide to all WTO 
members.
    That commitment requires us to terminate the application of 
the Jackson-Vanik Amendment. And Jackson-Vanik achieved its 
historic purpose by helping thousands of Jews emigrate from the 
Soviet Union. And Jackson-Vanik is not any longer the kind of 
active tool that we need to promote universal human rights vis-
a-vis Russia. Because we want to continue to press for human 
rights inside Russia, but failure to lift Jackson-Vanik will 
put our farmers, our manufacturers, American businesses, at a 
disadvantage.
    So we very much hope that the Congress will grant PNTR to 
Russia, lift Jackson-Vanik, recognize the need to keep pressing 
on human rights inside Russia, and create American jobs as a 
result.
    And with respect to your other very important questions and 
areas of concern, Congressman, I will just end by saying we 
strongly support the work we are doing with Colombia and Brazil 
to promote racial and ethnic equality. We do have the means to 
continue to work on that within the existing budget, and it is 
a very high priority.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Meeks, 
Madam Secretary. Mr. Rohrabacher of California, the chairman of 
the Subcommittee on Oversight and Investigations, is 
recognized.
    Mr. Rohrabacher. Thank you very much, and I too respect the 
good job you are doing. We have some disagreements, but the 
fact is, you work hard and you take your job seriously. And 
probably of all the members of the Obama administration, you 
have more respect here on Capitol Hill than your other 
colleagues. Sorry, that is a backhanded compliment. I shouldn't 
have said that.
    But there are many lives that depend directly on the 
decisions you make in your job, and I would like to ask two 
questions relating directly to people who are now in grave 
danger, who will be affected by your decision-making. And then, 
after that, if I have some other time, I will ask a couple 
other questions.
    The first one is about Dr. Afridi in Pakistan. As you are 
aware, it is now illegal for the Government of Pakistan to 
receive any aid money from the United States unless you, as the 
Secretary of State, certify that Pakistan is cooperating with 
the United States in counterterrorism efforts and preventing 
terrorists from basing their operations in Pakistan.
    Well, of course, the one Pakistani who did cooperate with 
us was Dr. Afridi, who was the medical doctor who helped 
provide the information that led our Navy SEALs to where Osama 
bin Laden was hiding. But he now has been arrested by the 
Pakistani Government, and is facing a treason charge. His 
property has been confiscated. His office staff has been fired. 
And he is being called a national criminal by that government.
    So can you certify? Are you able to certify that Pakistan 
is cooperating with us, as long as Dr. Afridi, the man who 
helped us get Osama bin Laden, is in custody and being charged 
with treason?
    Secretary Clinton. Well, Congressman, I agree that there is 
no basis for holding Dr. Afridi or any of his staff. In fact, I 
think his work on behalf of the effort to take down bin Laden 
was in Pakistan's interests as well as the United States' 
interest, and we have made that view very well known. We will 
continue to press it. And it is going to be taken into account 
as we move forward.
    Mr. Rohrabacher. Well, if they do not let Dr. Afridi go--
let me just put everybody on notice here--and I believe we are 
going to be watching this closely--there is nothing that could 
suggest that Pakistan is cooperating with us in the fight 
against terrorism, when they have Dr. Afridi, the man who 
helped us get Osama bin Laden, in prison and are treating him 
this way. That is their decision of non-cooperation.
    About one other group whose lives are in danger, there are 
3,000 Iranian exiles who have been residing in Iraq, who you 
are fully aware of. Because they were enemies and are enemies 
of the Iranian mullah dictatorship, these exiled members, who 
are members of the MEK, are in great danger. Our designation to 
their organization as a terrorist organization has been a major 
stumbling block in efforts to resettle them and take them to 
safety. Are we going to wait until there is some kind of 
another slaughter of these people--they already were 
slaughtered down there, unarmed--before we act to try to get 
them resettled? Something as easy as trying to take that 
designation off, of the terrorist organization, would help 
dramatically, and we can do that unilaterally.
    Secretary Clinton. Well, first, we are deeply concerned 
about the security and safety of the residents of Camp Ashraf. 
And we have supported the work of the United Nations to find a 
path forward to relocate the residents, and that has now begun. 
We fully support the MOU, signed in December, between the 
United Nations and the Government of Iraq, and it includes 
commitments from the Iraqi Government for the safety and 
security of the new camp where the relocation is taking place.
    As you know, there were 397 residents relocated on February 
18th. There were complications, but it was peaceful. There was 
no violence. The safety so far has been protected, and we are 
watching that very closely. We continue to work on our review 
of the MEK's designation as a foreign terrorist organization in 
accordance with the DC Circuit's decision and applicable law.
    And I would note that not every resident relocated to what 
used to be Camp Liberty--it is now Camp Korea--may be an MEK 
member. The organization's structure and history dictate that 
we take a serious look at each individual, not prejudge 
membership or the conditions of that person's presence at 
Ashraf. And you know, once again the UNHCR process will be 
expedited. So no government has raised the FTO issue with the 
Department of State as a bar to receiving individuals. And we 
are going to continue to work to ensure the safety and 
security, and we think that we have a good plan.
    And I would say, Congressman, that given the ongoing 
efforts to relocate the residents, MEK cooperation in the 
successful and peaceful closure of Camp Ashraf, the MEK's main 
paramilitary base, will be a key factor in any decision 
regarding the MEK's FTO status.
    Chairman Ros-Lehtinen. Thank you very much, Madam 
Secretary. Thank you, Mr. Rohrabacher. Mr. Engel of New York, 
the ranking member on the Subcommittee on the Western 
Hemisphere, is recognized.
    Mr. Engel. Thank you, Madam Chair. And welcome, Madam 
Secretary. The United States is proud of you, but in New York 
we are especially proud of you. I want to ask three questions. 
I will try to do them one at a time. I have just come back from 
a trip to Israel, where I have met with people at the highest 
levels of government. There is a big fear in Israel that the 
United States is adjusting to the containment of Iranian 
nuclear weapons, rather than stopping them at all costs. And as 
you, of course, know, we have said, ``Let sanctions work,'' but 
many in Israel believe that if we wait too long we will be at 
the point of no return, and then Iran will not be stopped at 
all.
    Can you please comment on that, and assure us that we are 
not for a position of containment?
    Secretary Clinton. Our policy, Congressman, is prevention. 
Our policy is to prevent Iran from attaining nuclear weapons 
capability. We have a two-track policy, pressure and 
engagement. We are pursuing both simultaneously to that end.
    Mr. Engel. Okay. Thank you. I want to speak with you about 
the Balkans. You and I had several discussions in the past week 
or so about Kosovo, and I want to just praise you publicly for 
guaranteeing that Kosovo's rights as a sovereign country remain 
secure throughout recent negotiations with the EU and Serbia.
    While I am glad that Kosovo will take its rightful place as 
a sovereign state in regional negotiations, and I commend Prime 
Minister Thaci for taking this difficult decision, I am 
concerned that Belgrade is advancing to candidate status before 
meeting all of the EU's conditions in normalizing relations 
with Kosovo. And at the same time, as you and I discussed, I 
hope the U.S. will seek additional ways to support Kosovo 
during this process, including through the Millennium Challenge 
program and by pressing the EU to stop dragging its feet on 
Kosovo's European future, and to make sure that Serbia 
implements deals to which it agrees.
    Secretary Clinton. Well, I thank you for your constant 
support of Kosovo and the Kosovar people. I agree with you that 
Prime Minister Thaci showed great leadership. The invitation to 
candidacy that the EU has extended to Serbia has many 
milestones along the way, and resolving border issues, 
resolving a lot of the unfinished business that has to be 
negotiated between Serbia and Kosovo are some of those.
    At the same time, I think it is very important that the 
European Union has reached out to Kosovo and is working to move 
Kosovo closer to European integration as well. This is a 
difficult piece of business. It is a historically complex area, 
as you know better than most, Congressman. But I think we are 
slowly making progress, and I am going to continue to press 
forward.
    Mr. Engel. Thank you. Two things about the Western 
Hemisphere, which the ranking member--the FARC has recently 
announced that it is going to release some of its political 
prisoners, and want people to believe that they have reformed.
    While I am obviously skeptical about anything that the FARC 
says, I wonder if you can comment? President Santos of 
Colombia, of course, has said that it is a good move in the 
right direction, but not nearly enough. I wonder if we could 
have your thoughts on that.
    Secretary Clinton. Well, I think that President Santos is 
exactly right. It is a good move, long overdue, to end their 
kidnapping and their illegal detention of innocent people, but 
there is a lot yet to be finalized. I think that this Congress 
and administrations of both parties should take a certain 
amount of credit for Plan Colombia, for sticking with it, for 
providing the Colombian Government and the Colombian people 
with the means to be able to defend themselves against a 
paramilitary terrorist organization and the drug traffickers. 
So yes, this is a good step, but it is not enough yet.
    Mr. Engel. Thank you. And finally, last year this committee 
adopted a bipartisan amendment which I authored supporting the 
establishment of U.S. Embassies in the five Caribbean countries 
where we have none. These Embassies would be similar to the 
posts we have in Grenada, and would show our Caribbean partners 
that we pay attention to their region. And it would, of course, 
also help connect millions of Caribbean-Americans with their 
ancestral homelands. It will be minimal or no cost, because our 
representation would be established with only five of the 
hundreds of diplomats returning from Iraq and Afghanistan. And 
I am wondering if you can comment on that.
    Secretary Clinton. Well, of course, we believe strongly in 
having positive diplomatic relations with our eastern Caribbean 
friends and partners. And it is a matter of cost. It is a 
matter of resources. I will respond to you in writing, because 
it is a difficult tradeoff for us, Congressman.
    Mr. Engel. Thank you.
    Chairman Ros-Lehtinen. Thank you. Thank you very much, Mr. 
Engel, Madam Secretary. And Mr. Royce, the chairman of the 
Subcommittee on Terrorism, Nonproliferation, and Trade, is 
recognized.
    Mr. Royce. Thank you, Madam Chairman. Madam Secretary, you 
and I have talked about Joseph Kony, who abducted 30,000 
children, the boys he turned into child soldiers, the girls 
into concubines, and some of the horrible circumstances that we 
have had with some of the worst human rights abusers. And 
likewise, people like Viktor Bout, who is now in custody, but a 
gun runner supreme who, as an arms trafficker, armed both sides 
of some civil conflicts.
    There is a rewards program the State Department has, and I 
have legislation to expand that, to include transnational 
organized crime, to go after people like Viktor Bout, as well 
as those engaged in the worst human rights abuses, like Joseph 
Kony. And I know that your department is interested in putting 
a price on the head of people like Kony, so that we can find 
their whereabouts. And I know the goal is to take him off the 
battlefield, and we would need that to do that.
    So we will have a hearing next week on this subject. I 
wanted your thoughts, if I could.
    Secretary Clinton. Well, Congressman, this is the first 
time I have heard of your legislation, but speaking personally 
I would support it, because I have the responsibility of 
signing off on rewards that go to people who have helped us 
apprehend serious criminals and terrorists. I think it is a 
good program. It does provide incentives. So I would be very 
interested in working with you. It is also a lot less expensive 
than some of the alternatives of trying to track down some of 
these bad guys. So let us work together on that.
    Mr. Royce. It is time-tested.
    Secretary Clinton. Yes.
    Mr. Royce. Well, again, Madam Secretary, on another 
subject, this morning it was announced that North Korea has 
agreed to suspend its uranium enrichment, and to a moratorium. 
But that was announced in tandem with the Obama 
administration's finalizing its details on food aid to North 
Korea, 240,000 metric tons of food aid.
    I had legislation passed last year that prohibited food aid 
to any country that diverted it for unauthorized use. And I 
will just explain my concern here. The French NGOs told us of 
monitoring the food aid, which ended up on the food exchange in 
North Korea's capital. And likewise, we have numerous examples 
of sighting of how food aid went to the military in North 
Korea.
    So the law now would indicate that we would have to verify 
that. And we have been duped a number of times in North Korea, 
by North Korea, on these agreements. Of course, what I am most 
concerned about is when they sell it on the food exchange for 
hard currency, it goes into their weapons program, reportedly. 
So I would ask you about that, and get your response.
    Secretary Clinton. First of all, I think you are right to 
be cautious. We are, too. The provision of humanitarian 
assistance is something that we do because of the concern we 
have for the welfare and well-being of people, including those 
who are starving in North Korea. And we have done a series of 
assessments and concluded that a targeted 240,000 metric ton 
nutritional assistance package that targets the key vulnerable 
groups--mostly women and children--is merited.
    But before any assistance program could begin, we have to 
reach agreement on monitoring mechanisms to ensure that the 
food is reaching the people that we intend it for. And that 
will be our responsibility, to try to set up those mechanisms 
and to be as sure as we can be that it is going to be put to 
the right use.
    Mr. Royce. Thank you, Madam Secretary. And within the 
confines of the new law, because we do have to verify this, I 
have suggested a crackdown on North Korea's illicit activities. 
I have seen in the past where that was effective. When they 
were counterfeiting $100 bills, we had the sanctions on the 
bank, Banco Delta Asia, that they were using to run their 
illicit activities through. A lot of their drug smuggling and 
cigarettes and other activities, when you cut off that kind of 
currency, you force the regime to come to the table.
    And I guess one of my great frustrations was, although we 
shut that down for a number of months, and he couldn't pay his 
generals, and the word we were getting back from defectors was 
that they couldn't get the parts--there was a piece for a 
satellite that they needed, or actually, this was for a missile 
program. They needed a gyroscope. They were trying to buy it on 
the black market. They didn't have the money for it, because we 
had, effectively, with sanctions, done this. And then the 
sanctions were lifted.
    My hope would be that the administration would approach 
this from the standpoint that that could be effective. And I 
wanted to ask about----
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    Mr. Royce [continuing]. Whether the administration was 
going to follow through on the illicit activities.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce. Thank you, 
Madam Secretary. Mr. Carnahan is recognized.
    Mr. Carnahan. Thank you, Madam Chair. And Madam Secretary, 
it is great to have you back. I just first want to say thank 
you for following up with co-chair Chris Smith, Chairman Smith 
and I, with the Bosnian Caucus and those concerns that we had 
raised earlier. Given the fact that they have the new 
government in place, we hope that continued U.S. and 
international support can help move the forward. So first of 
all, thank you for that.
    I also wanted to commend you on the recently announced 
international partnership, the Climate and Clean Air Coalition 
to reduce short-term pollutants. It underscores the global 
nature of the challenge, as well as the advantages to working 
with our partners at the U.N. and around the world. I wanted to 
ask, has that investment paid off in terms of stronger 
commitments by developing countries? And can we count on them 
to continue to fulfill those commitments if we are not honoring 
our pledges?
    Secretary Clinton. Well, thank you for raising that, 
Congressman, because we continue to believe that climate change 
and the consequences of climate change pose national security 
problems to us. And so we are looking for ways to try to move 
forward where we can, and take practical steps. The fact is 
that the short-term climate forcers--things like methane, 
things like black soot, or black carbon and soot--are more 
easily dealt with than carbon dioxide. And I think that what we 
have put together here, which is the Climate and Clean Air 
Coalition, has developed countries like Sweden, underdeveloped 
countries like Bangladesh, developing countries like Ghana, 
Canada, and we have had a really positive response from 
countries around the world, asking how they can be involved.
    So we think this is a way to help cut down on about 40 
percent of what the pollutants in the atmosphere are that 
affects climate change. So we are going to be promoting this 
issue. It is not as controversial, it is not as far-reaching. 
We still have to deal with the greenhouse gas emissions and try 
to come to grips with CO2, but it gives us something that 
people can do.
    And I will give you a quick example. We have a Global 
Alliance on Clean Cookstoves. How women cook, about 2 billion 
of them around the world, creates respiratory illnesses, puts a 
lot of soot, black carbon, into the atmosphere. If we can 
create a market for a more clean-burning cookstove, we improve 
health and we improve the environment at the same time. So 
there are a lot of win/win strategies that we are working on 
here.
    Mr. Carnahan. Thank you. I also wanted to follow up on the 
SIGIR Audit Report of the police development program, and it 
revealed issues in Iraq of poor planning, mismanagement, 
inefficient evaluation metrics. So in this current budget, what 
is being done to enhance those monitoring mechanisms in a way 
that ensures that police training is really being ramped up the 
way that it needs to be? It is also ensuring the integrity of 
our tax dollars. And really related to that, as this similar 
kind of transition is approaching, fast approaching, in 
Afghanistan, the lessons we have learned in this transition in 
Iraq, how can we apply those in Afghanistan as well?
    Secretary Clinton. Well, the police development program has 
been operating since October 1, 2011, when the State Department 
became the U.S. lead for police development. Since October, our 
senior police advisors, who are the most experienced group of 
police advisors ever fielded by the U.S. Government, have had 
approximately 690 total mentoring and advising sessions with 
over 86 Iraqi counterparts. And we have recently completed an 
assessment of Iraq's Ministry of Interior and police services, 
so that we can really refine how we are monitoring and what 
kind of performance measurements we need.
    I think that SIGIR performs a valuable oversight service. 
We welcome helpful recommendations about how to make the police 
development program better. We are implementing the 
recommendations from the fall audit, and we are going to 
continue to look at opportunities to improve the effectiveness 
of these programs. We think they are critical to the stability 
and security of Iraq. So we take it very seriously, and we take 
recommendations from SIGIR and others very seriously as well.
    Mr. Carnahan. And finally, in my remaining time, I just 
want to add my voices to others about our continued effective 
and full engagement at the U.N. Certainly not a perfect body, 
but one that--certainly there have been some successes there, 
vital for our security and economic interests. And I appreciate 
those continued efforts.
    Secretary Clinton. Thank you.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Chabot, the 
chairman of the Subcommittee on the Middle East and South Asia, 
is recognized.
    Mr. Chabot. Thank you, Madam Chair. Madam Secretary, 
because of limited time I would like to raise three issues and 
then give you the remaining amount of my time to address them. 
First, Iran. On the subject of the Iranian nuclear program, the 
Fiscal Year 2013 Congressional Budget Justification notes that, 
``The Bureau of Near Eastern Affairs will maintain pressure 
through sanctions to encourage Iran to return to the 
negotiating table.''
    This policy, however, is essentially the same unchanged 
Iran policy that the administration has had since it took power 
back in January 2009: Engagement and pressure. On July 12th, 
2009, over 2\1/2\ years ago, you stated that, ``We understand 
the importance of offering to engage Iran and giving its 
leaders a clear choice. The opportunity will not remain open 
indefinitely.''
    As we enter year 4 of this policy, it seems to me to be 
painfully obvious that this administration's policy is not only 
the same, but that it has failed to achieve the core objective: 
Persuading the regime in Tehran to abandon its pursuit of 
nuclear weapons capability.
    Just this morning, in your testimony before the House 
Appropriations Subcommittee on Foreign Operations, you said 
that you believe we are making progress on the sanctions front. 
My question is, how have these sanctions actually altered the 
Iranian regime's calculation about its nuclear program? And let 
me say, I don't think merely getting them to the table is 
enough. We have seen numerous times that the regime in Tehran 
uses negotiations as a delaying tactic, and that a willingness 
to negotiate does not equal a willingness to make concessions.
    Second, I would like to ask you about Iraq. Within hours of 
the departure of the final U.S. convoy, a political crisis 
started occurring in Iraq which, if not checked, has the 
potential to throw the entire country back into sectarian civil 
war that we spent years working to resolve. Many Iraqis 
continue to die in daily attacks across the country, and 
according to one report our influence over the Maliki 
government has diminished significantly.
    The State Department Congressional Budget Justification 
notes that, ``Renewed sectarian conflict or increased 
interference by malign regional actors seeking to fill a vacuum 
left by U.S. disengagement would pose a significant threat to 
U.S. influence in the region.'' It seems undeniable that the 
continued presence of even a modicum of U.S. troops would have 
resulted in far more stability and security than we are seeing 
now.
    Given our lack of a military presence and our diminished 
diplomatic leverage, how does the administration plan to deal 
with the current deterioration on the ground in Iraq?
    And finally, Madam Secretary, if I may, I would like to 
briefly touch upon the issue of outstanding claims by American 
companies against the Government of Saudi Arabia. In the last 
20 years or so, thanks in large part to congressional and 
executive branch pressure, a number of previously unsettled 
cases involving more than a dozen American firms, totaling 
somewhere in the neighborhood of $500 million, have been 
resolved.
    I learned last year that at least one such unsettled claim 
with the Saudis remains. Despite continued efforts by the 
party, Gibbs & Hill, the U.S. Government, and repeated 
encouragement from Members of Congress, the claim, resulting 
from a desalinization project in the last '70s and early '80s, 
and totalling, I am told, more than $130 million, has still not 
been settled.
    I discussed this case with the Saudi Petroleum Minister 
when I met with him in Riyadh last year, and I offered an 
amendment to the Foreign Relations Authorization Bill to 
further encourage the Saudis to move expeditiously to resolve 
this claim. I would be happy to work with your office on this 
issue. This claim is of significant importance to an American 
company and their workers, and it should be of importance to 
the reputation of the Saudi Government, which I am sure does 
not want to be known as one which does not pay its bills.
    And we have got about 1 minute for all of those, Madam 
Secretary.
    Secretary Clinton. Well, I will take the last one, because 
that is shorter, and then get back to you on the important 
questions concerning Iran and Iraq.
    The State Department is well familiar with the Gibbs & Hill 
contract dispute. It has been raised at high levels for a 
number of years. At the request of counsel for Hill 
International, the State Department recently conducted a review 
of all of our records in this matter. We have a standing 
invitation to officers of Hill International to come in and 
discuss the results of this review, to bring not only 
representatives but counsel of the company.
    We regularly meet with representatives of Hill 
International, because they still do business in Saudi Arabia. 
In fact, they do quite a bit of business. And they come in and 
talk to us about commercial ventures and business climate, so 
if they wish to come in and talk to us about our review of the 
records, we stand ready to do so.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot. 
Thank you, Madam Secretary. Mi hermano Cubano-Americano--now, 
that was easy enough for everybody to understand--Mr. Sires of 
New Jersey is recognized.
    Mr. Sires. Thank you, Madam Chair. Madam Secretary, thank 
you for being here and thank you for the service that you give 
this country. You certainly make us proud. And I don't know how 
you do it, but every time I see you, you are in a different 
country. It is amazing. I also want to commend the 
administration for standing firm on Cuba not participating in 
the Summit of the Americas. And I also wish to add that, if we 
could use some of our pull with the OAS, maybe they could speak 
up a little louder about the human abuses that are occurring in 
Cuba currently.
    And with that, it brings me to Alan Gross. And I know you 
mentioned Alan Gross before, but I just want to know that there 
are no negotiations going on for a swap between the Cuban spies 
that are in prison for Alan Gross. And I know that we have two 
senators who were in Cuba a couple days ago, and I was just 
wondering if you know anything about any kind of negotiations 
for a swap.
    Secretary Clinton. Well, I have to say that the continuing 
imprisonment of Alan Gross is deplorable. It is wrong. It is a 
violation of human decency as well as human rights, and at 
every single meeting that we possibly can arrange, we raise 
this issue. We call people around the world to raise this 
issue, because Mr. Gross deserves to come home.
    At no point, however, has the United States Government been 
willing to give any unilateral concessions to the Castro 
regime, or to ease sanctions as a means to secure Mr. Gross' 
release. We think this should be done as a matter of 
humanitarian concern, as evidence that the Castro Regime is 
willing to demonstrate that it is moving in a different 
direction. But it hasn't happened yet. So we have not had any 
success in our diplomacy. We would like to see Mr. Gross home, 
but we have made no deals, we have offered no concessions, and 
we don't intend to do so.
    Mr. Sires. Thank you. And I would also like to associate 
myself with my colleague, Chris Smith, on the human rights 
abuses, and especially what is going on in Egypt with the 
Coptic Christians. I have a big population of Coptic Christians 
in my district, and they are very concerned about the family 
members that they have back home. And I hope that we continue 
to speak up on their behalf.
    I also--I know you didn't address this, but if we could use 
our leverage with the OAS to speak up more on human rights 
abuses, that would be great. And one of the things that is my 
pet peeve, I know that the State Department operation funding 
for Iraq has been reduced--I think this year it is going to be 
$4.8 billion--and I know that the Department of Defense also 
has reduced from 9.6 to 2.9, almost $3 billion.
    I was just wondering if any of that money is used for 
infrastructure building in Iraq. We have a situation in America 
where our infrastructure is falling apart, and since I have 
been here we have been giving money to Iraq to build their 
infrastructure. So I was just wondering how this money is going 
to be used. Do you know?
    Secretary Clinton. Well, Congressman, as you know, we have 
dramatically scaled back on what we spend in Iraq, primarily 
because the military has left in agreements that were 
negotiated by the prior administration. And now what we are 
focused on is our civilian presence. So we don't fund Iraqi 
infrastructure any longer, and what was funded was primarily on 
the military side, not the civilian side.
    Mr. Sires. Okay. And getting back to Cuba, my last issue. 
We have a criminal who killed a state trooper in New Jersey, 
JoAnne Chesimard. She has been living in Cuba for over 20 
years. She shot a state trooper point blank, and every time I 
am back in the state and running through the state troopers, 
they want me to raise this issue, to see if the State 
Department, when you meet with Cuba, or when you do your 
conversations with some of the Cuban counterparts, is the issue 
of JoAnne Chesimard ever raised, or is it just a forgotten 
issue?
    Secretary Clinton. Well, it will be now raised, if it 
hasn't been raised. And I thank you for raising it, because I 
well remember that terrible case. And I am confident it has 
been raised, but I will assure you and the state troopers in 
New Jersey it will continue to be raised in the future.
    Mr. Sires. Okay. Madam Secretary, thank you for your 
service to this country.
    Chairman Ros-Lehtinen. Thank you so much. My Florida 
colleague, Mr. Mack, the chairman of the Subcommittee on the 
Western Hemisphere, is recognized.
    Mr. Mack. Thank you, Madam Chair. And I also would like to 
thank the Secretary for being here, and making herself 
available to questions from the committee. I want to go and 
continue to explore the Keystone XL pipeline, but I first want 
to--just for a point of clarification for everyone, we would 
much rather, as a policy in the United States, buy oil from our 
friends and allies in Canada than we would from Venezuela. 
Would you agree with that?
    Secretary Clinton. Yes. And we do buy, as you know, a lot 
of oil from Canada.
    Mr. Mack. If we had the option to stop buying oil from 
Venezuela and get more oil from Canada, that is also a policy 
that we would pursue, isn't it?
    Secretary Clinton. Well, obviously, we would rather buy oil 
from friendly countries. And we are doing everything we can to 
diversify our oil supply, including producing more oil here in 
the United States, which is all to the good.
    Mr. Mack. So why the flip-flop on the Keystone XL pipeline?
    Secretary Clinton. I don't think there was any flip-flop, 
Congressman. I think that this was always a matter that had to 
be evaluated in accordance with legal and regulatory standards. 
Certainly energy security consideration was a key factor, but 
not the only factor. There was a lot of concern on the part of 
one state through which the pipeline traveled----
    Mr. Mack. And on that note, your environmental impact 
statement approved the original route, and now there has been 
an agreement upon another route that the Governor and others 
have come out and supported, correct?
    Secretary Clinton. Well, I think that what the finding was, 
is that there was minimal environmental disruption, but the 
national interest consideration had not yet been finalized, 
which is why State Department representatives fanned out across 
the states affected, and there were quite large and contentious 
and emotional meetings in Nebraska, and a plea by the Governor 
and everybody else that a different route be considered.
    And once that was requested--and it was complicated because 
Nebraska didn't have legislation that really got it into the 
business of judging routes before, but they were concerned 
because of the sand hills and the like--once they demanded a 
different route, and then there was an effort to work out a 
different route, the Congress of course, through an amendment 
to the payroll tax cut said, ``No, you have to make a decision 
right now.''
    And legally, there was no alternative but to deny the 
permit. We did not recommend to the President that the answer 
be no, but that the presidential permit for the project be 
denied at that time, because there would have been, I think at 
a conservative estimate, several hundred lawsuits if there had 
been any other decision made, which would have pushed the 
decision, whatever it might be, far into the future.
    Mr. Mack. So are you prepared to do it now, then?
    Secretary Clinton. We have no pending application now. 
There is no application----
    Mr. Mack. If you had an application, would you approve it 
now?
    Secretary Clinton. We have to----
    Mr. Mack. Have all of the other scenarios been----
    Secretary Clinton. Congressman, we would have to go through 
the process, because it would be a new application. Now, what 
TransCanada is doing is announcing that it is----
    Mr. Mack. Because my time is limited, if I can get to----
    Secretary Clinton. Okay.
    Mr. Mack. I mean, even the former President, Bill Clinton, 
says, ``Embrace it, and we need to move forward with the 
Keystone XL pipeline.''
    Secretary Clinton. He is a very smart man. [Laughter.]
    But unfortunately, he is not bound by the laws and 
regulations any longer of the United States to make decisions 
that follow a certain procedure. And that is what we have to 
do.
    Mr. Mack. So is it a mistake for the former President to 
say, ``Embrace it?''
    Secretary Clinton. Of course not. I think it is not a 
mistake for people to--this is America. People say they embrace 
it, people say they hate it. Our job is to take a very clear-
eyed look at what the facts are. There is no pending 
application.
    Mr. Mack. Did the White House ask you to delay the process?
    Secretary Clinton. No. Our job was to make a 
recommendation----
    Mr. Mack. Here is where I have the problem. Because in 
conversations that you and I have had, and also in front of 
committees, you have led us to believe that it is something 
that the State Department was going to approve, and it just 
seems a little fishy to me that, at the height of this thing, 
that it seems that the President found a way to wiggle out of 
it, and wants to make you the scapegoat. And I don't understand 
why--just, the facts don't mesh up.
    Secretary Clinton. Well, you know, Congressman, that is 
just not how we see it. I think that the people in the State 
Department--I was fully and regularly briefed on the 
Department's review process. I fully support the recommendation 
that the Department made. This is a difficult decision for the 
State Department to make, because most other pipelines are not 
within the purview of the State Department. We don't have the 
kind of staff experience, expertise and numbers that you have 
in other places within the United States Government.
    Chairman Ros-Lehtinen. Thank you.
    Secretary Clinton. But under the laws, if that pipeline 
crosses an international border, then it is our responsibility. 
So what TransCanada is doing is announcing they are going to 
start building parts of the pipeline that don't cross the 
international border. But I have to defend the process that the 
State Department went through, which was fully in accord with 
the laws of the United States.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Mack, Madam 
Secretary. Another Florida colleague, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman. Madam Secretary, 
thank you for being here. It is safe to say that, certainly 
here on the Hill and around the world, you are extraordinarily 
respected for the job you do. And I particularly would like to 
thank you for your leadership in the critical areas of 
stability in the Middle East, preventing a nuclear-armed Iran, 
human rights, and in particular your continued strong advocacy 
for foreign assistance.
    I would like to talk first about Syria. And rather than 
continue the discussion that you have had already on what 
happens, how what is happening in Syria now ultimately ends, I 
want to talk about what is happening right at this moment. And 
in particular, just today it was reported that 23 people were 
killed when Syrian troops ambushed a group trying to smuggle 
Western journalists into the country. I don't know whether the 
body of Marie Colvin, the American who wrote for the Sunday 
Times of London, whether that body has been recovered. If you 
have information, I would welcome that. The same with the 
Frenchman, Remi Ochlik.
    The fact is that, even as we talk about the big picture in 
Syria, the humanitarian situation deteriorates daily. Food and 
medicine are not being delivered to civilians. It is a tragic 
situation for the people of Syria. And I would like you to 
address that, and specifically what you can do and what we can 
do to alleviate those concerns now, and to convince the 
Russians and the Chinese to, notwithstanding their views on the 
Assad regime, to at least support a humanitarian cease-fire and 
put pressure on Assad to permit a humanitarian cease-fire, so 
that the people of Syria can at least receive the basic 
foodstuffs and medicine that they desperately need.
    Secretary Clinton. Well, Congressman, I share your concern 
and your outrage. Every day that goes by just compounds the 
crimes against humanity committed by this regime and their 
security forces. When we met in Tunisia last Friday, we made 
three commitments. First, increased humanitarian aid. I 
announced a $10-million commitment to assistance projects. 
Secondly, to keep working with the opposition, so that they get 
stronger, more effective, and that they are inclusive, so they 
truly represent all Syrians. And thirdly, to keep pressing for 
a political resolution.
    And the Arab League plan, which called for Assad to step 
aside, is the plan that people feel most comfortable pushing.
    You know, the fact is, access is a terrible problem. There 
is not even a willingness on the part of the Assad regime to 
let the Syrian Red Crescent in to pick up bodies, to deliver 
medical supplies and provisions. And they effectively not only 
block such aid, but they target those who are trying to provide 
it. So we see a brutal use of violence against the people of 
Syria and everyone trying to help them.
    So we are looking with our allies, particularly in the 
neighborhood, those who have borders, how do we get this aid 
in? How do we protect people who are trying to put it in? And 
we are going to continue to do everything we can, not only to 
help get that aid in but pressure the Assad regime. And we are 
working actively to persuade the Russians and the Chinese, and 
at the very least they ought to support humanitarian 
assistance. Put aside the political disagreement we have about 
supporting a leader who has murdered so many of his people with 
artillery. Let us focus on how we help the Syrian people. So 
that is our goal right now.
    Mr. Deutch. I appreciate that. Switching gears in the 
remaining time I have, it had been, I believe, misreported that 
what was going to be the largest joint military exercise 
between the United States and Israel had been cancelled because 
of the decision made by the administration. It was later 
reported that it was a decision made by the Israelis. If you 
could speak to the reason for that cancellation, what will come 
next, and whether in terms of security cooperation, that type 
of joint military exercise--why it is important and whether it 
is consistent with other joint military exercises like that 
that we have engaged in.
    Secretary Clinton. Well of course, you know, DoD is the 
agency to whom such a question should be directed. But I 
believe it is either in the process or has already been 
rescheduled. We have upped our security assistance to Israel. 
As I said earlier, Prime Minister Netanyahu calls our bilateral 
security commitment from the Obama administration 
``unprecedented,'' and those include realistic and ongoing 
military exercises, which we think are very important.
    Mr. Deutch. I appreciate that. And Madam Chairman, if I may 
just finally, if I could, Madam Secretary, please just 
encourage you to continue press for information about my 
constituent, Robert Levinson. It is of great importance in my 
community, and I hope that you will continue to press.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Fortenberry 
is recognized.
    Mr. Fortenberry. Thank you, Madam Chair. And Madam 
Secretary, welcome. Let me start with a question about Egypt. 
In 1979, as a young person, I entered the Sinai Desert, in the 
place where there was fighting between Israel and Egypt in 
1973. And on a twisted pile of rubble and concrete were 
scrawled the words, ``Here was the war, here is the peace.''
    I was there in a jubilant time, where there was a 
celebratory atmosphere of the newfound relationship between the 
United States and Egypt. The United States had successfully 
brokered that treaty, and the courage of President Sadat and 
Prime Minister Begin to extend their hands in friendship has 
left us with a stable foundation for peace for the last 30 
years between those two countries.
    Now, with the latest event that has occurred, with the 
change of governing structures and a great deal of uncertainty, 
and an unclear commitment to that path of peace, given the deal 
that we put together and the amount of aid that we have given 
both to Israel, but to Egypt as well, and with the effrontery 
of the Egyptian authorities holding, arresting Americans who 
are simply there to help Egyptians, what is the 
administration's position on potentially suspending the aid 
package?
    Secretary Clinton. Well, Congressman, first of all, in all 
the discussions that we have had and that we are aware of that 
Egyptian authorities have had with other countries, they remain 
committed to the Camp David Accords, which we think is in 
Egypt's interests and certainly in Israel's interests.
    So we are mindful of the importance of ensuring the 
continuity of that peace and stability, and we don't want to 
pre-judge what the new government will do. Because I think it 
is fair to note, there is no government yet. They are in the 
process of putting in place a government, and the people who 
are still there but not elected or appointed by the new 
authorities can't really make decisions yet. There is no 
President or Executive authority yet chosen.
    So I counsel patience, because we first have to get to know 
who the government is. And we are working very hard, through 
many different channels, to develop relationships with the 
people who will be in the new Parliament, for example. So right 
now, I can report to you that there is an ongoing commitment to 
preserve the Camp David Accords. You know, we are having some 
difficult bumps right now. We are hoping to resolve the NGO 
situation very soon. Then, I think, we have to take stock of 
where we are and make a decision based on the facts.
    Mr. Fortenberry. Well, given certain tensions in the past 
with our Egyptian relationship, I have always argued publicly 
that it was better to grab the hand of friendship then grab it 
tighter to work through that. Now, it gets a lot more delicate 
now when there is an unclear pathway to potentially upholding 
these agreements that have worked so well, not only for the 
Israelis but the Egyptians. And for decades, I am afraid that 
the international community has taken that Camp David Accord 
really for granted, but it is an important pathway for peace.
    Let me turn quickly to the President's Lord's Resistance 
Army Comprehensive Strategy. We voted unanimously in last 
year's State Department Authorization Act to allow for the 
deployment of military advisors in the region to bring Joseph 
Kony to justice. I am concerned, though, that multilateral 
interest is potentially dissipating now. I think cooperation 
among governments in the region is critical in this regard. Can 
you comment on this?
    Secretary Clinton. Well first, I thank you for authorizing, 
encouraging, such a comprehensive U.S. strategy to bring this 
murderer to justice. As you know, small teams of U.S. military 
advisors were deployed in December and January to forward 
locations in the LRA-affected areas. The advisors are working 
to create more cooperation among regional militaries and 
enhance their capacity.
    Although there are approximately only 100, we think they 
are force adders to what is already going on, and we have a 
clear goal, which is to enable local forces to end the reign of 
terror. And we think that this small number of U.S. advisors 
can play an outsize role in bringing about that conclusion.
    Mr. Fortenberry. Regional governments must be able to step 
in and assume the challenge moving forward.
    Secretary Clinton. Yes. And starting with regional 
militaries, but including regional governments.
    Mr. Fortenberry. Let me turn quickly, before the time is 
up, to urge you as well--and I think this came up earlier--to 
speak on behalf of Pastor Youcef Nadarkhani, who is guilty of 
the crime in Iran for witnessing to his faith. Now, the last 
time you were here you talked very forthrightly about your 
desire, yet struggles, to talk about the need for religious 
freedom as new democratic ideals arise in----
    Chairman Ros-Lehtinen. I will let you finish that thought, 
Mr. Fortenberry, but we are out of time. Go ahead.
    Mr. Fortenberry. Thank you, Madam Chair. Going back to my 
train of thought, I will try--but to continue to raise his 
issue as an example of how religious freedom is a natural right 
that is consistent with the ideals of all of humanity. So I 
just urge you to not only try to save his life, but point to 
that as to how governments who are looking for more just human 
rights, or better human rights conditions and more just forms 
of governance, must treat the issue of religious freedom.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Cardoza is 
recognized.
    Mr. Cardoza. Thank you, Madam Chair. And thank you, 
Secretary Clinton. It is great to have you here again. This 
will be my last year in Congress, and I hear rumors that it may 
be your last year as Secretary of State. I just want to take 
this opportunity to thank you for your tremendous service to 
our country in so many different ways.
    Madam Secretary, I want to raise the issue of our ally, 
Portugal. I represent a number of Portuguese-American 
residents, and I share that heritage. And there are a number of 
issues with regard to the Azores and visas and consulates that 
I am very concerned about.
    The consulate in Ponta Delgada is being rumored to be on 
the list for closure. It is one of the original consulates of 
our nation, and it is something that I would ask that you do 
everything within your power to preserve. Certainly this is a 
budget discussion today, and so it is appropriate to discuss it 
in the budget.
    The second question that I would have is that there are 
questions of visas, that members--citizens of Portugal would 
have to go to France in order to obtain certain kinds of 
immigration visas or green cards to the United States. I 
understand the number may only be 150, but the relationship 
that we have with Portugal is so important. When the Gulf War 
first started, the original summit was in the Azores, and 
Portugal was the host country. There may not be a better friend 
to the United States anywhere in the world. And I would just 
like to have you discuss that, if you can.
    And finally, I will share with you that I was somewhat 
dismayed a while back when the President indicated in the 
negotiation strategy of a reversion back to the '67 lines in 
Israel as part of where he thought it might end up. And maybe 
you can clarify that for me and for everyone, because that is 
something that I happen to have been in the country when these 
statements were made, and I am not sure that the '67 lines are 
defensible, or the correct--there may be adjusted lines, and so 
I would just like to hear the administration's position again 
on that.
    Secretary Clinton. Well, first with respect to Portugal, I 
share your view that Portugal is a wonderful friend, and not 
only a good partner in NATO and in so many other areas, but the 
source of a lot of Portuguese-Americans, culture, food, so much 
else. I will have to take those questions for the record, 
Congressman, because I want to look into the two areas that you 
raised, but I want to assure you that we highly value our 
relationship with Portugal and will be very careful in making 
any decisions that would affect the free flow of people and 
trade.
    Secondly, I think if you look at the President's speeches, 
first last May at the State Department and secondly before 
AIPAC, there is a very clear set of understandings that the 
President lays out. And there was no reference to going back to 
the exact borders. I mean, it would be based on negotiation 
between Israel and the Palestinians, and it is anticipated that 
there would be a certain set of decisions that would have to 
take into account what has happened in the years since.
    But certainly from our perspective, looking at those 
speeches and looking at the reaction in Israel, which was very 
positive, to both of them together--and we obviously are 
pursuing with Israel and the Palestinians an effort to get the 
negotiations restarted. Because there is no shortcut. We 
support the two-state solution. We want to see it negotiated by 
the parties themselves.
    And it has turned out to be quite challenging to do that 
for a variety of reasons, but our position remains the same, 
that any final status issue ultimately has to be decided by the 
parties. We and others can put forth suggestions, 
recommendations, and ideas about what would work, but it is a 
negotiation, and the negotiation has to be resolved by the two 
parties most affected.
    Mr. Cardoza. I totally agree with you, Madam Secretary. 
Thank you for that reclarification, and I appreciate it. I 
would just like to make a notation on my original point about 
the Azores. There is a base there that is of strategic 
importance to us. It is really more important to bring up with 
the Secretary of Defense, but I will share it since I have this 
opportunity today.
    Our base at Terceira in the Azores is critical, and is 
being--the totality of things that are coming to pass, the 
potential closing of Ponta Delgada, the visa question, and the 
potential closing of the base at Terceira--is having a view 
within that sphere that we don't care any longer. And I raise 
the issues in combination because I think it will strain 
relations.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Cardoza. Mr. 
McCaul, the vice chair of the Subcommittee on the Western 
Hemisphere.
    Mr. McCaul. Thank you, Madam Chair. Welcome, Madam 
Secretary. Recently I led a delegation to Pakistan, Afghanistan 
and Iraq, and it was very, very interesting. And we had a sit-
down meeting with President Zardari, a very frank discussion.
    He looked at us in the eye and said he had no knowledge 
that bin Laden was in his country. But we do know it is 
probably likely that lower-level officials knew of his presence 
in Pakistan. Then we had Dr. Afridi, who helped us over there, 
and now he is in prison for treason, as was pointed out 
earlier. They gave the Chinese access to the helicopter that 
was left behind at the compound.
    And then, finally, the Haqqani Network. We talked about the 
Haqqani Network, and I asked for his support, as you have very 
strongly in the past asked for his support to go after the 
Haqqani Network. And he said he doesn't play--he goes after all 
terrorist organizations, not just the Haqqani. However, last 
year we had the chairman of the Joint Chiefs, Admiral Mike 
Mullen testify that, with ISI support, Haqqani operatives 
planned and conducted a truck bomb attack, as well as an 
assault on our Embassy. We also have credible evidence that 
they were behind the June 28th attack against the 
Intercontinental Hotel in Kabul, and a host of other smaller 
but effective operations.
    In short, he said the Haqqani Network acts as an arm of 
Pakistan's Interservices Intelligence Agency, which takes me to 
my next question. We are giving all this foreign aid to a 
country that is complicit in working with the terrorists who 
are killing Americans. I understand all the implications. 
Zardari referred to our relationship as like a bad marriage, 
but divorce is not an option.
    But when it comes to the funding, we are looking at 
crafting legislation that would essentially require the State 
Department to certify that they are not working with these 
networks, including Haqqani. And if that cannot be certified, 
then the foreign aid will be cut off. I would like to get your 
thoughts on that legislation.
    Secretary Clinton. Well, I think, Congressman, what 
President Zardari told you on behalf of the civilian leadership 
of the Government of Pakistan is true. He has been a good 
partner in going after terrorism that threatens his country and 
Afghanistan and our troops. We have no evidence of any high-
level official knowing about bin Laden, but like you I have to 
assume that lower-level people had to have known something. But 
we haven't proven that. It can be asserted, but not yet proven.
    So this is a complicated, difficult relationship, and what 
we are doing now is making it very clear what our expectations 
have to be going forward. And there is no doubt in my mind that 
certain elements of the Pakistani Government are more 
ambivalent about cracking down on terrorism than other 
elements.
    You know, when I sit across from the Foreign Minister, or 
talk to the Ambassador, or talk to the Prime Minister and 
others, I think they are very sincere. They know that the 
scourge of terrorism is killing Pakistanis. Zardari knows that 
terrorists killed his wife. And yet there have been 
relationships between terrorist groups and the military, and 
the intelligence services, for many decades.
    And what is unique now is that this democratically elected 
government has survived longer than any other democratically 
elected government. For the first time in the Parliament, you 
have questions being asked of the military and the ISI. You 
have the Supreme Court asking questions about the actions of 
the military and the ISI. So you see the strains and stresses 
of trying to have a civilian government in a democracy assert 
control over all elements of the government.
    And we want to continue to support the democratic trend 
inside Pakistan. So walking this line, trying to make sure what 
the levers we can pull are, where we can really put pressure, 
is basically how I spend a lot of my time. And I take seriously 
the underlying thrust of your question, and I will carefully 
evaluate all factors when it comes time to make a decision.
    Mr. McCaul. Let me just say thank you for--you have been 
very strong about the Haqqani Network. I think Zardari is 
sincere in his efforts, but I don't think he has a lot of 
control over his own military and the ISI, and I think that is 
part of the problem.
    And so I would urge you to continue your efforts to get 
them to fight with us against these terrorists, rather than be 
complicit with them.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Cicilline is 
recognized.
    Mr. Cicilline. Thank you, Madam Chairman. And welcome, 
Madam Secretary. It is wonderful to have you back before the 
committee. And thank you for the thoughtfulness of your budget 
proposal, both in its fiscal responsibility and in its 
diplomatic priorities. So I thank you for that, and thank and 
acknowledge all the men and women who serve under your 
leadership at the State Department. You have helped, really, to 
restore America's position in the world, as our ranking member 
said, ``as a partner for peace and democracy,'' and we are all 
grateful and thank you for your service.
    And we have had a lot of discussions today about various 
parts of the world that are of great concern, and particularly 
unsettled, areas of great violence. And I would like to really 
focus my inquiry on two areas really closer to home. And the 
first is--and I will just articulate the questions, then give 
you the balance of my time.
    The first is really about the sort of events in the Middle 
East in general--in Syria, in Iran, in that region of the 
world--and its impact on our gas prices here in the United 
States. And I know that we--in my home state we have seen a 
tremendous increase in gas prices, almost 40 cents from a year 
ago today.
    And I am wondering if you can speak to your perspective on 
how a variety of international events that you are closely 
monitoring might have an impact on fuel prices in the near 
term, and also what we are doing, both diplomatically and in 
terms of development efforts, in the long term to ensure that 
gas prices are stabilized, or that at least in the long term 
they are mitigated.
    Because I think we hear a lot about how this unrest is 
contributing to our rising gas prices, and some of us also know 
that a big part of it is speculation and gouging, and we are 
going to take up some legislation, hopefully, to address that. 
But I think that events around the world are certainly 
impacting it, and I would love to hear your perspective on 
that.
    And the second issue I would ask you to speak to is 
something I hear a lot about back at home. As you know, Rhode 
Island is a huge manufacturing state, and we are really engaged 
in this whole make it in America agenda, to rebuild and 
reinvigorate American manufacturing. And one of the challenges 
we face and I hear from Rhode Island manufacturers is about the 
Chinese and their behavior as trading partners, and their 
manipulation of currency, and their refusal to protect 
intellectual property, and the challenges of their policies of 
indigenous innovation and technology transfers. And so I would 
like to hear you speak to some of the State Department's 
efforts diplomatically to help really even the playing field, 
so that we can really rebuild American manufacturing in our 
country.
    And again, thank you. And I will finally associate myself 
with Congressman Cardoza's remarks on the Azores and the 
importance of both of those issues. And I will submit a written 
question related to our efforts to ensure that the Turks 
respect the Christians, and are respecting the churches and 
religious freedom in that country, which I will follow up with. 
Thank you, Madam Secretary.
    Secretary Clinton. Thank you, Congressman. With respect to 
gas prices, I think there is room for considering ways to rein 
in speculation and gouging, yes. Are there events that are 
happening in the world that raise questions? Yes. But to the 
extent that it justifies or can explain the increase in the gas 
prices? I don't believe so. So therefore, I have long thought 
that there has to be some market mechanism that can be explored 
to try to break speculation that is unrelated.
    Now, if the Iranians close the Strait of Hormuz, that would 
be a real event and we would have to deal with it. And we have 
said we would deal with it, but that would cause the market to 
obviously react. But right now, there is talk in the air about 
all kind of things, but there is no event. So I do think it is 
worth exploring the legislation that you reference.
    With respect to manufacturing, this administration has 
brought more trade actions against China, against unfair trade 
practices, against the theft of intellectual property, against 
the use of indigenous innovation, and we will continue to do 
so. Because we don't fear a level playing field.
    I have great confidence in the workers and businesses of 
Rhode Island to be competitive with anybody. But if a big thumb 
is on the scale, whether it is currency manipulation or 
indigenous innovation, or the unfortunate theft of intellectual 
property, that makes competition one-sided. And so this 
administration has taken a very aggressive approach on the 
defensive side. On the offensive side, I just hosted a big 
conference at the State Department where we had all the 
American chambers from around the world come in to talk about 
how we could do a better job helping American businesses, how 
we could really knock down those barriers, cut through that red 
tape.
    And so we want to be deeply involved with our 1,000 
economic officers around the world in helping to open markets 
and create jobs here at home. We consider that part of what we 
call economic statecraft, and I am very committed to it.
    Chairman Ros-Lehtinen. Thank you so much. Judge Poe is 
recognized.
    Mr. Poe. Thank you, Madam Speaker. I have some questions 
regarding beef trade with Taiwan, U.S. rice given a fair shot 
in Iraq, and also some questions about Pakistan. I ask 
unanimous consent to submit those for the record.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Poe. Thank you for being here. I know you have to 
leave. I want to talk about something that we have always 
talked about when we discuss things, and it is the folks that 
live in Camp Ashraf. They are being moved. Some are being moved 
to Camp Liberty. Camp Liberty now is in a situation where there 
is not enough water, the sewage is a tremendous problem, there 
is no electricity, people there are not allowed to see their 
family members. They are not allowed to see lawyers.
    Some have compared Camp Liberty to a prison. Rudy Giuliani 
said, ``It's not a prison, it's a concentration camp.'' So 
people are not being moved from Camp Ashraf to Camp Liberty, 
and of course the goal--and it is my goal, just like it is, I 
hope, yours, to get those people out of Iraq and get them 
somewhere in the world where they can be safe, and they can be 
free, and they can reunite with their families.
    We have two situations going on. We have the designation as 
an FTO. It is still an issue. It has been going on a long time. 
I have worked with your department, trying to find out, on a 
consistent basis, is there new evidence? Is there more evidence 
why they should stay on the FTO? Good evidence, evidence one 
way or the other, just what it is.
    I have been to every briefing that Homeland Security and 
that your office has sponsored regarding the designation and 
why they are on it. And I am not convinced they ought to stay 
on it, and we continue to wait, now so much so that even, I 
think, yesterday a lawsuit was filed again to get the State 
Department to pick a horse and ride it, as I like to say.
    And meanwhile, during this time, there have been two 
situations in Camp Ashraf where people have died, and others 
have been wounded by--regardless of whose fault, that has 
occurred. And so there are no more people moving to Camp 
Liberty, and to my knowledge, as of today, no one has left Camp 
Liberty to go somewhere else in the world.
    And so as sincere as I can possibly be, I would like to 
know from you a couple of things. First, is the United States 
prepared to take any people from Camp Liberty? Does the FTO 
designation that they still have affect that in any way?
    And I would like to preface that question with one other 
situation. The last time I was in Iraq, I met with Maliki, and 
we asked him if we could go and visit the folks in Camp Ashraf 
and see for ourself what it was like. And he said absolutely 
not, but the one thing he told all of us, ``The reason they are 
in Camp Ashraf is because your country designates them as an 
FTO organization, and we treat them like a foreign terrorist 
organization.''
    So he dumped it back on our designation as the reason he 
was treating them the way he was treating them. He apparently 
got so irritated with us for even asking the question, we 
learned when we left his office that we had been evicted from 
the country. He asked us to leave. Of course, we did what we 
needed to do.
    So it is a serious matter, and earlier you mentioned that 
the FTO designation is tied to Camp Ashraf, and their being a 
paramilitary group. They don't have any weapons there. So can 
you tell us where we are, and if we are going to see some 
resolution about getting this designation removed, getting the 
people in Camp Liberty humane conditions, and moving the 
process to countries, including the United States, so these 
people can leave the area, which everybody wants to do?
    Secretary Clinton. Well, Congressman, I appreciate your 
deep concern. I share it, because we are trying to work to 
resolve a complex situation, avoid bloodshed and violence, and 
have the people from Camp Ashraf move to Camp Korea, and have 
them processed as soon as the United Nations can process them. 
There were a lot of--I would have preferred having them 
processed at Ashraf.
    That turned out to be impractical for a lot of reasons, and 
therefore the move now should open up an accelerated process 
for these interviews to be held and decisions made. And you 
know, we are working around the clock. We are seeing 
improvements in the infrastructure. We have to close Camp 
Ashraf in order to move this process forward, and it will be a 
key factor in any decision regarding the foreign terrorist 
organization status.
    Chairman Ros-Lehtinen. Thank you so much. And Mr. Connolly, 
I am going to ask your forgiveness, because according to the 
procedures that we set forth, even though you have been a good 
soldier and you have sat here the whole time, Mr. Murphy played 
it well and came here, and he is next on the queue to ask the 
question. So I don't--it is the last question. Do you want to 
share it?
    Mr. Murphy. I will share. I will ask a quick one.
    Chairman Ros-Lehtinen. A quick one, and then Mr. Connolly, 
too. Thank you.
    Mr. Murphy. Thank you very much. Madam Secretary, thank you 
very much for being here with us today, and I will be brief to 
allow Mr. Connolly to jump in as well before you leave. You 
have been generous with your time. I am one of a large number 
of folks here who are skeptical about our current timetable for 
a withdrawal from Afghanistan. I am frankly surprised we 
haven't talked more about Afghanistan here today.
    And part of that skepticism comes from the fact that I 
would like to see us spending a lot more time on the diplomatic 
and economic cooperation necessary to get Afghanistan to a 
place in which they can succeed on their own. And so I had a 
couple of questions related to that economic and diplomatic 
cooperation, but I will ask one of them, and it is on the 
economic side.
    There are various numbers that come out suggesting that 80-
90, to perhaps even as high as 97 percent of the Afghan economy 
is dependent right now on international aid. And I would love 
to get an update to you as to how you see the timetable playing 
out over the next 5 years to make sure that as we withdraw our 
military contingent, that we leave behind a stable economy 
there, and perhaps suggestions that you have for the United 
States Congress as to things that we can do here to make sure 
that we leave behind a stable economy. I would like to see us 
pull out as quickly as possible on the military side, but I 
recognize that we have got to make sure that we don't leave an 
economy that collapses upon our withdrawal. And I think that 
that is something that we have not talked enough about as a 
Congress, and would love your thoughts on that.
    Chairman Ros-Lehtinen. Thank you, Mr. Murphy. Mr. Connolly, 
if you could ask the question?
    Mr. Connolly. Okay. Welcome, Madam Secretary, and let me 
join my colleagues in extending my great admiration for your 
service to your country. You have been an extraordinary 
Secretary of State, and I have known a lot of Secretaries of 
State over the last 30 years, so I thank you for your service.
    I wonder if you could just comment a little bit--and I 
thank my colleague from Connecticut's courtesy--on our 
diplomatic efforts to sort of try to change minds in Russia and 
China with respect to the Syrian situation. I mean, it gets 
worse by the day. They have provided a shield of protection 
that has, at this point, proved not only counterproductive but, 
frankly, lethal. And I would welcome your thoughts about how we 
are engaging diplomatically and trying to turn that around.
    Mr. Murphy. Thank you, Madam Chairman, for your courtesy as 
well.
    Secretary Clinton. Thank you both. Congressman Murphy, we 
do have some very specific ideas and plans about what we could 
do to assist Afghanistan being more integrated into the 
regional economy, developing their own economic assets.
    I would like to take it for the record to give you a 
broader set of responses, because we see this, as you just 
said, as a critical part to really support the transition of 
our military troops out at the end of 2014. They do go hand in 
hand, which is one of the reasons the transition period for a 
military withdrawal was established. So we will follow up with 
you.
    And Congressman Connolly, we are doing everything we can 
think of to influence the Russians and the Chinese. 
Particularly the Russians. They are the ones with the very 
deep, longstanding relationship with the Assad family, with 
Syria. They continue to sell arms to the Syrian regime. So we 
know that if we can persuade them to work with us, at least on 
the humanitarian issue, they will have access to Assad that 
hardly anybody else does have. Certainly nobody in the West.
    So it is a very troubling and frustrating situation, 
because the Russians continue to say, oh, they are all for 
humanitarian aid, but then they don't produce any plan that 
Assad will sign off on. And perhaps after their upcoming 
election they will be able to focus on the serious humanitarian 
situation that is causing so much loss of life and suffering 
inside Syria.
    But we are not waiting. We are trying to work out other 
ways of getting humanitarian assistance into Syria, and also 
support efforts on the borders. Because people are fleeing. 
They are coming out in Lebanon, in Jordan, in Iraq, and 
especially in Turkey. So we will be there to try to help the 
people who are coming out as well.
    This is a terrible crisis that demands the entire world's 
attention, and I hope that Russia will come and work with us to 
try to resolve it.
    Chairman Ros-Lehtinen. Thank you so much. And Madam 
Secretary, if I could yield 1 minute to Mr. Johnson, who has 
been so patiently waiting there, and I don't want to end the 
meeting without him having an opportunity. Thank you, Mr. 
Johnson.
    Mr. Johnson. Thank you so much, Ms. Chairman. It is a real 
quick question, Madam Secretary, and thank you for being here 
today. With its growing economy and vast foreign reserves, it 
would seem that Beijing has more than enough money to deal with 
many of the issues that U.S. foreign aid supports, like its own 
citizens' health issues. Borrowing money from the Chinese 
Government to spend back in China on health programs there 
seems a particularly bad use of U.S. Government funds, 
especially as Americans struggle to cover their own rising 
healthcare costs. Why are we proposing $2 million in support of 
health programs in China, when the Chinese hold an estimated 
$1.2 trillion of U.S. debt?
    Secretary Clinton. Well, Congressman, the remaining aid 
that we are asking for goes to what we consider transnational 
issues in which we have a stake. It was United States aid and 
leadership that finally helped China respond to their own HIV/
AIDS crisis, which does have a positive effect on the epidemic 
far beyond their borders. When we look at communicable 
diseases, when we look at the need to try to help democracy, 
human rights, good governance groups--there are a lot of brave 
lawyers in cities in China that are standing up against 
coercive practices.
    So I think I will take it for the record and give you a 
breakdown of the kinds of things we have been doing, but I 
share your general point that we are certainly not looking to 
support the development of China's economy. They are doing that 
well enough on their own. But there are certain key values that 
we still believe we can further within an aid relationship with 
China.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Johnson. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, and thank you to Mr. 
Duncan, Mr. Bilirakis, and Mr. Wilson. You are on my dance 
card, and you will come up first next time.
    Madam Secretary, before we adjourn, I would like to note 
that since you have announced publicly that you do not intend 
to serve beyond the end of this term, this is your final 
appearance to testify on the budget before our committee. I 
would like to thank you again so deeply for making yourself 
available to answer our questions, today and during the past 3 
years. And I hope that we have the opportunity to host you 
again for other testimony prior to the conclusion of your 
exemplary service. I thank you, mi amiga.
    Secretary Clinton. Thank you.
    Chairman Ros-Lehtinen. The meeting is adjourned.
    [Whereupon, at 4:06 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


           <F-dash>\<gr-thn-eq><natural><careof>tt<box><Rx> 
     <natural><box>s<sharp><pound><Rx>s<box>s t<pound> <because>s 
  as<loz><box><star> <star><brit-pound><natural><careof><Rx><bullet> 
               <star><box>a<natural><careof><Rx><bullet>\

Written responses from the Honorable Hillary Rodham Clinton, Secretary 
  of State, U.S. Department of State, to questions asked by committee 
                       members during the hearing

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
     <Register><pound>s<ellipse>\<box><star>t<careof><Rx><box><Rx>\

    Questions submitted for the record by the Honorable Ileana Ros-
 Lehtinen, a Representative in Congress from the State of Florida, and 
chairman, Committee on Foreign Affairs, with written responses received 
               from the Honorable Hillary Rodham Clinton

Question 1:
    Former Chongqing police chief Wang Lijun's incognito February 6th 
visit to the U.S. consulate in Chengdu has been the subject of 
significant press and internet speculation. Wang reportedly brought 
with him information on the Chinese leadership succession implying a 
level of internal infighting not seen since the tumultuous days of 
Tiananmen Square. Wang, if reports of his extensive information are 
true, was an intelligence asset on a scale not seen since the end of 
the Cold War. Some reports say concerns over Sino-American relations 
and the upcoming visit of the Chinese Vice President trumped Wang's 
value as an intelligence resource as far as Washington was concerned.

        <bullet>  Did Mr. Wang request political asylum while inside a 
        U.S. diplomatic post in China?
        <bullet>  If so, why was he turned away?
        <bullet>  When will you provide the information I requested by 
        letter dated, February 10, 2012?
Answer:
    We are in receipt of your request and, as you know, are working 
with your staff to arrange a briefing on this issue at the earliest 
convenient time.

Question 2:
    Late last year, the Department created a new Bureau of Conflict 
Stabilization Operations (CSO), headed by a new Assistant Secretary. 
Four months ago, it was justified to Congress as merely a consolidation 
and replacement of existing resources, with no new funding. Yet, now 
you are requesting an 86% increase in funding for 2013. Furthermore, 
the ``principal mandate'' of CSO is heavy on slogans and light on 
detail: ``to stay ahead of change and play the appropriate operational 
role in anticipating, preventing, and responding to conflict.''

        <bullet>  What has the new CSO bureau done to justify a near 
        doubling of its funding in FY13?
        <bullet>  How exactly does its mission differ from what we 
        already pay for under the Complex Crises Fund, the Office of 
        Transition Initiatives, and other pre-existing efforts for 
        which the Administration is also seeking increases?
        <bullet>  If we really are able to anticipate conflict and stay 
        ahead of change, why aren't State and USAID's regional and 
        programmatic personnel already doing that? Isn't this just a 
        pre-positioned pot of which State can draw on quickly, with a 
        minimum of strings?
Answer:
    The State Department is acutely aware of current fiscal challenges. 
The Bureau of Conflict and Stabilization Operations (CSO) was 
established in February 2012 to address the need for greater cohesion 
and coherence to conflict prevention and conflict response. Although 
CSO's FY 2013 request of $56.5 million reflects an increase of $26.2 
million in new Budget Authority from the levels appropriated in FY 
2012, in comparison to the total amount available this fiscal year of 
$60.94 million, the FY 2013 request represents an actual decrease of 
$4.4 million in total program funding. Although our budget is 
decreasing, it is essential that our field teams have the flexibility 
to direct modest amounts of project funding to reinforce their conflict 
and stabilization efforts. We are aggressively reducing Washington 
overhead to focus funds for overseas deployments. Our requested 
contingency funding would be focused on building local capacity to 
implement solutions so that progress can be sustained by local actors.
    CSO brings specialized skills and resources to assist the United 
States in finding creative solutions and approaches to averting or 
resolving conflicts, along with the resources to support a surge 
effort. The space in which CSO operates is not overcrowded in light of 
the dynamic challenges the United States faces in preventing and 
responding to conflict in strategic countries and regions. Partner 
organizations like the Office of Transition Initiatives (OTI) and the 
Office of Foreign Disaster Assistance (OFDA) have specific focus and 
areas of expertise. CSO's mission and mandate are focused on human and 
political conflict. CSO will be at the center of complex conflict-
related situation supporting joint analysis, creative partnering and 
integrated strategies that direct foreign assistance (such as the 
Complex Crises Fund) to priority needs. In doing so, CSO will ensure 
USAID and DOD are brought into the discussions in the earliest stages.
    Limited State and USAID resources are already overtaxed and 
constrained from meeting the diplomatic and development requirements of 
our global foreign policy. Many programs are tied to existing mandates 
and are not flexible for averting or responding to conflict and crisis 
situations. CSO funding and resources must be flexible, responsive and 
focused on countries of critical importance to U.S. national interests. 
CSO enables the United States to anticipate and respond more quickly 
and effectively to emerging conflicts around the world and--just as 
importantly--to assist in identifying emerging conflicts and outlining 
prevention approaches to channel those conflicts into non-violent 
resolutions. The United States needs this kind of capacity to advance 
U.S. interests effectively and at least cost to the taxpayer in our 
rapidly changing and complex world.

Question 3:
    Last year, the State Department moved the Office of the Coordinator 
for Counterterrorism to the Bureau for Counterterrorism. At the time, 
the State Department described the move to Congress as a 
rationalization with no significant staff increases. According to the 
Administration's request, the staffing for the Bureau will increase by 
17%, from 70 to 82 staff positions.

        <bullet>  What new functions has the Bureau taken on that 
        justify this significant increase? Did State miscalculate the 
        need for new resources or does a 17% increase not meet the 
        standards of ``significant''?
Answer:
    The transition of the Office of the Coordinator for 
Counterterrorism to the Bureau of Counterterrorism was resource 
neutral. The request for twelve new FTE positions, a 17% increase in 
FY2013, is unrelated to the transition to a Bureau, and would have been 
made regardless of Office or Bureau status. The twelve positions would 
address growing State Department needs in addressing civilian 
counterterrorism challenges that include: countering violent extremism; 
designations of Foreign Terrorist Organizations (FTO's); terrorist 
travel and interdiction programs; regional policy coordination and 
program oversight; strategic planning, monitoring and evaluation of CT 
programs; Homeland Security coordination; and multilateral engagement 
through the Global Counterterrorism Forum (GCTF) and other bodies.

Question 4:
    The budget requests an increase of $12 million for the Bureau of 
European and Eurasian Affairs. However, in a March 2011 report, the 
Office of the Inspector General reported that this bureau, ``lacks 
standard operating procedures for the fiscal management division's 
overseas and domestic teams. This shortcoming is longstanding and 
significant . . . the domestic financial management team does not 
periodically analyze obligation balances, and there are significant 
unliquidated obligations for domestic allotments.''

        <bullet>  Why should we grant this large increase in taxpayer 
        funds for a bureau that has ``longstanding'' and 
        ``significant'' concerns about its financial management?
Answer:
    The March 2011 Inspection Report rightly highlighted the need for 
standard operating procedures, particularly in light of staff turnover 
in the financial management division. Since the report's publication, 
the Bureau of European and Eurasian Affairs (EUR) has satisfied the 
Office of the Inspector General that standard operating procedures for 
financial operations have been documented and are now in place. 
Furthermore, following stabilization of office staffing, the division 
has completed a thorough analysis of obligations for all domestic 
allotments and now undertakes regular reviews throughout the year.
    The Bureau's financial management operations adhere to the highest 
industry standards, and the Bureau has set an example within the 
Department of generating cost efficiencies. EUR is at the forefront in 
regionalizing services, including voucher processing, training, 
position classification, procurement, and warehousing. The Bureau also 
provides logistical and administrative support to other regions, the 
most recent example being in supporting evacuations from Middle Eastern 
posts during the Arab Spring events, and during NATO support efforts in 
Libya. We believe the marginal increase in the Bureau's costs to 
provide these services is dwarfed by overall savings generated by the 
Department.
    Although the request is $12 million above the FY 2012 estimate, the 
increase seeks to maintain service levels from FY 2011, including a 
further reduction of $2.6 million in efficiency savings.

Question 5:
    An Office of Inspector General performs best when there is an 
appointed Inspector General. Permanent Inspector General's undergo 
significant vetting that helps to instill confidence among OIG 
stakeholders such as Congress, whistleblowers and the public. The State 
Department has been without a permanent Inspector General for over four 
years. The FY 2013 State Department CBJ includes a 6% budget increase 
from the FY 2012 level for the State Department OIG.

        <bullet>  How can you justify the 6% increase for the State 
        Department OIG when there is no permanently appointed Inspector 
        General?
Answer:
    The State Department's Office of Inspector General (OIG) conducts 
comprehensive oversight of the Department's operations through 
inspections, investigations, audits, and other reviews. Composed of 
dedicated professionals, the OIG is fully engaged in its important 
mission. In FY 2011, the number of reports issued annually had 
increased to 153 from 107 in FY 2007. By the close of FY 2011, as 
compared to FY 2007, open investigations increased from 36 to 98; and 
contractor suspension and debarment actions increased from 0 to 17.
    In the past three years, OIG has substantially strengthened its 
oversight of high-cost, high-risk Department activities in the Middle 
East, and South and Central Asia. OIG established the Middle East 
Regional Office (MERO) in 2008 to dedicate on-the-ground resources and 
expertise to oversight of Department programs and U.S. interests in the 
frontline states (Afghanistan, Iraq, and Pakistan or ``AIP'') and other 
crisis and post-conflict countries. In 2011, OIG further strengthened 
these operations by merging MERO, as a distinct office, into the Office 
of Audits.
    Also in the past three years, OIG's Office of Investigations opened 
overseas offices to strengthen accountability and provide investigative 
oversight for critical Department operations in the Middle East, and 
South and Central Asia. The Middle East Investigative Branch (MEIB), 
based in Washington, D.C., has a field office in Amman, Jordan, and 
satellite offices in Baghdad, Iraq, and Kabul, Afghanistan.
    OIG also has taken steps in the past three years to restore its 
overall investigative capability, which had declined by nearly 60 
percent in the preceding decade. OIG aggressively recruited staff to 
rebuild the Office of Investigations and has greatly improved its 
capacity to address allegations of waste, fraud, and abuse.
    The FY 2013 request is $65.6 million, an increase of $3.7 million 
and includes an increase of $1.1 million in current services to 
maintain the FY 2012 level of activity. Program increases of $2.6 
million will be required for increased ICASS and in-country support 
costs associated with activities in the AIP frontline states. This 
resource request sustains critical initiatives in the frontline states 
and maintains the level of oversight required by the size, complexity, 
and importance of Department programs in these countries.

Question 6:
    Last year in its report, ``Clearer Guidance Needed on Compliance 
Overseas with Legislation Prohibiting Abortion-Related Lobbying,'' GAO 
recommended that, ``To help ensure the actions of U.S. officials and 
implementing partners comply with the legislative prohibition against 
using certain U.S. assistance funds to lobby for or against abortion, 
the Secretary of State and the USAID Administrator should develop 
specific guidance on compliance . . . indicating what kinds of 
activities may be prohibited, disseminate this guidance throughout 
their agencies, and make it available to award recipients and 
subrecipients.'' According to the GAO, State Department agreed that it 
should inform staff of the legislation prohibiting abortion-related 
lobbying but disagreed that it should provide examples of potentially 
prohibited activities.

        <bullet>  Please describe the actions the State Department has 
        taken to ensure full compliance with legislation prohibiting 
        abortion-related lobbying? Why does the State Department 
        disagree with the recommendation to provide staff with examples 
        of potentially prohibited activities?
Answer:
    The Department is in the process of issuing guidance to grants and 
contracting officers reminding them of the restriction in the annual 
appropriations act that funds not be used to lobby for or against 
abortion. In addition, the offices that review the uses of appropriated 
funds for State and Foreign Operations are aware of this legal 
provision.
    The language of the statute itself indicates what is prohibited 
and, to the extent that staff identify an activity which may fall 
within the scope of the restriction, they are advised to seek legal 
guidance from the Office of the Legal Adviser before proceeding with 
the obligation of funds. Because specific factual information on what 
activities are proposed would need to be evaluated in making a legal 
judgment under the statute, the Department has chosen to direct staff 
to seek legal advice on all instances where obligations of funds may 
implicate the restriction to allow for decisions a case-by-case basis 
after a review of any relevant specific facts and, therefore, disagreed 
with the GAO recommendation to provide staff with examples.

Question 7:
    The Quadrennial Diplomacy and Development Review (QDDR) highlighted 
the military to civilian transition in Iraq and stated that ``our 
civilian presence is prepared to take the lead . . . for long-term 
stability.'' Yet, various concerns have been raised regarding the State 
Department's ability to take over such a mission and oversee hundreds 
of personnel, most of them contractors. In a Washington Post article, 
dated October 8, 2011, a report by the bipartisan Commission on Wartime 
Contracting is cited as stating that ``billions of U.S. taxpayer 
dollars had been squandered in Iraq . . . and that the State Department 
had not made the necessary reforms in its contracting operation.'' 
Therefore, U.S. taxpayer dollars are at risk and ``significant 
additional waste . . . can be expected.''

        <bullet>  How do you respond to such criticisms? What steps are 
        being taken to ensure proper accountability and oversight of 
        U.S. taxpayer dollars of both U.S. and non-U.S. contractors? 
        What specific reforms, if any, has the State Department made in 
        its contracting procedures? What system is in place to vet such 
        contractors?
Answer:
    The Quadrennial Diplomacy and Development Review (QDDR) process 
identified improvements to contract oversight that focus on the role of 
he Contracting Officer Representative (COR) as a key to contract 
oversight. Improvements that have been implemented include:

        <bullet>  Link Oversight Duties to Performance Evaluation: In 
        January and April of 2011, we issued Department notices that 
        provided guidance on work elements for supervisors to include 
        in Contracting Officer Representative (COR) and Government 
        Technical Monitor (GTM) performance appraisal plans (or 
        Employee Evaluation Reports (EERs)). This ensures that 
        employees performing contract administration tasks are graded 
        on that performance and will therefore be motivated to perform 
        these duties more effectively.
        <bullet>  Expand Training: The Department launched a revised 
        COR training course that is more skills based and adult 
        learning focused. The class provides CORs with the tools to 
        more effectively manage contract billing, government property, 
        and trafficking in persons, among other topics.
        <bullet>  Elevate Accountability for Planning and Oversight of 
        Large Contracts: As part of the QDDR process, the Department of 
        State instituted a requirement for the Assistant Secretary of a 
        Bureau with a service contract with expenditures exceeding $25 
        million per year to certify that adequate contract 
        administration resources have been identified to manage the 
        contract. These resources include both personnel and funding 
        for such things as travel or temporary duty assignments.
        <bullet>  Increased Contract Audits: We have increased the 
        number of audits performed on high dollar-value contracts 
        within the Department by conducting audits of four of our major 
        contractors. Additional audits are planned.
        <bullet>  Elevate the Status of Contract Oversight Personnel: 
        Last year, we created a Contracting Officer Representative 
        (COR) award to highlight contract administration achievements 
        by the COR, and published an article in State Magazine 
        highlighting the importance of contract administration and the 
        valuable role of the COR.

    The Department experiences continuous contingency requirements 
around the world, and our U.S. Government contracting staff is very 
experienced in dealing with these situations. We centralize procurement 
operations in the Office of Acquisitions Management (A/LM/AQM) and in 
its subordinate Regional Procurement Support Offices (RPSO), and have 
found this model to be effective in supporting contingency situations 
such as Haiti, Japan, Afghanistan, and Iraq. Through internal funding 
mechanisms (a 1% fee charged on all contracting services), the 
Department is able to draw upon its own resources, including hiring 103 
additional staff over the past several years, both U.S. Government 
direct hires and contractors. Only direct-hire staff serve as 
Contracting Officers; contractor staff provide only administrative 
support for our contracting function.
    The Department greatly increased interagency planning, particularly 
with regard to the Iraq transition. Support from DOD is essential to 
our success, and our cooperative efforts continue unabated. Where it 
makes sense we use existing DOD support to avoid unnecessary 
duplication. We will continue life support services under DOD's 
Logistics Civil Augmentation Program or LOGCAP. Although the transition 
from a military mission to primarily a diplomatic mission occurred on 
December 31, the Department continues to work closely on contract 
oversight activities with DOD and management personnel at the Embassy 
in Baghdad via weekly in-depth working groups. For the past 2 years, 
the Department has worked very closely, every day, on an unprecedented 
level with our Department of Defense (DOD) colleagues on implementing 
the military-led to civilian-led transition in Iraq.
    The Department currently participates in annual audits with the 
Defense Contract Audit Agency (DCAA) of our high risk contracts to 
ensure the appropriateness of contractor's cost representations and 
determine whether incurred costs are reasonable, applicable, and 
allowable. In addition, DCMA provides contract oversight for the base 
life support, core logistics services, equipment maintenance, food, 
fuel, and security services the Department receives under LOGCAP 
contract. Fifty-two DCMA personnel support our Iraq contracting 
efforts, with 35 DCMA personnel in Baghdad and the remainder posted at 
other locations in Iraq. This cooperation between DCMA and the 
Department of State has continued the essential oversight throughout 
the transition and maintained superior service provided under LOGCAP 
which is critical to the diplomatic mission in Iraq. Both DCAA and DCMA 
support other federal agencies where it is in the best interest of the 
government.
    As authorized by Section 835 of the Ike Skelton National Defense 
Authorization Act (NDAA) for FY 2011 (P.L. 111-383), entitled ``Annual 
Joint Report and Comptroller General Review on Contracting in Iraq and 
Afghanistan,'' (Joint Report) the Department is required to track and 
report annually contractors and contracting activity in Iraq and 
Afghanistan. To account for contractors in Iraq and Afghanistan, we 
have implemented the Department of Defense's Synchronized Pre-
Deployment Operational Tracker (SPOT) database at Department facilities 
across Iraq and Afghanistan. Companies with a contract permitting work 
in Iraq and Afghanistan are required to register their contractors in 
SPOT. Contractor Officer Representatives (CORs) and Contracting 
Officer's (COs) are required to authorize and approve a Letter of 
Authorization (LOA) for each contractor.
    As a matter of practice, vendors are vetted throughout the entire 
acquisitions timeline within the Department of State as outlined in the 
Federal Acquisition Regulation. This includes the solicitation process 
where well defined program office requirements are developed into 
statements of work; qualified vendors then respond to the statement of 
work providing the best technical solution and approach they would take 
to resolve the Department's particular requirement; and then our 
contracting officers as well as a technical evaluation panel would 
determine if a vendor qualifies based upon their technical and cost 
proposal, past performance evaluations, and best value for the 
Department. After award vendors are evaluated regularly by a program 
office's Contracting Officer's Representative (COR) for both technical 
competence in delivering the required product or service as well as 
adhering to the contract terms and conditions that include, among many, 
deliverable timelines, applicable Federal laws, special contract 
guidelines such as Trafficking in Persons (TIP), and adequate housing 
accommodations. Audits conducted by the Department as well as on site 
inspections by Contracting Officers who are deployed to overseas sites 
to obtain first hand information on contractor and COR activities, are 
other means of ensuring contract oversight and management of the 
Department's contractors.

Question 8:
    The Quadrennial Diplomacy and Development Review (QDDR) calls for 
the possible transition of the leadership of the Global Health 
Initiative (GHI) to USAID at the end of FY 2012. The process for 
determining whether the benchmarks as presented in the QDDR have been 
achieved is ongoing. However, there are fundamental, practical 
questions about the implementation of such a transition. For example, 
U.S. government country teams state that a key to the success of 
interagency coordination of health programming within a country is the 
involvement and oversight of the Ambassador.

        <bullet>  If GHI leadership is transferred to USAID, who will 
        be in charge of the global health team at the country level--
        the Ambassador, the USAID mission director, or another 
        official?
        <bullet>  If interagency disagreements arise (as they do in the 
        course of country operations), who will have the authority to 
        resolve such disagreements? How will such authority be 
        indicated and supported by agencies' headquarters?
Answer:
    The QDDR states clearly that the Ambassador is the ``CEO'' of USG 
health leadership in country and asks the Ambassador to reallocate time 
to lead the health team to meet GHI goals. The Ambassador has always 
been and will continue to be the lead and final authority on 
interagency coordination and collaboration in country. In most GHI 
countries, there is also a designated GHI coordinator, under the 
Ambassador, from either USAID, CDC, or PEPFAR. In some countries, the 
Ambassador or DCM have chosen to take on the GHI coordinator role. The 
GHI coordinator has been the lead in organizing the in-country process 
to draft GHI country strategies that create synergies and reduce 
duplication in the field. Regardless of any leadership transition of 
GHI, the Ambassador, as the lead of all USG activities in-country per 
the QDDR, will retain the ultimate authority for USG global health 
efforts. When interagency disputes arise, the Ambassador has the 
authority and mandate to resolve them. Because Ambassadors lead our 
whole of government efforts across a broad spectrum of issues and 
sectors in each country, they are uniquely qualified and experienced in 
bringing USG agencies together. There are also GHI country liaison 
teams in Washington made up of representatives from USAID, CDC and OGAC 
and one designated country lead for each GHI country from one of the 
agencies. These leaders work very closely with GHI country teams in the 
development and implementation of their integrated GHI country 
strategies, which now number over 40. They also work to resolve 
interagency issues before they rise to the policy level and support the 
Ambassador. Interagency issues and progress in country are also 
addressed at monthly meetings of the GHI Operating Committee, chaired 
by Executive Director Lois Quam, bring together senior leaders from the 
three core global health agencies, USAID, CDC, and OGAC to address.

Question 9:
    The Executive Summary of the FY13 Congressional Budget 
Justification (CBJ) requests $850 million in International Narcotics 
and Law Enforcement (INL) funding to support the Iraq Police 
Development Program (PDP). The CBJ Executive Summary notes specifically 
that ``The PDP will include approximately 190 advisors'' which, a 
recent audit by the Special Inspector General for Iraq Reconstruction 
(SIGIR) noted is a stark decrease from the initial goal of 350 
advisors. Furthermore, the SIGIR audit notes that, of the $200 million 
DOS requested for FY 2011 4th Quarter, ``only about 12% of the funds 
are targeted to hire, train, and deploy police advisors and managers. 
The remaining 88% are for (1) life and mission support for the advisors 
and staff, (2) security for sites and transportation, and (3) operation 
and maintenance of the helicopter air wing. Based on INL's September 
2011 data, $75.3 million--virtually all of the $75.5 million in 
expenditures--has been for security costs.'' The current formulation 
breaks down to nearly $4.5 million per advisor in FY 2013, not counting 
money previously spent.

        A.
                How can you justify this program when 88% of the cost 
                is dedicated to life support and security? At what 
                point is the benefit not worth the cost?
        B.
                The State Department manages and implements police 
                assistance programs in other parts of the world. What 
                do they cost per advisor per year? Is it comparable to 
                the cost of the PDP?
        C.
                How much money has been spent to date on the air wing 
                and how much of the $850 million will be spent on it?
Answer A:
    The PDP uses shared security, life support and transportation 
services that support all Mission operations. In Iraq, the State 
Department operates under extraordinary circumstances that require 
robust security and support services. Our costs are the same for all 
components of the mission. For these services, INL pays an appropriate 
percentage of the total costs based on the services our personnel use 
and the INL percentage of residents at shared facilities. As contracts 
are finalized, security and life support costs have been less than we 
originally anticipated; therefore, program-to-support ratios are 
improving.
    INL and Embassy Baghdad are currently conducting their first semi-
annual review of the Police Development Program. The process is 
intended to monitor the program's progress and assess whether program 
adjustments are necessary and/or appropriate. We expect that the 
program review will be completed in April and will look forward to 
keeping the Congress informed through regular updates, including on 
changes in program-to-support ratios.
Answer B:
    The support requirements for police assistance programs are unique 
to each country. Consequently, the associated support costs vary 
significantly. For example, the INL police program in Kosovo costs 
$235,993 per advisor per year. The cost of our program in Iraq is 
approximately $3,420,000 per advisor. However, a simple per-advisor 
cost comparison does not accurately portray the extraordinary security 
and life support costs that are unique to Iraq. INL's costs are 
commensurate with all other mission personnel in Iraq.
    These higher expenses in Iraq are justified because Iraq continues 
to be strategically important to US foreign policy and to stability in 
the region. Strengthening Iraq's police forces are an important part of 
positioning Iraq to be a reliable counterterrorism ally and in ensuring 
that our objectives in Iraq, which include promotion of the Rule of 
Law, respect for human rights and ensuring that Iraqi government is 
sovereign and stable, are all achieved. A professional and capable 
police force in Iraq, even if imperfect by Western standards, is 
essential to securing the gains that have been made and we believe that 
police advisors play an essential role in continuing to develop those 
forces.
Answer C:
    Since the beginning of the program on October 1, 2011, PDP advisors 
have used the services of the Embassy Air program, along with all other 
U.S. mission personnel posted in Iraq. After careful review, the 
Department has decided that the PDP will not have its own dedicated 
aviation support. As with all other mission personnel, INL will pay for 
air support based on actual usage. INL provided $11.52 Million from the 
FY 10 Supplemental for a share of the estimated construction costs for 
the Erbil and Baghdad/Sather aviation facilities.

Question 10:
    The Special Inspector General for Iraq Reconstruction's October 
2011 quarterly report to Congress describes an interview with the 
Government of Iraq (GOI)'s Senior Deputy Minister of Interior (MOI) 
Adnan al-Asadi on the PDP. In the interview, the Senior Deputy Minister 
stated that al-Asadi had ``grave doubts as to the efficacy of the PDP'' 
and predicted that it would provide ``very little benefit to the MOI.'' 
SIGIR's audit further notes that ``According to INL officials, they do 
not yet have a written cost-sharing agreement with the Government of 
Iraq on the PDP. However, an INL official said that obtaining a written 
agreement is neither required nor critical.''

        A.
                Is INL no longer seeking a written cost-sharing 
                agreement with the Government of Iraq? If so, do you 
                expect the American people to foot the full bill for a 
                program about which al-Asadi stated: ``I don't need it. 
                I won't ask for it. But if you provide it, it will be a 
                benefit and will add to our Ministry''?
        B.
                What other police training programs worldwide operate 
                without a written agreement with the host government?
        C.
                How should the Congress interpret the comment made that 
                an agreement was not necessary? Is this official State 
                Department policy?
Answer A:
    The PDP is covered by the 2008 Strategic Framework Agreement (SFA), 
which is the umbrella agreement for all of our cooperation in Iraq. In 
Section VIII (Law Enforcement and Judicial Cooperation) of the SFA the 
United States and Iraq agree to extensive cooperation in the police 
sector.
    The MOI commitment to the program, including financial 
participation, is well established. The Embassy has two signed 
agreements with the Government of Iraq that provide use of land for PDP 
operations at no cost: a December 2011 land-use agreement regarding the 
use of the Baghdad Police College Annex, signed by Senior Deputy 
Minister Adnan al-Asadi; and an August 2011 Memorandum of Understanding 
regarding land use and logistics operations in Erbil with the Kurdish 
Minister of Interior, Karim Sinjari. The GOI has also waived the 
landing fees for all USG flights within Iraq. Unlike previous police 
assistance programs in Iraq, the PDP provides only advisory and 
training assistance and the Government of Iraq funds all 
infrastructure, operational, support, and equipment costs for Iraq's 
civilian security forces, which total over 400,000 personnel.
    In a November 2011 meeting with a senior State INL official, in 
response to questions about his reported statements, Deputy Minister 
Adnan Al-Asadi emphasized that he and the Government of Iraq want and 
value the PDP. He expressed the hope that the United States could 
reduce security costs, so the program would be even more beneficial for 
Iraq. Al-Asadi reaffirmed that Iraq sees the PDP as a critical tool for 
helping the relatively new Iraqi law enforcement institutions further 
mature and grow. He also reinforced that message during a trip to the 
Baghdad Police College Annex, the PDP's base of operations, where he 
met with Senior Police Advisors and reiterated that MOI and Iraq need 
their expertise to work better and to help better serve Iraq's people. 
He made clear that he looks to our advisors to be role models for 
Iraq's still maturing police force.
    The Iraqi government and the Ministry of Interior (MOI) have made 
great strides in building public security institutions, with help from 
the United States and other partners. However, law enforcement in Iraq 
was isolated during the Saddam years from the critical police reform 
and modernization efforts undertaken by most developed nations (e.g., 
in areas such as human rights and gender equality, criminal 
investigations and forensics, technology). It will take time and help, 
which we are providing through the PDP, to enable them to catch up and 
build a capacity to undertake further reform efforts effectively on 
their own. While building Iraqi law enforcement capabilities, the PDP 
also reinforces the strong ties between the United States and Iraq, 
particularly in the security and law enforcement sector. This 
collaborative relationship benefits the United States in important 
ways--not only contributing to more effective protection of U.S. 
government and private personnel, facilities, and businesses, but also 
facilitating our common fight against transnational threats such as 
terrorism, money-laundering, and smuggling of humans and illicit 
materials.
Answers B and C:
    INL's policy is to provide assistance through a bilateral agreement 
with host governments as authorized under Section 481 of the Foreign 
Assistance Act of 1961, as amended, for INCLE foreign assistance funds. 
INL has 122 bilateral agreements in countries receiving U.S. foreign 
assistance for narcotics control, law enforcement, and criminal justice 
sector capacity building programs. The bilateral agreement is a key 
component to State/INL's strategy of establishing commitment of the 
host government and ensuring compliance with appropriate foreign 
assistance statutes.
    While it is usual INL practice to operate police programs through 
bilateral agreements with host countries, there are a few exceptions. 
As noted earlier, we
    The PDP is covered by the 2008 Strategic Framework Agreement, which 
is the umbrella agreement for all U.S. government cooperation in Iraq. 
In Section VIII (Law Enforcement and Judicial Cooperation) of the 
Strategic Framework Agreement, the United States and Iraq agree to 
extensive cooperation in the police sector.

Question 11:
    The budget request includes $370 million in economic assistance for 
the West Bank and Gaza, as well as $70 million in assistance for the 
Palestinian Authority Security Forces.

        <bullet>  How much of the economic assistance will be direct 
        support for the PA budget? Under what conditions would the 
        Department discontinue that assistance?
        <bullet>  Given that Fatah and Hamas are on the verge of 
        forming a new PA government, and that Abu Mazen will likely 
        continue to pursue his dangerous Palestinian statehood scheme 
        at the UN, why is the U.S. proposing further assistance to the 
        PA?
        <bullet>  What are the specific purposes of the $70 million for 
        the PASF?
Answer:
    Budget Support. Direct budget support to the Palestinian Authority 
(PA) is among the most immediate and efficient means of helping the PA 
build the foundations of a viable, peaceful future Palestinian state. 
In FY2011, we provided $200M in direct budget support to the 
Palestinian Authority. In FY2012 we have set aside the same amount, and 
in FY2013, we plan to provide $150 million in direct budget support. As 
always, the PA will only be authorized to use funds for purposes 
approved by USAID. Vetting under established procedures is a 
prerequisite for the disbursements of funds to specific private sector 
creditors, and we have full audit rights.
    Reconciliation and Enhanced Status Efforts. We continue to monitor 
the intra-Palestinian reconciliation process which, for now, appears 
stalled. Mahmoud Abbas remains the President of the PA and Salam Fayyad 
remains the Prime Minister, and no interim government is in the works. 
If an interim government that includes Hamas is formed, we will 
reevaluate Hamas' influence and our engagement with that government in 
accordance with U.S. policy and law. Likewise, our view on Palestinian 
attempts to enhance their status outside of direct negotiations is 
clear, and we have opposed it in every fora, every time.
    PASF Assistance. The $70 million in Palestinian Authority Security 
Forces (PASF) assistance for 2013 and beyond is intended to provide the 
PA with the ability to maintain their security forces and 
infrastructure, as our work in this area has been essential to the 
creation of professional and reliable PASF that both Palestinians and 
Israelis can trust. The ability to maintain security and fight 
terrorism is a fundamental building block for peace and an essential 
element for a future negotiated settlement, and benefits Israelis and 
Palestinians alike.

Question 12:
    With its growing economy and vast foreign reserves, it would seem 
that Beijing has more than enough money to deal with its own citizens' 
health issues. Borrowing money from the Chinese government to spend 
back in China on health programs there seems a particularly bad use of 
U.S. government funds especially as average Americans struggle to cover 
their own rising health care costs.

        <bullet>  Why are we proposing two million dollars in support 
        of health programs in China when the Chinese hold an estimated 
        1.2 trillion dollars of U.S. debt?
Answer:
    The United States pursues a long-term strategy vis-a-vis China to 
protect and promote U.S. national interests and values, and a component 
of this strategy is targeted programs in health to limit the 
transmission of infectious diseases that pose threats throughout the 
region and the rest of world, including the United States. As China 
transitions from a recipient to a donor nation, our assistance 
continues to decrease. The FY 2013 bilateral request for China includes 
$2 million for the Global Health Program (GHP-State), down from $5 
million in FY 2011 and $3 million in FY 2012.
    The focus of the U.S. government HIV/AIDS program for the past five 
years has been to foster nationwide scale-up of activities by the 
Chinese government and other donor agencies. While China provides over 
80 percent of the funding for its national HIV/AIDS program, U.S. 
government technical assistance builds capacity in key technical areas 
in select high-prevalence areas for Chinese replication both in country 
and globally. FY 2011 is the last year in which USAID received 
bilateral HIV/AIDS funding for China. With GHP-State support in FY 
2012, key USAID programs supporting civil society and their role in the 
national AIDS response will transition to local organizations, and 
USAID projects will close out by the end of September 2013.
    The Department of State's $2 million FY 2013 request will continue 
to support the Centers for Disease Control programs addressing HIV/AIDS 
in China. The goal is to assist China in preventing its HIV prevalence 
from rising in areas with high HIV prevalence; mitigate the effect of 
HIV on the Chinese people; and provide technical assistance and 
capacity building to assure that Chinese efforts meet internationally 
accepted best practices.

Question 13:
    Migration and Refugee Assistance. In contrast to the $462 million 
increase the Administration is seeking for State Department salaries 
and operations, you propose to cut $250 million--a quarter of a billion 
dollars--from current-year Migration and Refugee Assistance, which 
provides lifesaving help to some of the world's most vulnerable people, 
and has long enjoyed bipartisan support in Congress.

        <bullet>  Do you anticipate that refugee protection needs will 
        be that much less in 2013?
        <bullet>  What would this reduction eliminate, in terms of 
        specific programs and resettlement numbers, compared to what 
        the United States is doing this year?
Answer:
    The Administration remains dedicated to providing robust support 
for humanitarian programs worldwide. The President's FY 2013 request 
includes $1.675 billion for the Migration Refugee Assistance and the 
Emergency Refugee and Migration Assistance accounts. While this 
represents a decrease in funding available for humanitarian programs 
supported by these accounts in FY 2012, it represents a $30.3 million 
increase from the President's FY 2012 request for these accounts. This 
increase reflects the Administration's ongoing commitment to 
humanitarian programs, while taking into account the current 
constrained budget environment.
    Refugee protection needs are not expected to decrease in FY 2013. 
The request will allow the Department to continue to support 
humanitarian programs for refugees and conflict victims worldwide, 
albeit at a lower level than is expected in FY 2012.
    The State Operating account funds the resources that support 
diplomatic relations. It will allow us to continue to hire and train 
foreign service officers and other personnel who carry out U.S. foreign 
policy worldwide, and pay the salaries of our 44,675 locally hired 
staff who ably support our embassies and consulates. The request 
provides resources to promote diplomatic solutions and engage in 
critical public diplomacy and cultural exchange programs. It also 
provides tangible and necessary support services such as contracting, 
security, information technology and communications, and medical 
services to support our staff and our missions.

Question 14:
    The budget request indicates that almost all health programs under 
the Global Health Initiative (GHI) have received a reduction in 
funding, except for Family Planning and Reproductive Health, and the 
Global Fund. In fact, the Fiscal Year 2013 request for the Global Fund 
is $1.65 billion, an increase of 27% from Fiscal Year 2012 and a 120% 
increase from Fiscal Year 2011.

        <bullet>  How do you justify such a substantial increase to the 
        Global Fund? Could you comment on the recent instances of graft 
        that the Global Fund has suffered and what steps have been 
        taken to avoid future instances of waste and abuse of U.S. 
        taxpayer dollars?
        <bullet>  In your opinion, does this request reflect the will 
        of Congress as indicated by the 2008 Tom Lantos and Henry J. 
        Hyde United States Global Leadership Against HIV/AIDS, 
        Tuberculosis, and Malaria Reauthorization Act of 2008?
        <bullet>  With these proposed increases, how do you intend to 
        meet the spending directive for Orphaned and Vulnerable 
        Children (OVC) authorized under the 2008 Act?
Answer:
                              global fund
    PEPFAR and Global Fund-financed programs are complementary. As we 
move aggressively to a sustainable response to HIV/AIDS, a key 
principle of the 2008 Hyde-Lantos PEPFAR reauthorization, it is 
critical that we have a strong Global Fund to support our bilateral 
efforts. PEPFAR, the Global Fund, and partner countries are working 
closely together to eliminate duplicative investments and improve the 
program response to HIV/AIDS--which will ultimately result in an 
overall decrease in PEPFAR's programming costs at the same time 
services are expanded to reach more people. For Fiscal Year (FY) 2013, 
we had a unique opportunity to meet our PEPFAR goals while also putting 
additional resources into the Fund, recognizing that a strong PEPFAR 
requires a strong Global Fund. By focusing on proven interventions and 
continuing to push for greater efficiency and lower costs, PEPFAR 
continues to meet goals without additional resources.
    The United States takes all allegations of corruption and fraud 
extremely seriously; we have been a leader in calling for reform of the 
Global Fund and we remain committed to ensuring that the Global Fund 
maintains the highest standards of transparency, accountability, and 
efficiency to support its core mandate of saving lives. In November 
2011, we called upon the Global Fund Board and Secretariat to develop 
an action agenda that includes clear timelines and measures progress so 
all parties can be held accountable for the clear steps that must be 
taken for necessary improvements. The United States is working with and 
through the Global Fund Board, Secretariat, and our bilateral programs 
to strengthen the Global Fund's internal oversight systems and to 
increase country-level capacity to comply with Global Fund requirements 
in order to prevent any future misuse of funds and improve capacity to 
maximize the impact of Global Fund resources. The Fund is working on 
this action plan, which will address issues uncovered by the Global 
Fund Inspector General. The Global Fund's transition to a more 
flexible, sustainable and predictable funding model, adopted in 
November 2011 with strong United States Government support, will also 
ensure that resources go to high-impact interventions and to people 
with the greatest need.
    The appointment of General Manager Gabriel Jaramillo in February 
2012 demonstrates the Fund's commitment to implement its aggressive 
reform agenda as urged by the United States Government. Mr. Jaramillo 
is committed to the Fund's reform agenda, having served on the 
independent High-Level Panel that evaluated the Global Fund's financial 
oversight systems. Mr. Jaramillo has also emphasized strengthening the 
Global Fund's grant management and grant impact in country during the 
12 months that is expected to serve at the Fund.
    Under the Administration's FY 13 request, PEPFAR will have the 
resources to continue to meet the 10 percent directive for orphaned and 
vulnerable children by supporting child-centered, family-focused, 
community-based, and government-supported programming. In addition to 
direct services for children, PEPFAR programs will continue to 
strengthen families as primary caregivers of children, support capacity 
of communities to create protective and caring environments, work on 
household economic strengthening for the sustainable and long term 
well-being of children, build capacity of social service systems to 
protect the vulnerable, and support life skills training, education and 
HIV prevention for children and youth.
    A recent external review noted PEPFAR's role as the largest global 
funder of programs for orphaned and vulnerable children and found that 
``over the last 30 years, a unique groundswell of support has emerged 
from families and communities to protect and support children affected 
by HIV and AIDS . . . with the funding and technical support of PEPFAR 
and others, this groundswell has developed into massive capacity, with 
widespread and deep community penetration by community based 
organizations.'' PEPFAR leverages its significant resources to bring in 
other partners (e.g. the private sector, governments, and other donors) 
to support a comprehensive, multisectoral approach. This includes an 
emphasis on promoting a coordinated system of services integrated 
throughout the continuum of care that includes but goes beyond health 
needs of children and addresses overall vulnerability due to HIV/AIDS. 
This approach will be maintained and strengthened with the resources 
requested in the FY 13 budget.
    In addition to the OVC programs counted toward the directive, it is 
important to note that PEPFAR's prevention, treatment and care programs 
benefit children in a variety of ways. Children benefit directly from 
prevention programs such as those to prevent mother-to-child 
transmission of HIV, as well as pediatric treatment programs for 
children living with HIV. In addition, children benefit from programs 
that keep their parents and caregivers alive--approximately 4 million 
orphans have been averted through PEPFAR treatment programs for adults 
alone.

Question 15:
    I am deeply troubled by the inclusion in your budget request of 39 
million dollars for a voluntary contribution to the UN Population Fund, 
UNFPA.

        <bullet>  Why is the Administration requesting an increase in 
        funding to UNFPA even though that body assists the Chinese 
        government's coercive abortion and sterilization programs?
        <bullet>  What would UNFPA have to do for the Administration to 
        enforce the Kemp-Kasten amendment and cut off funding to UNFPA?
Answer:
    The Obama Administration strongly supports UNFPA's goals and 
programs, which provide life-saving assistance to women, children, and 
families in over 150 countries. This partnership between the U.S. 
government and UNFPA is critical to achieving the goals of the Global 
Health Initiative as well as the Millennium Development Goals. In 
particular, the partnership with UNFPA helps to advance the promotion 
of sexual and reproductive health and reproductive rights, including 
through increased access to voluntary family planning.
    UNFPA is the largest multilateral provider of family planning and 
reproductive health information and services. The USG's partnership 
with UNFPA leverages funds for these health programs and extends the 
reach of USG support to a number of countries where USAID does not have 
programs. Currently, UNFPA has programs in nearly 150 countries and is 
a world leader in efforts to reduce maternal mortality and morbidity, 
end female genital mutilation and cutting, treat obstetric fistula, 
reduce transmission of sexually transmitted infections and HIV/AIDS, 
and ensure access to health care and essential supplies for women and 
families during emergency and humanitarian crises. The partnership 
between the USG and UNFPA is critical to achieving sustained progress 
in these areas.
    The Obama Administration has routinely expressed opposition to 
China's coercive birth limitation policies. The White House issued a 
statement on August 23, 2011 articulating the Administration's strong 
opposition to ``all aspects of China's coercive birth limitation 
policies, including forced abortion and sterilization.'' In March 2009, 
based on a review of available facts, Secretary Clinton concluded that 
the Kemp-Kasten amendment does not preclude U.S. funding to UNFPA. We 
continue to monitor UNFPA's programs and remain convinced that the 
available facts show that UNFPA does not support or participate in the 
management of a program of coercive abortion or involuntary 
sterilization, and that UNFPA has been a catalyst for greater 
acceptance of voluntary family planning and works against practices 
such as sex selective abortion, coercive abortion, and involuntary 
sterilization in its China country program. The fundamental principle 
of UNFPA's work in China is to promote programs and policies that are 
based on a human rights approach to reproductive health, an approach 
they work to promote in countries around the world.
    We are grateful for the support that Congress has shown for UNFPA 
programs and activities over the past three years, including the $35 
million Congress appropriated for UNFPA in FY 2012. This important 
renewal of U.S. leadership in promoting sexual and reproductive health 
and reproductive rights, including through increased access to 
voluntary family planning, has helped UNFPA advance health and 
development programs for vulnerable women and girls around the world.

Question 16:
    As you are aware, the compensation fund for American victims of 
Libyan terrorism established pursuant to the Libyan Claims Resolution 
Act may incur a shortfall. Please describe what efforts, if any, the 
Department is undertaking to: 1) establish contingency plans in the 
event of a shortfall; 2) engage in state-to-state negotiations with the 
new Libyan government to ensure that American victims of Libyan state-
sponsored terrorism receive full compensation in accordance with awards 
set forth by the Foreign Claims Settlement Commission; and 3) use 
assets belonging to Muammar Qaddafi, the Qaddafi family and advisors 
currently under U.S. control to compensate these American victims of 
terrorism.
Answer:
    The Department believes that it is premature to determine whether 
there will be a shortfall in settlement funds. The Foreign Claims 
Settlement Commission (FCSC) is still in the process of adjudicating 
and, in some cases, establishing the appropriate levels of compensation 
for many of the claims that were referred to it as part of the Libya 
claims program. The FCSC must be allowed to complete more of this work 
before a projection regarding the sufficiency of settlement funds can 
be made. In the event of a shortfall, the International Claims 
Settlement Act of 1949 establishes that each claimant who receives an 
award from the FCSC will receive a pro rata share of the available 
settlement funds up to the full amount of that award.
    Regarding possible state-to-state negotiations, the 2008 U.S.-Libya 
Claims Settlement Agreement provided for the ``full and final 
settlement'' of terrorism-related claims against Libya and its public 
officials in exchange for the $1.5 billion settlement amount. Given the 
terms of this agreement, there does not appear to be a legal basis for 
seeking additional compensation from the Government of Libya at this 
juncture. Doing so could well undermine our efforts to secure 
compensation for other U.S. nationals through similar claims 
settlements with other governments in the future.
    Furthermore, frozen Qadhafi family assets would not be an 
appropriate source of additional funds for these claims, which the 
United States has already settled through the 2008 U.S.-Libya Claims 
Settlement Agreement. This would similarly undermine the United States' 
ability to conclude similar claims settlements on behalf of U.S. 
nationals in the future. Moreover, those Qadhafi family assets that are 
in the United States have been frozen pursuant to legally-binding U.N. 
Security Council Resolutions. Those resolutions indicate that any 
frozen assets shall be used for the benefit and in accordance with the 
needs and wishes of the Libyan people. If the United States were to 
unilaterally decide on an alternative disposition of these assets, it 
would undermine our ability to obtain similar U.N. action in the future 
and could expose the United States to claims under international law.
    In any event, we are not aware of any Qadhafi family member 
interest in the assets that comprise the amounts reported publicly by 
the Office of Foreign Assets Control (OFAC) as blocked pursuant to the 
Libya sanctions program. We understand that the only property reported 
to OFAC as blocked pursuant to Executive Order 13566 that might contain 
an interest of a Qadhafi family member is non-liquid property regarding 
which valuation would be difficult to ascertain and that may have no 
significant value.
                               __________
Additional questions submitted for the record to the Honorable Hillary 
          Rodham Clinton by the Honorable Ileana Ros-Lehtinen

Question:
    As you know, Section 47(9) of the Arms Export Control Act (AECA) 
defines ``significant military equipment'' as articles ``for which 
special export controls are warranted because of the capacity of such 
articles for substantial military utility or capability'' and 
identified on the United States Munitions List (USML). Will the 
Department provide to the Committee a list of all significant military 
equipment currently on the USML that is proposed for removal from the 
Munitions List pursuant to section 38(f) of the AECA? If so, when? If 
not, why not?
Answer:
    The Department notification under section 38(f) of the AECA will 
identify those defense articles designated as significant military 
equipment proposed for removal from the USML consistent with the 
controls currently enumerated on the USML for such articles.

Question:
    The proposed creation of a ``Commerce Munitions List'' (CML) within 
the larger Commerce Control List--which as I understand it would 
include certain lethal firearms, numerous non-weaponized end items, and 
various parts, components, software (including source code), and 
production technology specially designed for commodities on the USML or 
CML--raises a number of questions about the relationship of the 
proposed CML to the authorities governing the provision of U.S. 
security assistance under Title 22 United States Code (and equally, to 
those related authorities under Title 10 U.S.C.).
    To the extent that articles proposed to be transferred to the 
Commerce Munitions List may be transferred to a foreign country or 
international organization pursuant to authorities for Foreign Military 
Financing, Foreign Military Sales, the Pakistan Counterinsurgency 
Contingency Fund or any other State Department administered security 
assistance program, would the requirements of section 502 of the 
Foreign Assistance Act--``Utilization of Defense Articles and 
Services''--apply to articles controlled on the CML and subject to the 
Export Administration regulations? Why or why not?
Answer:
    Section 502 of the Foreign Assistance Act of 1961, as amended, 
(FAA) states that defense articles and defense services to any country 
shall be furnished solely for internal security, legitimate self-
defense, and certain other specified purposes. For the purposes of 
section 502, the terms ``defense articles'' and ``defense services'' 
are defined in section 644 of the FAA\1\ and are independent of the 
USML (unlike the definition of ``defense articles and defense 
services'' applicable to section 38 of the AECA, which is laid out in 
section 47(7) of the AECA). Therefore, whether a given item is 
controlled on the USML or is a military item controlled in 600 series 
ECCNs on the CCL has no impact on the question of what constitutes a 
defense article or defense service for the purposes of section 502.
---------------------------------------------------------------------------
    \1\ ``Defense article'' is defined as ``(1) any weapon, weapons 
system, munition, aircraft, vessel, boat, or other implement of war; 
(2) any property, installation, commodity, material, equipment, supply, 
or goods used for the purposes of furnishing military assistance; (3) 
any machinery, facility, tool, material, supply, or other item 
necessary for the manufacture, production, processing, repair, 
servicing storage, construction, transportation, operation, or use of 
any article listed in this subsection; or (4) any component or part of 
any article listed in this subsection. . . .'' The definition 
specifically excludes merchant vessels and certain source material as 
defined in the Atomic Energy Act of 1954.
---------------------------------------------------------------------------
  ``Defense service'' is defined as ``any service, test, inspection, 
repair, publication, or technical or other assistance or defense 
information used for the purposes of furnishing military assistance, 
but does not include military educational and training activities under 
chapter 5 of part II.''

Question:
    Would the limitations of section 502B--``Human Rights''--apply to 
CML-controlled articles provided under the authority of Part II of the 
Foreign Assistance Act, the Arms Export Control Act, or licensed or 
otherwise authorized for export under the Export Administration 
Regulations? Why or why not?
Answer:
    Section 502B(a)(2) states that ``[e]xcept under circumstances 
specified in this section, no security assistance may be provided to 
any country the government of which engages in a consistent pattern of 
gross violations of internationally recognized human rights. Security 
assistance may not be provided to the police, domestic intelligence, or 
similar law enforcement forces of a country, and licenses may not be 
issued under the Export Administration Act of 1979 for the export of 
crime control and detection instruments and equipment to a country, the 
government of which engages in a consistent pattern of gross violations 
of internationally recognized human rights [subject to certain 
exceptions]. Assistance may not be provided under chapter 5 of this 
part to a country the government of which engages in a consistent 
pattern of gross violations of internationally recognized human rights 
[subject to certain exceptions].''
    For the purposes of section 502B, ``security assistance'' is 
defined as ``(A) assistance under chapter 2 (military assistance) or 
chapter 4 (economic support fund) or chapter 5 (military education and 
training) or chapter 6 (peacekeeping operations) or chapter 8 
(antiterrorism assistance) of [part II of the FAA]; (B) sales of 
defense articles or services, extensions of credits (including 
participation in credits, and guaranties of loans under the [AECA]; or 
(C) any license in effect with respect to the export of defense 
articles or defense services to or for the armed forces, police, 
intelligence, or other internal security forces of a foreign country 
under section 38 of the [AECA].'' Removal of items from the USML will 
have an effect on the section 502B restriction only to the extent that 
the restriction on licenses is limited to export of defense articles 
and services under section 38 because the definition of ``security 
assistance'' in section 502B incorporates section 38 by reference. The 
removal of items from the USML would have no effect on the application 
of section 502B to security assistance or FMS.

Question:
    Would the provisions of section 503--``General Authority'' for 
military assistance--apply to CML-controlled articles, including any 
such articles provided by grant or loan? Please explain.
Answer:
    We do not currently rely on section 503 to provide military 
assistance. Nor does section 503 incorporate section 38 of the AECA, so 
whether an item is controlled on the USML or is a military item 
controlled in 600 series ECCNs on the CCL is not relevant to section 
503.

Question:
    Would the provisions of section 505--``Conditions of 
Eligibility''--apply to CML-controlled articles provided to a foreign 
country by grant? Why or why not?
Answer:
    Section 505 sets forth conditions for eligibility for the 
furnishing of defense articles, related training and other defense 
services to foreign countries on a grant basis. The question of whether 
section 505 applies to the furnishing of a given article or service on 
a grant basis turns on the question of whether such article or service 
falls within the FAA's definition of ``defense article'' or ``defense 
service,'' which, as noted above, do not relate to whether an item is 
controlled on the USML or is a military item controlled in 600 series 
ECCNs on the CCL. Thus, any changes to the USML are not relevant to the 
application of section 505.

Question:
    Would the provisions of section 506--``Special Authority''--
including the Congressional notification requirements therein, apply to 
the ``drawdown'' of CML-controlled articles still in the inventory of 
the Department of Defense? Please explain.
Answer:
    Section 506 authorizes two drawdown authorities. Under the first 
drawdown authority, the President, upon making certain determinations 
and reporting them to Congress, may direct the drawdown of defense 
articles from the stocks of the Department of Defense, defense services 
of the Department of Defense, and military education and training. This 
authority may be relied upon to draw down defense articles as defined 
by section 644 of the FAA, regardless of whether they are included in 
the USML or is a military item controlled in 600 series ECCNs on the 
CCL. The second drawdown authority authorizes the President to draw 
down ``articles, services, and military education and training'' for 
the purposes and under the authorities of FAA part I chapters 8 and 9, 
part II chapters 8 and 9, and the Migration and Refugee Assistance Act 
of 1962, or for other specified purposes. The nature of the articles 
that may be drawn down under this drawdown authority is a question of 
the scope of those underlying authorities, and does not relate to 
whether the items are found on the USML or is a military item 
controlled in 600 series ECCNs on the CCL. All drawdown determinations 
must be reported to Congress and there is an advance notification to 
Congress of the President's intent to use such authority.

Question:
    Would the provisions of section 516--``Authority to Transfer Excess 
Defense Articles''--including the Congressional notification 
requirements therein, apply to CML-controlled articles still in the 
inventory of the Department of Defense? If your answer turns on a 
distinction between ``military sales'' and ``commercial sales'' in 
section 644(d)(2) of the FAA and its companion section 47(3)(B) of the 
AECA, please explain how those definitions would apply to the transfer 
of excess defense articles.
Answer:
    The question of whether a given item is on the USML or is a 
military item controlled in 600 series ECCNs on the CCL has no bearing 
on whether it may be transferred pursuant to section 516. ``Defense 
article'' for the purposes of section 516 is defined in section 644 of 
the FAA.
    Section 516(f) requires advance notification to Congress for 
transfer of excess defense articles that are significant military 
equipment (as defined in section 47(9) of the AECA), or excess defense 
articles valued, in terms of original acquisition cost, at $7,000,000 
or more. Section 47(9) of the AECA defines ``significant military 
equipment'' as articles ``(A) for which special export controls are 
warranted because of the capacity of such articles for substantial 
military utility or capability; and (B) identified in the United States 
Munitions List.''
    Because the definition of significant military equipment in section 
47(9) references the USML, the advance notification requirements of 
section 516(f) will not apply if an item currently designated as SME is 
removed from the USML, and if the $7 million threshold is not met for 
congressional reporting. However, the items will still be controlled by 
the Commerce Department under such statutory authorities as the 
Commerce Department has available to it.

Question:
    Alternatively, is it your view that CML-controlled articles--such 
as the approximately 50 C-130Es at the Aerospace Maintenance and 
Regeneration Group (AMARG) at Davis-Monthan Air Force Base in Tucson, 
Arizona (which per Air Force policy require demilitarization and 
removal of all crypto and GPS systems prior to delivery to a foreign 
customer)--are ineligible for transfer under section 516 authority? 
Please explain.
Answer:
    The question of whether a given item is on the USML or is a 
military item controlled in 600 series ECCNs on the CCL has no bearing 
on whether it may be transferred pursuant to section 516. ``Defense 
article'' for the purposes of section 516 is defined in section 644 of 
the FAA.

Question:
    Would the provisions of section 551--``General Authority'' for 
support of peacekeeping operations--apply to CML-controlled articles 
which the U.S. may seek to transfer to friendly countries and 
international organizations in support of United Nations peacekeeping 
operations? Why or why not?
Answer:
    Section 551 of the FAA authorizes the President ``to furnish 
assistance to friendly countries and international organizations, on 
such terms and conditions as he may determine, for peacekeeping 
operations and other programs carried out in furtherance of the 
national security interests of the United States. . . .'' The question 
of whether a particular item is a military item controlled in 600 
series ECCNs on the CCL has no bearing on the scope of this authority. 
The provisions of this section apply to the use of funds for PKO 
activities and those funds may be used for many types of material 
assistance, all of which must be provided consistent with this 
authority.

Question:
    Would the provisions of section 552(c)--relating to emergency 
drawdown authority for peacekeeping operations--apply to CML-controlled 
articles still in the inventory of the Department of Defense? Please 
explain.
Answer:
    The question of whether a particular item is a military item 
controlled in 600 series ECCNs on the CCL has no bearing on the scope 
of the drawdown authority in section 552(c). The requirements of that 
provision would apply to any commodities or services drawdown under 
that authority.

Question:
    Would the provisions of Chapter 8--relating to anti-terrorism 
assistance--apply to CML-controlled articles? Why or why not?
Answer:
    The question of whether a particular item is a military item 
controlled in 600 series ECCNs on the CCL has no bearing on the scope 
of the assistance authority in chapter 8 of part II of the FAA. The 
provisions of this section apply to material assistance provided under 
that authority of this Chapter, all of which must be provided 
consistent with this authority.

Question:
    Would the provisions of section 582 -``Authorization of 
Assistance'' for nonproliferation and export control assistance--apply 
to CML-controlled articles? Please explain.
Answer:
    The question of whether a particular item is a military item 
controlled in 600 series ECCNs on the CCL has no bearing on the scope 
of the assistance authority in section 582 of the FAA. The provisions 
of this section apply to material assistance provided under that 
authority of this Chapter, all of which must be provided consistent 
with this authority.

Question:
    Would the provisions of section 620A--``Prohibition on Assistance 
to Governments Supporting International Terrorism''--apply to CML-
controlled articles provided under the authority of Part II of the 
Foreign Assistance Act? Why or why not?
Answer:
    Section 620A(a) of the FAA prohibits assistance under the FAA, the 
Food for Peace Act, the Peace Corps Act, or the Export-Import Bank Act 
of 1945 to any country if the Secretary of State determines that the 
government of that country has repeatedly provided support for acts of 
international terrorism. This prohibition restricts assistance under 
specified authorities; it is not structured to apply only to specified 
items. The scope of the restriction is thus unrelated to whether an 
item is on the USML or is a military item controlled in 600 series 
ECCNs on the CCL.

Question:
    Would the provisions of section 620G--``Prohibition on Assistance 
to Countries that Aid Terrorist States''--apply to CML-controlled 
articles provided under the authority of Part II of the Foreign 
Assistance Act? Please explain.
Answer:
    The restriction in section 620G of the FAA restricts assistance 
under specified authorities; it is not structured to apply only to 
specified items. The scope of the restriction is thus unrelated to 
whether an item is on the USML or a military item controlled in 600 
series ECCNs on the CCL.

Question:
    Would the provisions of section 620H--``Prohibition on Assistance 
to Countries that Provide Military Equipment to Terrorist States''--
apply to any CML-controlled articles provided under the authority of 
Part II of the Foreign Assistance Act? Why or why not?
Answer:
    The restriction in section 620H of the FAA restricts assistance 
under specified authorities; it is not structured to apply only to 
specified items. The scope of the restriction is thus unrelated to 
whether an item is on the USML or a military item controlled in 600 
series ECCNs on the CCL.

Question:
    Would the provisions of section 620I--``Prohibition on Assistance 
to Countries that Restrict United States Humanitarian Assistance''--
apply to any CML-controlled articles provided under the authority of 
Part II of the Foreign Assistance Act? Please explain.
Answer:
    The restriction in section 620I of the FAA restricts assistance 
under specified authorities; it is not structured to apply only to 
specified items. The scope of the restriction is thus unrelated to 
whether an item is on the USML or is a military item controlled in 600 
series ECCNs on the CCL.

Question:
    Would the provisions of section 644--``Definitions''--apply to any 
CML-controlled articles provided under the authority of Part II of the 
Foreign Assistance Act? Why or why not?
Answer:
    The ``Definitions'' section of the FAA defines several terms, none 
of which relate to whether an item is on the USML or is a military item 
controlled in 600 series ECCNs on the CCL.

Question:
    Would the reporting requirements of section 655--``Annual Military 
Assistance Report''--apply to any CML-controlled articles provided 
pursuant to the authority of Part II of the Foreign Assistance Act or 
the Arms Export Control Act, or otherwise licensed or authorized for 
export to the military or security services of a foreign government? 
Please explain.
Answer:
    The report called for in section 655 includes any defense articles, 
defense services, and international military education and training 
activities authorized by the United States.
    Section 655(b)(3) provides that the report must specify by 
category, whether the defense articles were licensed for export under 
section 38 of the AECA. To the extent that such defense articles are a 
military item controlled in the 600 series ECCNs on the CCL, the 
provisions of section 655(b)(3) would not be applicable to those items.

Question:
    Would the provisions of section 660--``Prohibiting Police 
Training''--apply to any CML-controlled articles provided under the 
authority of the Foreign Assistance Act? Why or why not?
Answer:
    Section 660 prohibits the provision of training or advice, or any 
financial support, for foreign law enforcement and internal 
intelligence forces provided under the FAA, subject to a number of 
exceptions. The scope of the restriction is unrelated to whether an 
item is on the USML or is a military item controlled in 600 series 
ECCNs on the CCL.

Question:
              with respect to the arms export control act
    Will any of the provisions of section 3--``Eligibility''--including 
U.S. consent to retransfers (and all retransfer-related notifications 
to Congress), penalties for misuse of U.S.-origin military equipment 
(and related reporting requirements)--apply to CML-controlled articles 
provided under the authority of the Arms Export Control Act, or 
otherwise licensed or authorized for export? Please explain.
Answer:
    Section 47(7) of the AECA defines ``defense articles'' and 
``defense services,'' with respect to commercial exports under section 
38 of the AECA, as those items that the President designates ``as 
defense articles and defense services for the purposes of [section 38] 
and to promulgate regulations for the import and export of such 
articles and services. The items so designated shall constitute the 
United States Munitions List.'' For all other sections of the AECA, the 
definition of ``defense articles'' and ``defense services'' found in 
section 47(3) essentially mirror the definition found in the Foreign 
Assistance Act (FAA), section 644. \2\
---------------------------------------------------------------------------
    \2\ For all other sections of the Arms Export Control Act, a 
``defense article'' is defined as (A) any weapon, weapons system, 
munition, aircraft, vessel, boat or other implement of war, (B) any 
property, installation, commodity, material, equipment, supply, or 
goods used for the purposes of making military sales, (C) any 
machinery, facility, tool, material, supply, or other item necessary 
for the manufacture, production, processing, repair, servicing, 
storage, construction, transportation, operation, or use of any article 
listed in this paragraph, and (D) any component or part of any article 
listed in this paragraph . . . Like the FAA, the definition 
specifically excludes merchant vessels and certain source material as 
defined in the Atomic Energy Act of 1954.
---------------------------------------------------------------------------
  A ``defense service'' is defined in section 47(4) as ``any service, 
test, inspection, repair, publication, or technical or other 
assistance, or defense information (as defined in section 644(e) of the 
FAA) used for the purposes of making military sales, but does not 
include design and construction services under section 29 of this 
Act.''
    Most of the provisions of section 3 of the Arms Export Control Act 
(AECA) would not be affected by any removal of any item from the United 
States Munitions List (USML) for the purposes of exports pursuant to 
Direct Commercial Sales (DCS) under section 38 of the AECA. Because a 
``defense article'' for purposes of a Foreign Military Sale under 
section 3 is different from a ``defense article'' under section 38, it 
is immaterial whether an item is controlled by the USML or is a 
military item controlled in 600 series ECCNs on the CCL.
    Section 3(d)(3)(A) is an exception. If an item that is currently 
controlled by the USML is removed from the USML and becomes a military 
item controlled in 600 series ECCNs on the CCL, the Congressional 
notification requirements for transfer of such an item would no longer 
be applicable. The notification requirement is triggered by an ``export 
. . . licensed or approved under section 38 of this Act,'' which would 
no longer be applicable.

Question:
    Will the provisions of section 4--``Purposes for Which Military 
Sales by the United States are Authorized''--apply to CML-controlled 
articles provided under the authority of the Arms Export Control Act, 
or otherwise licensed or authorized for export? Why or why not?
Answer:
    The provisions of section 4 of the AECA would not be affected by 
any removal of any item from the USML. The provisions of section 4 only 
pertain to sales or leases by the United States Government. Because a 
``defense article'' for purposes of section 4 is different from a 
``defense article'' under section 38, it is immaterial whether an item 
is controlled by the USML or is a military item controlled in 600 
series ECCNs on the CCL.

Question:
    Will the provisions of section 5--``Prohibition Against 
Discrimination''--apply to CML-controlled articles provided under the 
authority of the Arms Export Control Act, or otherwise licensed or 
authorized for export? Please explain.
Answer:
    The provisions of section 5 of the AECA would not be affected by 
any removal of any item from the USML. The provisions of section 5 
generally apply to sales, credits, or guarantees by the United States 
Government.

Question:
    Will the provisions of section 6--``Foreign Intimidation and 
Harassment of Individuals in the United States''--apply to CML-
controlled articles provided under the authority of the Arms Export 
Control Act, or otherwise licensed or authorized for export? Why or why 
not?
Answer:
    Section 6 provides, in part, that ``no export licenses may be 
issued under this Act with respect to any country determined by the 
President to be engaged in a consistent pattern of acts of intimidation 
or harassment against individuals in the United States.'' This section 
would not apply to a DCS export of any military item controlled in 600 
series ECCNs on the CCL since the statutory authority for that export 
is not the AECA, but pursuant to such authorities as the Commerce 
Department has available to it.

Question:
    Will any of the provisions of section 21--``Sales from Stocks''--
apply to CML-controlled articles provided under the authority of the 
Arms Export Control Act, or otherwise licensed or authorized for 
export? If your answer turns on a distinction between ``military 
sales'' and ``commercial sales'' in sections 47(3) and 47(7) of the 
AECA, please explain how the reference to ``military sales'' in section 
47(3)(B) can be construed to apply to all FMS sales.
Answer:
    Section 47(7) of the AECA defines ``defense articles'' and 
``defense services,'' with respect to commercial exports under section 
38 of the AECA, as those items that the President designates ``as 
defense articles and defense services for the purposes of [section 38] 
and to promulgate regulations for the import and export of such 
articles and services. The items so designated shall constitute the 
United States Munitions List.'' For all other sections of the AECA, the 
definition of ``defense articles'' and ``defense services'' are found 
in section 47(3) and 47(4), which essentially mirror the definitions 
found in section 644 of the Foreign Assistance Act (FAA).
    The provisions of section 21 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML). Because the definitions of ``defense article'' 
and ``defense service'' for purposes of section 21 of the AECA are 
different from the definitions of ``defense article'' for purposes of 
section 38, it is immaterial whether an item is controlled by the USML 
or is a military item controlled in 600 series ECCNs on the CCL.

Question:
    Will any of the provisions of section 22--``Procurement for Cash 
Sales''--apply to CML-controlled articles provided under the authority 
of the Arms Export Control Act, or otherwise licensed or authorized for 
export? If your answer turns on a distinction between ``military 
sales'' and ``commercial sales'' in sections 47(3) and 47(7) of the 
AECA, please explain how the reference to ``military sales'' in section 
47(3)(B) can be construed to apply to all FMS sales involving 
procurement from private parties.
Answer:
    The provisions of section 22 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA. Because a 
``defense article'' and ``defense service'' under section 22 is 
different from a ``defense article'' under section 38, it is immaterial 
whether an item is controlled by the USML or is a military item 
controlled in 600 series ECCNs on the CCL.

Question:
    Will any of the provisions of section 23--``Credit Sales''--apply 
to CML-controlled articles provided under the authority of the Arms 
Export Control Act, or otherwise licensed or authorized for export? If 
your answer turns on a distinction between ``military sales'' and 
``commercial sales'' in sections 47(3) and 47(7) of the AECA, please 
explain how the reference to ``military sales'' in section 47(3)(B) can 
be construed to apply to FMF transactions (as opposed to military 
``sales'').
Answer:
    The provisions of section 23 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA. Because a 
``defense article'' and ``defense service'' under section 23 is 
different from a ``defense article'' under section 38, it is immaterial 
whether an item is controlled by the USML or is a military item 
controlled in 600 series ECCNs on the CCL.

Question:
    Will the requirements of section 25--``Annual Estimate and 
Justification for Sales Program''--apply to any CML-controlled articles 
provided under the authority of the Arms Export Control Act, or 
otherwise licensed or authorized for export? Why or why not?
Answer:
    Section 25(a)(1) requires the an annual report that sets forth 
``all sales and commercial exports under this Act of major weapons or 
weapons-related defense equipment.'' The report would therefore include 
Foreign Military Sales in addition to commercial exports licensed under 
section 38. Accordingly, to the extent that a ``sale'' by the U.S. 
pursuant to an FMS case includes ``major weapons or weapons related 
equipment'' that is a military item controlled in 600 series ECCNs on 
the CCL, such item must be included in the report. For purposes of 
``commercial exports under this Act,'' if such items include military 
items controlled in 600 series ECCNs on the CCL, such items will not be 
included in this report.

Question:
    Will the provisions of section 29--``Foreign Military Construction 
Sales''--apply to any CML-controlled articles provided under the 
authority of the Arms Export Control Act, or otherwise licensed or 
authorized for export? Please explain.
Answer:
    The provisions of section 29 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA.

Question:
    Will any of the provisions of section 36--``Reports on Commercial 
and Governmental Military Exports; Congressional Action''--apply to 
CML-controlled articles provided under the authority of the Arms Export 
Control Act, or otherwise licensed or authorized for export? Why or why 
not?
Answer:
    Some of the provisions of section 36 will be impacted by the 
removal of items for purposes of export from the USML. Congressional 
Notification procedures for DCS exports under sections 36(c) and 36(d) 
will not apply to those items that are moved from the USML to the CCL. 
The Congressional notification procedures for FMS will not be affected 
by these proposed changes.

Question:
    Will any of the provisions of section 38--``Control of Arms Exports 
and Imports''--such as those relating to brokering, limitations on 
license exemptions, ineligibility of exporters, and the identification 
of consignees and freight forwarders apply to CML-controlled articles 
(such as semi-automatic weapons up to 50 caliber, utility helicopters, 
naval vessels, or tactical military transport) that are licensed or 
otherwise authorized for export? In your explanation, please explain 
how the absence of such limitations or licensing requirements (such as 
those relating to brokering), are consistent with international best 
practices for the regulation of arms and related military equipment?
Answer:
    The provisions of section 38 will not apply to an item controlled 
by the Commerce Department once that item is removed from the USML. The 
statutory authority for that export is not the AECA, but it will be 
under such statutory authorities as the Commerce Department has 
available to it.
    The items moving to the Commerce Department will still require 
authorizations consistent with our international regime commitments and 
statements of understanding (e.g., Wassenaar's Elements for Effective 
Legislation on Arms Brokering). The details of these arrangements are 
still being considered.

Question:
    Will the provisions of section 39--``Fees of Military Sales Agents 
and other Payments''--apply to CML-controlled articles provided under 
the authority of the Arms Export Control Act, or otherwise licensed or 
authorized for export? Why or why not?
Answer:
    Many of the provisions of section 39, Fees of Military Sales Agents 
and other Payments, of the Arms Export Control Act (AECA) would not be 
affected by the removal of any item from the United States Munitions 
List (USML) for the purposes of exports pursuant to Direct Commercial 
Sales (DCS) under section 38 of the AECA. Because a ``defense article'' 
and ``defense service'' under section 39 is different from a ``defense 
article'' under section 38, it is immaterial whether an item is 
controlled by the USML or is a military item controlled in 600 series 
ECCNs on the CCL.
    To the extent that a provision of section 39 applies to the 
commercial export of a defense article under section 38, such as 
section 39(a)(2), those provisions will not apply to an item controlled 
by the Commerce Department if that item is removed from the USML 
because the statutory authority for that export is not the AECA, but it 
will be under such statutory authorities as the Commerce Department has 
available to it.

Question:
    Will the provisions of section 39A--``Prohibition on Incentive 
Payments''--apply to CML-controlled articles provided under the 
authority of the Arms Export Control Act, or otherwise licensed or 
authorized for export? Please explain.
Answer:
    To the extent that a provision of section 39A applies to the 
commercial export of a defense article under section 38, these 
provisions will not apply to an item controlled by the Commerce 
Department once that item has been removed from the USML because the 
statutory authority for that export is not the AECA, but it will be 
pursuant to such statutory authorities as the Commerce Department has 
available to it.

Question:
    Will the requirements of section 40--``Transactions with Countries 
Supporting Acts of International Terrorism''--apply to CML-controlled 
articles provided under the authority of the Arms Export Control Act, 
or otherwise licensed or authorized for export? Why or why not?
Answer:
    Unlike other provisions of the AECA, the restrictions laid out in 
section 40 are keyed to the term, ``munitions item,'' which section 
40(l)(1) defines to mean ``any item enumerated on the United States 
Munitions List (without regard to whether the item is imported or 
exported from the United States).'' Accordingly, the provisions of 
section 40 will not apply to an item controlled by the Commerce 
Department if that item is removed from the USML because that item 
would no longer be a ``munitions item.''
    While the items transferred from the USML to the CCL will no longer 
be subject to the restrictions set forth in section 40 of the AECA, 
they will be subject to the restrictions on exports to terrorism 
sponsoring countries set forth in section 6(j) of the EAA as kept in 
force by Executive Order 13222 issued under the International Emergency 
Economic Powers Act as well as to any restrictions imposed on licenses 
to specific terrorism sponsoring countries (e.g., Syria Accountability 
and Lebanese Sovereignty Restoration Act of 2003, Iran-Iraq Arms Non-
Proliferation Act of 1992, Cuban Liberty and Democratic Solidarity 
(Libertad) Act of 1996).

Question:
    Will the requirements of section 40A--``End-use Monitoring of 
Defense Articles and Defense Services''--apply to CML-controlled 
articles provided under the authority of the Arms Export Control Act, 
or otherwise licensed or authorized for export? Please explain.
Answer:
    Many of the provisions of section 40A, End-use Monitoring, of the 
Arms Export Control Act (AECA) would not be affected by any removal of 
any item from the United States Munitions List (USML) for the purposes 
of exports pursuant to Direct Commercial Sales (DCS) under section 38 
of the AECA. Because a ``defense article'' and ``defense service'' 
under section 40A is different from a ``defense article'' under section 
38, it is immaterial whether an item is controlled by the USML or is a 
military item controlled in 600 series ECCNs on the CCL.
    To the extent that a provision of section 40A applies to the 
commercial export of a defense article under section 38, those 
provisions will not apply to an item controlled by the Commerce 
Department if that item is removed from the USML because the statutory 
authority for that export is not the AECA, but will be controlled under 
such statutory authorities as the Commerce Department has available to 
it.

Question:
    Will any of the provisions of section 47--``Definitions''--apply to 
CML-controlled articles provided under the authority of the Arms Export 
Control Act, or otherwise licensed or authorized for export? Why or why 
not?
Answer:
    The provisions of section 47, definitions, of the Arms Export 
Control Act (AECA) will not change, however, the scope of the items 
that come within the definition of ``defense articles and defense 
services'' in section 47(7) will change since it is keyed to the USML. 
Therefore, once an item is removed from the USML for the purposes of 
exports under section 38 that item will no longer be under the 
statutory authority of the AECA, but under such statutory authorities 
as the Commerce Department has available to it.

Question:
    Will the provisions of section 51--``Special Defense Acquisition 
Fund''--be applicable to CML-controlled articles? Or is it the position 
of the Department that because section 51 refers to the ``acquisition 
of defense articles and services'' that any CML-controlled article 
would be ineligible for inclusion among those items procured by the 
Fund? Please explain.
Answer:
    The provisions of section 51 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA. Because a 
``defense article'' for purposes of section 51 is different from a 
``defense article'' under section 38, it is immaterial whether an item 
is controlled by the USML or is a military item controlled in 600 
series ECCNs on the CCL.

Question:
    Will the provisions of section 52--``Use and Transfer of Items 
Procured by the Fund''--be applicable to CML-controlled articles? Why 
or why not?
Answer:
    The provisions of section 52 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA. Because a 
``defense article'' for purposes of section 52 is different from a 
``defense article'' under section 38, it is immaterial whether an item 
is controlled by the USML or is a military item controlled in 600 
series ECCNs on the CCL.

Question:
    Will the provisions of section 61--``Leasing Authority''--be 
applicable to any CML-controlled articles in the inventory of the 
Department of Defense? Or is it the position of the Department that 
CML-controlled articles would be ineligible for lease under the 
authority of the AECA? Please explain.
Answer:
    The provisions of section 61 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA. Because a 
``defense article'' for purposes of section 61 is different from a 
``defense article'' under section 38, it is immaterial whether an item 
is controlled by the USML or is a military item controlled in 600 
series ECCNs on the CCL.

Question:
    Will the provisions of section 62--``Reports to Congress''--be 
applicable to any CML-controlled articles leased under the authority of 
Chapter 2 of Part II of the Foreign Assistance Act or of the Arms 
Export Control Act? Why or why not?
Answer:
    The provisions of section 62 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA.

Question:
    Will the provisions of section 63--``Legislative Review''--be 
applicable to any CML-controlled article leased under the authority of 
Chapter 2 of Part II of the Foreign Assistance Act or of the Arms 
Export Control Act? Please explain.
Answer:
    The provisions of section 63 of the Arms Export Control Act (AECA) 
would not be affected by any removal of any item from the United States 
Munitions List (USML) for the purposes of exports pursuant to Direct 
Commercial Sales (DCS) under section 38 of the AECA.

             <F-dash>\<diamond><box><natural><acctof>a<Rx> 
                     <because><F-dash><Register>s\

Questions submitted for the record by the Honorable Howard L. Berman, a 
 Representative in Congress from the State of California, with written 
      responses received from the Honorable Hillary Rodham Clinton

Question 1:
    On December 13, 2011, the House overwhelmingly passed a resolution 
calling on Turkey to return confiscated Christian churches and 
properties (H. Res. 306). The resolution calls on the Secretary of 
State ``in all official contacts with Turkish leaders and other Turkish 
officials . . . [to] emphasize that Turkey should (1) end all forms of 
religious discrimination . . . (2) allow the rightful church and lay 
owners of Christian church properties, without hindrance or 
restriction, to organize and administer prayer services . . . (3) 
return to their rightful owners all Christian churches and other places 
of worship, monasteries, schools, hospitals, monuments, relics, holy 
sites, and other religious properties.'' Are you satisfied that Turkey 
is committed to returning confiscated Christian churches and fully 
respecting the Armenian and other Christian populations that have lived 
on these lands since biblical times?
Answer:
    While I recognize religious minority groups continue to face 
concerning challenges in Turkey, I am encouraged by concrete steps the 
Government of Turkey has taken over the past year to return properties 
to religious communities.
    In August 2011 the government issued a decree allowing religious 
minorities to apply to reclaim churches, synagogues, and other 
properties confiscated 75 years ago. Several properties have already 
been returned to the 24 religious minority foundations that have 
applied thus far. Separately, in November 2010, the government of 
Turkey returned the Buyukada orphanage to the Ecumenical Patriarchate, 
in line with a ruling by the European Court of Human Rights.
    Turkish officials at the most senior levels have told me they are 
committed to reopening the Ecumenical Patriarchate's Halki Seminary in 
the near future. In March, Deputy PM Bekir Bozdag stated, ``There are 
no laws in Turkey against opening a seminary to train Christian 
clerics; the state will also support such a move.''
    The government is redrafting its 1982 military-drafted constitution 
to fully embrace individual rights, including those of religious and 
ethnic minorities. Significantly, Parliament speaker Cemil Cicek 
reached out to Orthodox, Jewish, Armenian and Syriac leaders during 
this process. In response, on February 20, the Ecumenical Patriarch 
addressed the Turkish Parliament for the first time in the history of 
the republic, noting the positive changes taking place in Turkey: 
``Unfortunately, there have been injustices toward minorities until 
now. These are slowly being corrected and changed. A new Turkey is 
being born.''
    These steps are encouraging and we are urging the Government of 
Turkey to continue returning other properties confiscated from minority 
religious communities to their rightful owners, as well as moving 
forward with needed legal reforms in its Constitutional redrafting 
process. We will continue to remain vigilant of the situation for 
religious communities and encourage needed reforms in the country.

Question 2:
    There have been increasing ceasefire violations in Nagorno-
Karabakh, with the most recent resulting in the death of an Armenian 
soldier. Azerbaijan's President has repeatedly stated that only the 
first stage of war is over. In January of this year, President Aliyev 
said, ``It's not a frozen conflict, and it's not going to be one.'' The 
three Minsk Group Co-Chairs have all called the pulling back of snipers 
as a crucial step for decreasing tensions. It has been at least a year 
since both Armenia and Nagorno-Karabakh agreed to this proposal, but 
Azerbaijan has not. What steps is the Administration taking to 
encourage Azerbaijan's acceptance of this important proposal to prevent 
war from resuming in this vital area for U.S. interests?
Answer:
    As a Co-Chair of the OSCE Minsk Group, the United States remains 
deeply committed to helping the sides in the Nagorno-Karabakh conflict 
reach a lasting and peaceful settlement. The U.S. has emphasized that 
the parties should show restraint in both their public statements and 
on the ground to avoid misunderstandings and unintended consequences. 
We reiterate at every opportunity that there is no military solution to 
the conflict and that only a peaceful settlement will lead to security, 
stability, and reconciliation in the region. We regret any loss of life 
and continue to call upon the sides to take steps--including the 
withdrawal of snipers--to improve the atmosphere for negotiations, 
prevent unnecessary casualties, and strengthen implementation of the 
ceasefire.

Question 3:
    Can you give us an update on progress the Administration has made 
in expanding U.S.-Armenia trade and investment in recent years?
Answer:
    The United States remains committed to expanding our economic 
relations with Armenia. The principle vehicle for addressing issues of 
trade and investment with Armenia is the U.S.-Armenia Joint Economic 
Taskforce (USATF). Established in 1999, the USATF meets annually to 
deepen economic ties between Armenia and the United States, advance 
market reforms in Armenia, and discuss opportunities for U.S. 
assistance to contribute to Armenia's long-term economic development. 
The task force is an open forum to discuss issues of concern and 
interest to both countries.
    The most recent USATF was held in late September 2011 and focused 
on promoting trade and investment, protecting intellectual property 
rights, and enhancing the business climate in Armenia.
    The United States continues to seek avenues, through our assistance 
programming, to promote greater linkages between American and Armenian 
private sector firms with the goal of increasing the volume of 
bilateral trade and investment. For example, in the coming months the 
U.S. will sponsor a ``Reverse Trade Mission'' to the United States for 
up to 10 Armenian businesspeople from the information technology 
sector. This mission will provide Armenian entrepreneurs a chance to 
explore opportunities to buy American products, sell Armenian products, 
and build mutually beneficial relationships with U.S. counterparts.
    Armenia recently completed its five-year compact with the 
Millennium Challenge Corporation (MCC). That program, with its focus on 
the agricultural sector, laid the groundwork for increasing 
agricultural exports and greater private sector investment in the 
sector, and will have a significant long-term impact on trade.

              <F-dash>\<Hoarfrost><acctof><careof>t<star>\

   Question submitted for the record by the Honorable Christopher H. 
Smith, a Representative in Congress from the State of New Jersey, with 
  written response received from the Honorable Hillary Rodham Clinton

    Is there any instance or are there any instances in which the Obama 
Administration has withheld, or has threatened to withhold, or plans to 
withhold, or has used or plans to use its voice and vote at 
international lending organizations to reward with debt relief or 
loans, or to deny such, or has undertaken or plans to undertake any 
other retaliatory or incentivizing measure:

        1)  based on that nation's policy on abortion; or
        2)  based on that nation's support or opposition to resolutions 
        at the United Nations regarding abortion?
Answer:
    Use of the U.S. voice and vote in international lending 
institutions is based on the economic merits of the projects proposed 
for such lending and the borrower's creditworthiness, and complies with 
U.S. law. Lending by these institutions aims to support economic 
development. The borrowing countries' policies on abortion are not 
considered in these lending decisions.

 <F-dash>\<F-dash>a<script-l><box><pound> <because><F-dash><Register>s\

     Questions submitted for the record by the Honorable Eni F.H. 
 Faleomavaega, a Representative in Congress from American Samoa, with 
  written responses received from the Honorable Hillary Rodham Clinton

Question 1:
    Madame Secretary, Acting Assistant Secretary Rodriquez last year 
wrote Congress that the Agreement to provide terms for continued free 
association with the former Trust Territory of Palau through 2024 is 
``an important element of our Pacific strategy for defense of the U.S. 
homeland.'' It ``creates an invaluable security zone . . . vital to our 
national security.'' Palau also votes with us in the U.N. more than any 
other member. And it took Chinese Muslims from Guantanamo who could not 
safely be repatriated when no other nation would.
    You and others in the Department did a great service to our country 
by negotiating the Agreement. But, although the Department rushed Palau 
in 2010 to sign an accord that phases out and reduces assistance by 62 
percent, it did not submit the Agreement to Congress until last year 
after new offset requirements were in place. Then, the Administration's 
suggestions for paying for the cost were proposed changes in Interior 
Department programs that had been previously rejected by the committees 
of jurisdiction in both Houses. The leaders of both parties in both 
committees have reiterated that the offset proposals are not viable as 
have the appropriations committees, although all have said that they 
want to approve the Agreement--and no Member of Congress has questioned 
it. Under Secretary of Defense Flournoy last year wrote Congress that 
``Failure to follow through on our commitments to Palau, as reflected 
in the [Agreement approval] legislation would jeopardize our defense 
posture in the Western Pacific.'' That sounds like the situation 
created by the Administration's offset proposals.
    The Nation needs you to try to get OMB to develop congressionally 
viable offsets. Will you do so?
Answer:
    The Palau Compact review process resulted in an agreement between 
the United States and Palau that we hope will be passed by Congress 
this session. Under the terms of the Compact Review Agreement, if 
approved and funded by Congress, Palau would receive a package of 
assistance worth an additional $229 million for fiscal years 2010 
through 2024. This is an increase of $229 million over the assistance 
provided for in the Compact.
    Although the Department of State is responsible for U.S. foreign 
relations with Palau and the Department of Defense maintains the 
defense relationship, the Department of the Interior has always been 
responsible for implementing the Compacts as well as the source of 
funding for assistance programs provided under the Compacts. It is most 
appropriate that the Palau Compact Review Agreement be funded and 
implemented in a manner consistent with that of the Compact. The 
Department of the Interior is the agency responsible for providing 
assistance and implementing most provisions of the proposed Palau 
Compact Review legislation. The proposed FY2012 budget for the 
Department of the Interior included sufficient mandatory savings to 
cover the cost of Compact programs provided for in the legislation. The 
Department of the Interior and the Office of Management and Budget 
worked closely to identify appropriate offsets to cover the assistance.
    Former OMB Director Jack Lew has noted that ``each of these 
proposals furthers an important policy goal, while creating sizable 
savings to the Treasury that could offset the Palau Agreement.'' OMB 
Acting Director Jeffrey Zients has stated that ``The President's FY 
2012 Budget included several legislative proposals with mandatory 
savings that could offset the $194 million cost over 10 years to extend 
the Palau Compact. For example, the proposal for ``net receipts 
sharing'' of energy and mineral receipts would provide savings of $441 
million over 10 years. This proposal would make permanent the current 
arrangement for sharing the cost to administer energy and mineral 
programs on Federal lands. A form of net receipts sharing was in place 
during the 1990s, and this proposal has been enacted annually through 
the appropriations bills since 2008. The proposal has enjoyed the 
bipartisan support of the majority of Members of Congress and is a 
viable offset for the Palau Compact.'' The Administration continues to 
discuss possible offsets with Congress in the hope of reaching a 
resolution to the question of offsets.

Question 2:
    In 2010, your Department successfully negotiated with the 
Government of Japan to initiate a visitation program to Japan for 
United States former prisoners of war from World War II. What steps, if 
any, has your Department take to encourage the Government of Japan to 
expand this program to descents and researchers? What steps, if any, 
has your Department taken to ensure that the visitation program becomes 
an institutionalize and permanent exchange program between the United 
States and Japan that is not subject to the Government of Japan's 
yearly budget review, and is instead supported by a public-private 
autonomous fund?
Answer:
    The Japanese Ministry of Foreign Affairs (MOFA) has now 
successfully completed two ``Japanese/POW Friendship Program'' visits 
for former Prisoners of War (POWs). Participants in the trips have 
voiced effusive praise for both the opportunity to establish personal 
contacts in Japan as a step toward personal healing, as well as the 
attention to detail and coordination by MOFA. MOFA has expressed its 
intent to continue the program and has submitted to the Ministry of 
Finance a request for funds to support the trip in 2012. The Lower 
House of the Japanese Diet has approved the Cabinet's proposed budget, 
and it is currently pending approval by the Upper House. The Department 
of State continues to voice appreciation to MOFA for this program and 
support for its continuation. We believe, however, that the type of 
funding used to support the program is a matter for the Japanese 
government to decide.
    As currently designed, the Ministry of Foreign Affairs finances 
participation in the program by seven former POW invitees and a 
companion of their choosing. Former POWs participating over the past 
two years have selected children and spouses of children to accompany 
them as personal attendants. Moreover, in the first year of the 
program, the Secretary and President of the Descendants Group auxiliary 
of the American Defenders of Bataan and Corregidor, whose fathers were 
POWs, participated as primary invitees.
    The stated purpose of the friendship program is to ``encourage 
`reconciliation of minds' by inviting former American POWs to Japan.'' 
As proposed and executed, the trips have focused on creating 
opportunities to build human connections with Japanese citizens and for 
public speaking by former POWs rather than to conduct historical 
research.
    The POW reconciliation program was designed specifically to provide 
an opportunity for personal healing and closure for those who suffered 
through this painful chapter of history. Other programs offer funding 
for researchers and historians. Such programs include but are not 
limited to: the Japan- U.S. Educational Commission (Fulbright Program), 
the Japan Foundation Japanese Studies Fellowship Program, and the 
National Museum of Japanese History (NMJH) Visiting Scholar Program.

     <F-dash>\\a<Rx><check><brit-pound><script-l><script-l><pound> 
                     <because><F-dash><Register>s\

Questions submitted for the record by the Honorable Donald A. Manzullo, 
 a Representative in Congress from the State of Illinois, with written 
      responses received from the Honorable Hillary Rodham Clinton

Question 1:
    America's relationship with the Argentine Republic has been under 
tremendous pressure ever since that country suffered the largest 
sovereign default in recent history. Argentina's economic woes have led 
to billions of dollars worth of losses for the American taxpayer, 
investor, and government. Argentina has systematically refused to honor 
over 100 U.S. court judgments and other rulings ordering the government 
to uphold its obligations to investors all over the world. Frankly 
Madam Secretary, I am shocked that Argentina, a member of the G-20 club 
of nations, is given a pass on undermining America's rule of law. The 
Treasury Department's recent decision to vote against loans to 
Argentina at International Financial Institutions is a step in the 
right direction, but this action alone is not enough.
    Madam Secretary, what steps are you taking to ensure that the 
Argentine Republic respects American rule of law and makes whole the 
remaining investors seeking equitable treatment? Why isn't the State 
Department not doing more to ensure that American court judgments are 
respected and honored abroad? Finally, aren't you concerned that 
America's attractiveness as a global financial center will be 
undermined if Argentina continues to have access to U.S. financial 
markets while it continues to avoid international obligations?
Answer:
    On the margins of the Cannes G-20 Summit in November, President 
Obama discussed with President Fernandez de Kirchner the need for 
Argentina to normalize its relationship with the international 
financial and investment community, and he urged Argentina to take 
concrete actions with respect to repayment of outstanding arrears and 
complying with final and binding arbitral awards. Senior Department of 
State officials and others in the Administration have followed up with 
Argentine officials to reinforce the President's message.
    The United States believes that it is in the mutual interest of 
Argentina and the United States, that Argentina resolves its 
longstanding obligations to creditors and arbitral award holders. 
Failing this, Argentina's access to U.S. financial markets remains 
sharply curtailed.
    By meeting its obligations to creditors and investors, Argentina 
would send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for its sustained economic growth.
    Argentina's arrears to U.S. government agencies total about $550 
million, and U.S. government effort, including in the Paris Club of 
official creditor nations, is appropriately focused on recovering full 
payment on these loans extended on behalf of American taxpayers. We 
also continue to use every opportunity to urge Argentina to resolve the 
claims of private American bondholders and investors.

Question 2:
    Madame Secretary, Acting Assistant Secretary Rodriguez wrote 
Congress last year that continuing the Compact of Free Association with 
the Republic of Palau through 2024 is ``an important element of our 
Pacific strategy for defense of the U.S. homeland.'' The Compact 
``creates an invaluable security zone . . . vital to our national 
security.'' Furthermore, Palau also votes with the U.S. and Israel in 
the United Nations more than any other member state.
    The Compact Agreement has bipartisan and bicameral support in 
Congress. Congress has requested the Administration on numerous of 
occasions to provide viable offsets for the spending contained in the 
Compact. It is widely recognized that the relationship with Palau is 
important and that it has evolved into a strong partnership with people 
who share American values. Given that our national debt now over $15 
trillion, any expenditure must be justified and offsets found to 
balance the costs. At a hearing I held on the Compact in November 2011, 
witnesses from the Departments of State, Defense and Interior 
proclaimed Palau's importance, but yet, still did not offer any further 
options to pay for it, or share the cost.
    Why is the State Department not taking ownership in this issue if 
it is so important to your strategy in the Asia Pacific, and what will 
you do to push the Office of Management and Budget to identify 
congressionally viable offsets to get the Compact signed once and for 
all?
Answer:
    Although the Department of State is responsible for U.S. foreign 
relations with Palau and the Department of Defense maintains the 
defense relationship, the Department of the Interior has always been 
responsible for implementing the Compacts as well as the source of 
funding for assistance programs provided under the Compacts. It is most 
appropriate that the Palau Compact Review Agreement be funded and 
implemented in the same manner. The Department of the Interior is the 
agency responsible for providing assistance and implementing most 
provisions of the proposed Palau Compact Review legislation. The 
proposed FY2012 budget for the Department of the Interior included 
sufficient mandatory savings to cover the cost Compact programs 
provided for in the legislation. The Department of the Interior and the 
Office of Management and Budget worked closely to identify appropriate 
offsets to cover the assistance.
    Former OMB Director Jack Lew has noted that ``each of these 
proposals furthers an important policy goal, while creating sizable 
savings to the Treasury that could offset the Palau Agreement.'' In a 
February 6, 2012, letter, OMB Acting Director Jeffrey Zients stated 
that ``The President's FY 2012 Budget included several legislative 
proposals with mandatory savings that could offset the $194 million 
cost over 10 years to extend the Palau Compact. For example, the 
proposal for `net receipts sharing' of energy and mineral receipts 
would provide savings of $441 million over 10 years. This proposal 
would make permanent the current arrangement for sharing the cost to 
administer energy and mineral programs on Federal lands. A form of net 
receipts sharing was in place during the 1990s, and this proposal has 
been enacted annually through the appropriations bills since 2008. The 
proposal has enjoyed the bipartisan support of the majority of Members 
of Congress and is a viable offset for the Palau Compact.'' The 
Administration continues to discuss possible offsets with Congress in 
the hope of reaching a resolution to the question of offsets.

         <F-dash>\<Hoarfrost><star><box><natural><acctof>a<Rx> 
                     <because><F-dash><Register>s\

  Questions submitted for the record by the Honorable Brad Sherman, a 
 Representative in Congress from the State of California, with written 
      responses received from the Honorable Hillary Rodham Clinton

Question 1:
    In March 2011 and again in July 2011, Azerbaijan threatened to 
shoot down civilian airplanes. Would the Administration not waive 
Section 907 of the FREEDOM Support Act, if Azerbaijan followed through 
with their threats to shoot down civilian airplanes and other acts of 
aggression against Nagorno-Karabakh?
Answer:
    As a Co-Chair of the Minsk Group, the United States has emphasized 
that all sides should show restraint in their public statements and on 
the ground to avoid misunderstandings and unintended consequences. As 
we emphasized last year, the threat or use of force--including against 
civil aircraft, which pose no threat themselves--is unacceptable, and 
runs counter to commitments made by the Presidents of Azerbaijan and 
Armenia to seek a peaceful, negotiated settlement of the conflict in 
Nagorno-Karabakh. The United States has continued to make clear to 
Azerbaijan and Armenia, both bilaterally and through the Minsk Group, 
that there is no military solution to the conflict.

Question 2:
    Given Turkey's and Azerbaijan's ongoing blockade of Armenia, I have 
concerns about the Administration's Budget with respect to Armenia and 
the region. While the entire account received an approximately 18 
percent cut, I am concerned about the economic impact of the dual 
blockades against Armenia. We should not be reducing aid to Armenia, 
but rather looking at ways to assist Armenia in overcoming the dual 
blockades. What steps are being taking to press Turkey to end its 
blockade of Armenia?
Answer:
    After being essentially straight-lined in FY 2011 and FY 2012, our 
proposed assistance budget for Armenia compares favorably with the rest 
of the region, which has been reduced by 25 percent between FY 2011 and 
FY 2013. Comparatively, our request for Armenia in FY 2013 represents a 
reduction of less than $8 million, or approximately 17 percent. These 
reductions reflect the difficult tradeoffs we have to make between 
competing priorities in a difficult budget environment.
    U.S. assistance seeks to enhance Armenia's position as a stable 
partner at peace with its neighbors, fully integrated into the regional 
economy, where principles of democracy are respected, and the benefits 
of economic growth are shared by all segments of society. While the 
proposed budget will require us to make some difficult choices between 
specific programs, we believe the resources requested are sufficient to 
continue robust support to top assistance priorities such as fostering 
regional stability, promoting economic growth, and advancing democracy 
and the rule of law.
    U.S. assistance will continue to support confidence-building 
measures designed to build linkages with Azerbaijan and Turkey. We will 
also support conflict mitigation projects and international visitor 
exchanges to promote mutual understanding between neighboring 
countries. We will sustain efforts to develop a stable and predictable 
economic environment that encourages the private sector to make 
productive and growth-enhancing investments.
    We continue to urge Turkey to ratify the 2009 bilateral protocols. 
We believe normalization carries important benefits for Turkey and 
Armenia, and will foster increased stability and prosperity in the 
entire Caucasus region. We will continue to work to promote 
understanding between Turkey and Armenia, including by encouraging 
people-to-people cultural and economic contacts, and other cross-border 
and regional initiatives.

Question 3:
    Madame Secretary, Congress has provided aid to the people of 
Nagorno Karabakh over the years, but I remain concerned about whether 
such assistance is actually delivered to Nagorno Karabakh. Do you 
support ongoing U.S. assistance to help the people of Nagorno Karabakh?
Answer:
    The Administration shares Congress' view on the importance of 
aiding those who have been affected by the conflict over Nagorno-
Karabakh (NK). Since 1998, the United States has provided over $37 
million in humanitarian assistance to victims of the NK conflict, 
including food, shelter, emergency and medical supplies, access to 
quality healthcare and water, and demining projects. In addition to the 
ongoing demining project which has thus far cleared 94% of anti-
personnel and anti-tank mines and 71% of the battle area, we are 
concluding a potable water project that will expand access to clean 
water in the city of Stepanakert. We intend to continue our support to 
the people of Nagorno-Karabakh in FY 2013.

Question 4:
    I request that our aid programs in Georgia, while supporting 
development throughout the entire country, focus on the relatively 
impoverished and under-developed Javakh region in the south of Georgia. 
We should provide a robust U.S. aid package for Georgia that includes 
targeted assistance to the Javakh region. Do you support U.S. aid to 
the Javakh region of Georgia?
Answer:
    The United States has, and continues to focus significant 
assistance resources toward programs that benefit the Samstke-Javakheti 
region of Georgia. By far, the largest U.S. Government investment has 
been the over $200 million Millennium Challenge Corporation (MCC) 
effort that rehabilitated approximately 222 kilometers of a main road 
linking Tbilisi with Samtskhe-Javakheti to foster economic development 
in the region through increasing exports of agricultural products.
    Other efforts in the bilateral budget are leveraging the MCC 
investment, including agriculture development efforts, which have 
supported various activities including cattle farming, trout farming, 
potato production, dairy processing, feed production and beekeeping. We 
are supporting private sector development by promoting development of 
small- and medium-sized enterprises in the tourism sector, increasing 
the access to long-term finance, and broadening business training 
opportunities.
    Our programs also target social sector and democratic development. 
U.S. assistance rehabilitated three public hospitals in the region, and 
a new primary education project includes teaching Georgian language in 
schools in Samtskhe-Javakheti to improve the children's ability to 
participate in the Georgian economy and political life. U.S. democracy 
programs are focused on empowering people and organizations to debate 
and resolve issues and increasing active citizen participation in the 
electoral process, both of which are integral to building a cohesive 
multi-ethnic nation.

   <F-dash>\<Copyright><star>ab<pound>t <because><F-dash><Register>\

  Question submitted for the record by the Honorable Steve Chabot, a 
    Representative in Congress from the State of Ohio, with written 
      response received from the Honorable Hillary Rodham Clinton

Question:
    The Subcommittee on Asia and the Pacific, in November of 2011, held 
a hearing to assess the 15-year renewal of the Compact of Free 
Association with the Republic of Palau. Both Chairman Manzullo and 
Ranking Member Faleomavaega expressed a commitment to enacting 
legislation approving a revised Agreement.
    As you know, our nations have longstanding ties. Acting Assistant 
Secretary Rodriguez recently wrote continued free association with 
Palau is ``an important element of our Pacific strategy for defense of 
the U.S. homeland,'' creating ``an invaluable security zone . . . vital 
to our national security. Undersecretary of Defense Flournoy has said 
that ``failure to follow through on our commitments to Palau . . . 
would jeopardize our defense posture in the Western Pacific.''
    It has become apparent that budget offsets proposed to pay for the 
Agreement by the Administration do not meet with the approval of a 
bipartisan majority in Congress. Will you work with the Committee to 
identify offsets that can meet with the approval of Congress so that we 
may move forward with enacting legislation?
Answer:
    Although the Department of State is responsible for U.S. foreign 
relations with Palau and the Department of Defense maintains the 
defense relationship, the Department of the Interior has always been 
responsible for implementing the Compacts as well as the source of 
funding for assistance programs provided under the Compacts. It is most 
appropriate that the Palau Compact Review Agreement be funded and 
implemented in the same manner. The Department of the Interior is the 
agency responsible for providing assistance and implementing most 
provisions of the proposed Palau Compact Review legislation. The 
proposed FY2012 budget for the Department of the Interior included 
sufficient mandatory savings to cover the cost Compact programs 
provided for in the legislation. The Department of the Interior and the 
Office of Management and Budget worked closely to identify appropriate 
offsets to cover the assistance.
    Former OMB Director Jack Lew has noted that ``each of these 
proposals furthers an important policy goal, while creating sizable 
savings to the Treasury that could offset the Palau Agreement.'' In a 
February 6, 2012, letter, OMB Acting Director Jeffrey Zients stated 
that ``The President's FY 2012 Budget included several legislative 
proposals with mandatory savings that could offset the $194 million 
cost over 10 years to extend the Palau Compact. For example, the 
proposal for `net receipts sharing' of energy and mineral receipts 
would provide savings of $441 million over 10 years. This proposal 
would make permanent the current arrangement for sharing the cost to 
administer energy and mineral programs on Federal lands. A form of net 
receipts sharing was in place during the 1990s, and this proposal has 
been enacted annually through the appropriations bills since 2008. The 
proposal has enjoyed the bipartisan support of the majority of Members 
of Congress and is a viable offset for the Palau Compact.'' The 
Administration continues to discuss possible offsets with Congress in 
the hope of reaching a resolution to the question of offsets.

            <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx> 
                     <because><F-dash><Register>s\

 Questions submitted for the record by the Honorable Russ Carnahan, a 
  Representative in Congress from the State of Missouri, with written 
      responses received from the Honorable Hillary Rodham Clinton

Question 1:
    International science engagement has become a regular and important 
part of the State Department's toolbox for working with countries. I 
have long believed that this is an important part of our diplomatic 
engagement around the world. To that end, I am working on legislation 
to further develop these initiatives. Much of this work has been mostly 
done through science and technology agreements with other countries 
which focus on knowledge exchange and basic scientific research and 
education. Recently, however, initiatives which focus more on the 
commercialization of science and technology, entrepreneurship, and 
innovation have become part of the State Department's repertoire. Why 
has there been a shift in priorities, and how is this in our 
diplomatic, security, and economic interests? Further, how does this 
investment of US tax dollars in this manner help US businesses and 
companies?
Answer:
    The Department has expanded, not shifted, its priorities to address 
commercialization of science and technology, entrepreneurship, and 
innovation. We continue to vigorously support science and technology 
cooperation in areas such as STEM education, basic scientific research, 
and fact- based decision making. We have over fifty umbrella Science & 
Technology Agreements with countries around the world that enhance the 
exchange of knowledge and promote cooperation among scientists.
    We have expanded our global engagement to include topics that are 
integral to our foreign policy objectives worldwide. Commercialization 
of science and technology, entrepreneurship, and innovation are 
essential for the economic growth and prosperity of the United States 
and its foreign partners. When other countries learn our processes, 
value open competition, accept international standards and protect 
intellectual property, the U.S. private sector benefits.
    Through our science, technology and innovation efforts, we are 
helping our foreign partners become more responsive to the needs of 
their citizens. Our programs create economic opportunities for those 
scientists and engineers who might otherwise be tempted to use their 
knowledge for nefarious purposes.
    In the short term, the Department's programs have the potential to 
lead to new products and new markets for U.S. and foreign companies. In 
the long term, these programs may contribute to more substantive 
cultural changes that bolster the local, regional, and global economic 
and security environment.

Question 2:
    Madam Secretary, as you know, the Republic of Argentina has still 
not resolved issues stemming from its 2001 default, and a significant 
amount of the sovereign debt on which Argentina defaulted was issued by 
Argentina under U.S. law to U.S. investors. This default and 
accompanying policies have impacted a diverse array of Americans, from 
large investors to farmers to educators' pensions. I commend you, the 
Department of Treasury, and the White House for taking steps to help 
resolve this in a way that is in the best interests of both of our 
countries. However, Argentina has still not resolved the issue despite 
having the means to settle its default. I remain concerned that even 
though Argentina promised to follow U.S. law when it issued bonds to 
Americans in U.S. markets, it has since evaded over one hundred 
judgments against it in U.S. courts leaving Americans with no other 
legal recourse. I believe that it is our government's role to stand up 
to Argentina on these Americans' behalf.
    Would you elaborate on why it is important for the international 
community, as well as in Argentina's long-term interest, to resolve 
these issues? Also, what steps are being taken by the State Department 
to address this situation and encourage Argentina to meet its 
international obligations?
Answer:
    On the margins of the Cannes G-20 Summit in November, President 
Obama discussed with President Fernandez de Kirchner the need for 
Argentina to normalize its relationship with the international 
financial and investment community, and he urged Argentina to take 
concrete actions with respect to repayment of outstanding arrears and 
complying with final and binding arbitral awards. Senior State 
Department officials and others in the Administration have followed up 
with Argentine officials to reinforce the President's message.
    We believe it is in the mutual interest of Argentina and the United 
States that Argentina resolve its longstanding obligations to creditors 
and arbitral award holders.
    In meeting its obligations to creditors and investors, Argentina 
will send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for the sustained economic growth.

          <F-dash>\\a<star><loz> <because><F-dash><Register>s\

  Questions submitted for the record by the Honorable Connie Mack, a 
  Representative in Congress from the State of Florida, with written 
      responses received from the Honorable Hillary Rodham Clinton

Question 1:
    Secretary Clinton, on October 27, 2011 you testified before the 
House Committee on Foreign Affairs that you had ``no record of any 
request'' for an export license from the Department of Justice despite 
the Department causing 2,000 arms to be exported outside of the U.S. 
and into Mexico during the tragic Operation Fast and Furious. If no 
license was received, the Department of Justice would be in clear 
violation of the International Traffic in Arms Regulations (ITAR) which 
requires a written waiver from the State Department before exporting or 
causing to export weapons on the United States Munitions List.
    According to the Department of State, ``the U.S. Government views 
the sale, export, and re-transfer of defense articles and defense 
services as an integral part of safeguarding U.S. national security and 
furthering U.S. foreign policy objectives.''
    As you know, the authority to control the export of defense 
articles and services, as provided to the President in the Arms Export 
Control Act, was delegated to the Secretary of State through Executive 
Order 11958, as amended. The ITAR implements this authority.
    Civil violations of ITAR are punishable by a maximum penalty of 
$500,000 per violation while criminal violations are punishable by a 
maximum penalty of $1,000,000 per violation or up to 10 years 
imprisonment per violation.
    What steps have you taken to hold accountable those responsible at 
the Department of Justice for violating the ITAR?
Answer:
    The Department of Justice (DOJ) Office of the Inspector General is 
looking into the circumstances surrounding this operation. We are 
awaiting the completion of that review.

Question 2:
    Secretary Clinton, in 2001 the Republic of Argentina defaulted on 
tens of billions of dollars in sovereign debt. Ten years later, 
Argentina still has not paid what it owes U.S. citizens and U.S. 
corporations. In fact, Argentina has evaded over 100 U.S. court 
judgments and has attempted to repudiate the debt altogether.
    What steps have you taken to urge Argentina to meet its legal 
obligations?
Answer:
    On the margins of the Cannes G-20 Summit in November, President 
Obama discussed with President Fernandez de Kirchner the need for 
Argentina to normalize its relationship with the international 
financial and investment community, and he urged Argentina to take 
concrete actions with respect to repayment of outstanding arrears and 
complying with final and binding arbitral awards. Senior State 
Department officials and others in the Administration have followed up 
with Argentine officials to reinforce the President's message.
    We believe it is in the mutual interest of Argentina and the United 
States that Argentina resolve its longstanding obligations to creditors 
and arbitral award holders.
    In meeting its obligations to creditors and investors, Argentina 
will send a strong signal that it welcomes and encourages foreign and 
domestic investment that is crucial for the sustained economic growth.

Question 3:
    Secretary Clinton, in FY2013 the State Department requested more 
than $500,000 in military training and education assistance to 
Argentina.
    However, last year, Argentina hijacked and jeopardized sensitive 
U.S. equipment during a training mission and continues to disregard 
over 100 U.S. court judgments.
    What is the rationale for providing more than a half million 
dollars to Argentina for their military?
    Additionally, it appears that Argentina has implemented import 
restrictions that are in violation of our existing bilateral investment 
treaty.
    Are you aware of Argentina's import restrictions and what actions 
have you taken as a result?
Answer:
    One of the primary objectives of IMET is to develop long-term 
relationships with foreign military officers. IMET funding for 
Argentina would support aviation-related courses, defense resource 
management training, international law courses, as well as sending its 
senior- and mid-level military officers to professional-military 
education and management courses as part of their professional 
development. It is important to continue to sustain a basic 
relationship between the U.S. and Argentine militaries as we work 
through all issues in our broader bilateral relationship.
    Despite the success of a 22 percent increase in U.S. exports to 
Argentina in 2011, we remain concerned by measures introduced by the 
Argentine government--measures that create barriers to trade and 
investment, including increased use of non-automatic licenses, 
requirements that all imports and purchases of dollars to pay for those 
imports be approved by the government, requirements that companies 
balance imports with exports, and restrictions on remittances abroad of 
profits and dividends. We have engaged Argentina on our concerns, both 
bilaterally and through the WTO, that these new policies pose barriers 
to trade and investment and have a negative effect on both U.S. and 
Argentine companies.

      <F-dash>\<n-iden-3><pound><box> <because><F-dash><Register>\

    Questions submitted for the record by the Honorable Ted Poe, a 
   Representative in Congress from the State of Texas, with written 
      responses received from the Honorable Hillary Rodham Clinton
    Madame Secretary:

Question 1:
    What is the Administration's strategy at the summit in Chicago to 
ensure that Georgia is given a clear roadmap and benchmarks for 
achieving full NATO membership?
Answer:
    The United States is working closely with NATO Allies on planning 
for the Summit, which will focus on NATO engagement in Afghanistan in 
addition to NATO's capabilities and partnerships. Georgia continues to 
be an important NATO partner and significant contributor to ISAF 
operations in Afghanistan, and we believe the Summit should highlight 
this partnership.
    NATO's door remains open to all aspirants, including Georgia. The 
Administration supports Georgia's NATO membership aspirations, and its 
Annual National Program (ANP) and the NATO-Georgia Commission (NGC) 
play central roles in this regard. The Administration is also working 
with Allies on ways to acknowledge the progress that Georgia has made 
on democratic, economic, and defense reforms at the Summit.

Question 2:
    In 2007, Taiwan notified the WTO that it would establish maximum 
residue levels for Ractopamine (a substance U.S. beef and pork farmers 
use to produce lean livestock) so that U.S. beef and pork farmers could 
export their livestock to Taiwan. However, because of political 
pressure from Taiwan pork farmers, the Taiwan government refuses to 
implement science-based standards for beef and pork imports. U.S. beef 
and pork exports continue to be subject to unwarranted import 
restrictions. Taiwan has been a top 5 export market for U.S. beef until 
recently because of these restrictions. Taiwan President Ma Ying-jeou 
announced after his re-election in January that resolving outstanding 
trade issues affecting U.S. beef and pork exports to Taiwan would be 
one of his main goals for his second term in office. What is the State 
Department doing to keep pressure on the Taiwanese government to lift 
trade restrictions on U.S. beef and pork exports? What are the next 
steps to resolve this issue? Is the State Department working with 
affected industries as it strives to resolve this matter?
Answer:
    The Department of State, as part of an interagency team including 
USTR, USDA, the FDA, Commerce, and the American Institute in Taiwan 
(AIT), has worked for years to encourage Taiwan to adopt science-based 
food safety measures, following other key trading partners in the 
region. As part of this effort, we have urged Taiwan to set science-
based minimum residue levels MRLs not only for the import of products 
containing trace amounts of feed additives like ractopamine, but also 
for a range of other products.
    The interagency team of experts working on this issue has, on an 
ongoing basis, provided technical information to Taiwan regulators; 
consulted closely with U.S. farmers, ranchers and other stakeholders; 
briefed key staff on Capitol Hill on developments; and traveled to 
Taiwan to meet directly with all of the relevant agencies to press 
Taiwan to take action. Senior officials from the State Department, 
USTR, and other agencies have raised the ractopamine issue with Taiwan 
counterparts consistently during bilateral events and visits.
    The AIT team, led by Director Stanton, has met with Taiwan 
political leaders and media to urge action and to correct 
misinformation about the safety of ractopamine and U.S. meat exports. 
Most importantly, Director Stanton and senior U.S. Government officials 
have repeatedly made clear to Taiwan that ensuring that its measures 
are based on science is critical to Taiwan acting as a responsible 
trading partner, and that Taiwan's actions regarding ractopamine have 
undermined confidence in the United States that Taiwan will treat U.S. 
products fairly. Senior U.S. Government officials have further made 
clear to Taiwan that its actions have become a major impediment in our 
bilateral economic relationship, including our bilateral Trade and 
Investment Framework Agreement talks.
    On March 5 the Taiwan authorities announced a plan to implement a 
ractopamine MRL for beef, subject to several additional conditions. We 
are currently seeking additional information about the plan and how it 
will be implemented, and are closely monitoring developments in Taiwan.

Question 3:
    The U.S. rice industry exports half of all production each year. 
Rice farmers have suffered in recent months because of increased 
production costs and lack of access to potential markets like Iraq. 
Iraq imports most of its rice--about 1 million metric tons per year. 
Over the past decade, 10-15% of that total came from the U.S., however 
Iraq has not purchased U.S. rice since late 2010. The U.S. rice 
industry would benefit from having access to the Iraq market. Have you 
talked with the Iraqi government about this issue? If not, would you be 
willing to raise this issue with the Iraqi government?
Answer:
    U.S. rice is well regarded by consumers in Iraq and is always 
considered an option when Iraq makes purchases. Over the past twelve 
months, lower prices offered by other rice suppliers have made those 
suppliers much more competitive. That is changing, however, and as U.S. 
rice prices are becoming increasingly competitive, Iraq is again 
looking seriously at U.S. rice as an option.
    As our embassies do around the world, our embassy in Baghdad 
continually and vigorously engages with the Iraqi authorities in 
support of U.S. agricultural exports, including rice. We will continue 
this effort to encourage them to purchase U.S. rice this year.

Question 4:
    Over the last year, 40% of the military reimbursement claims filed 
by Pakistan were ruled fraudulent. After we got Osama bin Laden, 
Pakistan outed our CIA station chief, arrested a doctor that helped us, 
and demanded we close our drone bases. A month after bin Laden's 
capture, the United States identified bomb making factories where IEDs 
were made to kill American soldiers. Instead of going after the 
militants at the factories, apparently Pakistani intelligence officials 
tipped off the bad guys. To top it off, according to Admiral Mike 
Mullen, the government of Pakistan supported the killing of Americans. 
``With ISI [Pakistan's Inter-Services Intelligence agency] support, 
Haqqani operatives plan and conducted'' a truck bomb attack that 
wounded more than 70 U.S. and NATO troops on--get this--September 11. 
Given all these events, why do you want to give Pakistan $500 million 
more in FY13 than we did in 2011?
Answer:
    Our core national security interests in Pakistan are as urgent and 
compelling as ever, and we remain committed to sustaining a productive 
relationship with Pakistan. As a result, we continue to request robust 
levels of security assistance to preserve options and flexibility as we 
move forward with the relationship. Building Pakistan's 
counterterrorism (CT) and counterinsurgency (COIN) capabilities remain 
critical to U.S. national security interests. Of course, we continue to 
calibrate and evaluate the delivery of security assistance to ensure it 
is linked to Pakistan's cooperation and in line with our shared 
objectives.
    The actual increase in the FY 2013 Administration's request for 
security assistance for Pakistan compared to the assistance 
appropriated in FY 2011 is approximately $56 million. The increase of 
$50 million is calculated when considering how our training and 
equipping efforts to support the development of Pakistan's COIN and CT 
capabilities were distributed between the State Foreign Assistance and 
DOD budgets in FY 2011 and FY 2013.

        <bullet>  In FY 2011, State's Foreign Military Financing (FMF), 
        International Military Education and Training (IMET) program, 
        and the Pakistan Counterinsurgency Capability Fund (PCCF) plus 
        DoD's Pakistan Counterinsurgency Fund (PCF) totaled 
        approximately $1.1 billion.
        <bullet>  For FY 2013, the Administration requested $1.156 
        billion in PCCF, IMET, and FMF, a relatively modest increase of 
        approximately $56 million over FY 2011 enacted levels. In FY 
        2013, the Administration did not request funding for PCF but 
        instead requested funding for PCCF as part of State's Overseas 
        Contingency Operations account.
        <bullet>  Of this increase, $55 million is in FMF, which brings 
        the total FY 2013 FMF request to $350 million, the same level 
        it was requested at in FY 2012. The modest increase of $1 
        million for IMET will enable us to fund increased Pakistan 
        participation in professional and technical military training 
        programs here the United States.

    It is worth noting that the FY 2013 security assistance request for 
Pakistan is a 21 percent decrease from the FY 2012 request. As such, we 
consider this to be a realistic request that takes into account both 
budget and implementation constraints.

Question 5:
    The Senator Paul Simon Water for the Poor Act of 2005 made safe 
drinking water and sanitation a priority of US foreign policy. I am 
proud to serve as the lead Republican cosponsor of H.R. 3658, the 
Senator Paul Simon Water for the World Act, which would strengthen 
these efforts to provide safe drinking water and sanitation. In the 
last two years you have made two strong policy speeches on or around 
World Water Day about the importance of this issue. Can you brief us on 
what changes have been made at Department of State and USAID to turn 
those strong policy speeches into strong policy for global water?
Answer:
    Our efforts to implement the Senator Paul Simon Water for the Poor 
Act of 2005 are described in full in our annual reports to Congress 
(available at http://www.state.gov/e/oes/water/index.htm). In addition, 
the Department of State has taken a number of steps over the past two 
years to make water issues a priority of our bilateral, regional and 
global diplomatic engagement and to strengthen the capacity of the 
United States to address these issues internationally. For example:

        <bullet>  We have strengthened our understanding of global 
        water challenges and improved our plans and strategies. We 
        requested a National Intelligence Estimate (NIE) on Global 
        Water Security to better understand the relationship between 
        global water challenges and U.S. national security. We will be 
        using the recently released unclassified version of the NIE to 
        build international support for these issues and to guide our 
        own efforts on water and security.
        <bullet>  USAID is in the process of developing a water and 
        development strategy that integrates water into USAID supported 
        health, food security and climate change efforts.
        <bullet>  We have launched a number of partnerships to catalyze 
        greater international action and mobilize additional resources. 
        The Shared Waters Partnership was established in September 2011 
        and creates a multi-donor platform for advancing cooperation on 
        transboundary waters in regions where water is, or may become, 
        a source of conflict. The Middle East and North Africa Network 
        of Water Centers of Excellence was launched in December 2011 
        and is an alliance of research and educational institutions and 
        civil society to resolve water challenges through collaborative 
        research, capacity building, innovation, and knowledge sharing.
        <bullet>  We have established institutional relationships that 
        will greatly leverage U.S. expertise and knowledge. In March 
        2011, we signed a Memorandum of Understanding between the 
        United States and the World Bank to strengthen our respective 
        capacities and efforts to improve water security. More than 30 
        different projects involving over 10 U.S. government agencies 
        have been identified. This March, we launched the U.S. Water 
        Partnership, which will serve as a platform to mobilize 
        knowledge, expertise and resources from the U.S. private 
        sector, government, non-profit, foundation, academic, and 
        expert communities in support of water and sanitation 
        challenges, especially in developing countries where needs are 
        greatest.
        <bullet>  And we have engaged diplomatically to build 
        international awareness and commitment and to support riparian 
        country efforts to address national and transboundary water 
        challenges in a number of regions where water and security are 
        closely linked (e.g., the Nile, Mekong, Pakistan). We have 
        worked closely with international partners to support 
        international events such as the Bonn International Conference 
        on Water, Food and Energy Security, the 6th World Water Forum 
        in Marseille, and the Sanitation and Water for All High-level 
        meetings) to contribute to meaningful impact.

    These are some of our activities from the past two years. More 
information is available at http://www.state.gov/e/oes/c36032.htm. We 
are grateful for your leadership on this important issue and would be 
pleased to send our experts to provide a more detailed briefing if you 
would like.

   <F-dash>\<diamond><brit-pound><box><natural><loz><script-l><box> 
                     <because><F-dash><Register>s\

Questions submitted for the record by the Honorable Ann Marie Buerkle, 
 a Representative in Congress from the State of New York, with written 
      responses received from the Honorable Hillary Rodham Clinton

Question 1:
    Madam Secretary, I would first like to direct your attention to a 
matter of importance for many New Yorkers living along the St. Lawrence 
Seaway and our Great Lakes. The International Joint Commission, funded 
through the Department of State and a component of our nation's foreign 
policy, recently released a report (the BV7 plan) outlining its 
proposed changes for Lake Ontario and the St. Lawrence River which 
could have a dramatic impact on my constituents in Western and Central 
New York. As a former New York State Senator, you well understand the 
importance of maintaining and preserving current water levels. It is my 
hope that as the International Joint Commission moves ahead with its 
efforts, your office will remain an active participant in the process 
and work with mine to protect New York's waters and protect those who 
live and own businesses along the shores.
Answer:
    I continue to appreciate your strong engagement on this important 
issue and your strong commitment to the concerns of your constituents. 
As I noted in my response to your letter of February 2, 2012, the 
waters of Lake Ontario and the St. Lawrence River are shared by the 
United States and Canada and are therefore subject to the 1909 Treaty 
and the International Joint Commission, which was established by the 
United States and Canada under that treaty. In 1952, in relation to a 
reference to the IJC relating to construction of a hydroelectric power 
project on the St. Lawrence River, the two federal governments asked 
the International Joint Commission (IJC) to analyze whether the extreme 
fluctuations of water on the lake could be reduced.
    Recent studies show that the existing management plan has harmed 
the health of the lake and river by degrading wetlands and other 
habitat. The IJC's objective in modernizing that plan, pursuant to the 
1909 Treaty, is to make decisions taking into consideration all 
interests of the basin, using the best available science. The proposed 
plan would substantially improve wetlands, a key indicator for lake and 
river health. Healthy wetlands support birds, fish, and other wildlife, 
and contribute to the quality of life of the basin's human residents by 
filtering pollutants and enhancing recreational opportunities. I share 
your concern, and I know the IJC shares your concern, for balancing 
these important objectives with the needs of people whose property 
borders the lake, and we all remain committed to striking the best 
possible balance.

Question 2:
    I'm certain you agree that Israel is our most important ally in the 
Middle East. The United States has always strongly supported the nation 
of Israel, who is truly a representative of American values and 
security interests in the region. For that reason, both Democratic and 
Republican Administrations alike have always nurtured a close alliance 
with Israel.
    A look back at the previous two Administrations indicates the 
special relationship the United States has had. President Bush and 
President Clinton, despite being on different sides of the aisle, 
maintained very strong ties with Israel throughout their terms.
    During his expansive efforts in the Middle East, the Bush 
Administration worked tirelessly to ensure that Israel's interests were 
taken into account. President Bush and Secretary of State Condoleezza 
Rice labored to bring about successful negotiations between Israel and 
the Palestinians, drawing up a ``Roadmap to Peace'' in 2002. Throughout 
that process there was never any doubt that the United States and 
Israel were firmly unified.
    President Clinton's Administration likewise nurtured our 
relationship with Israel while pursuing an ambitious agenda for peace 
between Israel and Palestine. During his time in office, President 
Clinton, among other things, had a significant role in the Oslo Peace 
Accords and conducted the Camp David Summit in 2000. Many would 
characterize the period during which President Clinton was in office as 
the most promising for creating a lasting peace in the region.
    In stark contrast to these two administrations, President Obama has 
managed to undermine the peace process between Israel and Palestine. He 
has destabilized our relationship with Israel perhaps more than any 
President since Israel gained independence in 1948. It is clear that 
you, as Secretary of State, have worked to maintain our alliance with 
Israel. President Obama, however, has weakened your efforts with his 
misguided approach to Middle East policy, as well as in his 
interactions with Prime Minister Benjamin Netanyahu.
    Many would not be surprised that President Obama might differ from 
the Bush Administration on Israel Policy. It is not so obvious, 
however, why he would differ so significantly from President Clinton. 
Like Bill Clinton, Barack Obama is a Democratic president. Also like 
Mr. Clinton, Mr. Obama's counterpart in Israel is Benjamin Netanyahu.
    You served in the Senate during President Bush's two terms and you 
had a very important and influential role during President Clinton's 
time in office. Undoubtedly you have valuable insight regarding our 
important relationship with Israel. Perhaps, you would be willing to 
offer some commentary as to why President Obama has taken such an 
unwise and, in my perspective, irresponsible approach. Why has 
President Obama failed to comprehend the importance of being a strong 
ally to Israel?
Answer:
    As President Obama has said repeatedly, our longstanding commitment 
to the security and well-being of Israel--a commitment that is 
consistent with the history of previous occupants of the Oval Office--
is unbreakable. During his recent visit, Prime Minister Netanyahu 
reaffirmed the unprecedented level of cooperation this Administration 
has with Israel on a broad range of regional and strategic issues. We 
have a constant high-level security dialogue with key Israeli defense 
and intelligence officials. In a very tight budget environment, our 
overall security assistance to Israel has increased every year since 
2009 to its highest levels in U.S. history. Backing up its commitment 
to Israel's security with its deeds, this Administration has expanded 
U.S.-Israeli cooperation on security challenges, including 
counterterrorism, preventing arms smuggling to Gaza, missile defense, 
and preventing Iran from obtaining a nuclear weapon.

Question 3:
    This week it was reported that Israeli officials said they won't 
warn the United States if they decide to launch a pre-emptive strike 
against Iranian nuclear facilities. Obviously, this is a rather 
unsettling report, especially given that it so closely precedes Prime 
Minister Netanyahu's visit to Washington. What, if anything, does this 
report indicate about our partnership with Israel in facing the threat 
of a nuclear Iran?
Answer:
    This Administration has been unequivocal with regard to our policy 
on Iran. As the President has said, we are determined to prevent Iran 
from obtaining a nuclear weapon, and no options are off the table. A 
nuclear-armed Iran would further embolden Tehran's support for 
terrorism and would constitute a destabilizing threat across the 
region, including to our closest ally in the Middle East--Israel. We 
continue to have frank discussions with the Israelis on our options 
regarding Iran, which President Obama recently stated include all 
elements of American power: a political effort aimed at isolating Iran; 
a diplomatic effort to sustain international unity and ensure that 
Iran's program is monitored; an economic effort that imposes crippling 
sanctions; and a military effort to be prepared for any contingency. 
This Administration firmly believes that an opportunity still remains 
for diplomacy--backed by pressure--to succeed. We are in close 
consultations with Israel and the rest of our international partners on 
maximizing this opportunity to persuade Iran to resolve the 
international community's concerns regarding the nature of its nuclear 
program.

Question 4:
    On a separate note, but keeping on the subject of Iran. There has 
recently been some indication that Iranians would have welcomed 
American intervention during the 2009 uprising. It was reported that 
members of the Green Party in Iran sent a memo to the Obama 
Administration calling on the West for support. At the time, the 
administration claimed that any support in Iran was unwelcome. Can you 
confirm the authenticity of this memo?
Answer:
    We are unaware of any such letter or memo and therefore cannot 
comment on its authenticity.

Question 5:
    (In any case) In retrospect do you believe President Obama should 
have acted differently during the unrest in Iran in 2009? Do you 
believe that some of the challenges we are facing in Iran would have 
been avoided had the President chosen to take more decisive steps 
during that period?
Answer:
    The most insistent voices we heard from within the Green Movement 
and their supporters outside Iran advised that events happening inside 
the country could not appear to be influenced by the United States. The 
Green Movement was an organic movement by the Iranian people. We were 
cautioned that fueling perceptions of U.S. interference would put 
people's lives in danger and discredit their movement.
    We remain committed to helping civil society activists throughout 
the region acquire the tools to create the space where free thought and 
expression can flourish. This administration is also strengthening 
activists' capacity to hold their governments accountable by amplifying 
their calls for greater freedom, accountability, and rule of law. We 
continue to work with like-minded partners to bring international 
pressure on Iran to respect its citizens' fundamental rights.

<F-dash>\<Copyright><careof><star><careof><script-l><script-l><careof><Rx>
                  <box> <because><F-dash><Register>s\

Questions submitted for the record by the Honorable David Cicilline, a 
Representative in Congress from the State of Rhode Island, with written 
      responses received from the Honorable Hillary Rodham Clinton

Question 1:
    Gas prices--Madame Secretary, we have talked extensively today 
about current events in the Middle East--about unrest and violence in 
Syria, about increased aggression in Afghanistan, and about whether 
Iran will demonstrate a greater willingness to cooperate and halt its 
development of nuclear missiles. Amid all of that hostility and 
uncertainty, gas prices are rising here in the United States. In my 
home state of Rhode Island, as of February 24th, the average price per 
gallon of regular unleaded gasoline was $3.76--that is an increase of 
almost 40 cents from the same time last year. At a time where states 
like Rhode Island are struggling to recover from the Great Recession, 
increased energy costs can only serve to hamper that recovery. I am 
deeply concerned that fuel prices will continue to rise and my 
constituents are extremely anxious about the effects those rising 
prices will have on their ability to cover basic energy costs, like 
driving to work or heating their homes. So Madame Secretary, I am 
hoping that you can talk about the ongoing events in the Middle East 
and the effects you expect our diplomatic efforts, as well as potential 
military action, to have on gas prices here at home. For example, the 
latest spike in gas prices is due in part to fears that the Strait of 
Hormuz will close--according to some analysts. What can we expect if it 
actually does close and how will other events in the Middle East 
exacerbate or mitigate those effects?
Answer:
    The price of gasoline here in the United States depends on the 
price of crude oil. As you correctly noted, oil is a globally traded 
commodity and events in one part of the world have a clear impact on 
what we pay for the finished product--gasoline--here at home.
    One of the reasons that I established the Bureau of Energy 
Resources in the State Department is to ensure that energy issues are 
kept at the forefront of our diplomatic engagements with both energy 
producers and major consumers. The State Department is in regular 
dialogue both bilaterally with other countries and through multilateral 
forums, such as the International Energy Agency, to find ways to 
mitigate the impacts of higher energy prices.
    As the President said, ``the single biggest thing that's causing 
the price of oil to spike right now is instability in the Middle East--
this time around Iran. When uncertainty increases, speculative trading 
on Wall Street increases, and that drives prices up even more.'' The 
Administration is addressing both sides of that equation, through 
diplomatic engagement in the Middle East and by seeking to limit 
speculation here at home.
    With respect to the Strait of Hormuz, under international law and 
long-standing international practice, the Strait of Hormuz is a 
waterway used for international navigation. As such, vessels of all 
states enjoy ``transit passage'' rights through the Strait of Hormuz. 
Any attempt by Iran to close the Strait or to require vessels to obtain 
Iranian consent to transit the Strait would be inconsistent with 
international law and would not be recognized by the United States.

Question 2:
    China--As of December, my home state of Rhode Island has the third 
highest unemployment rate in the U.S. at 11%. Our economy has been slow 
to recover from this Recession and people are really hurting due to 
this slow economy. One of the concerns I hear about very often from my 
constituents is that some of our trading partners don't play by the 
rules, thereby creating an unlevel playing field for American 
businesses. Specifically, many of my constituents are very concerned 
about China and the effects of their trade practices on the ability of 
our businesses to compete in the global market. I would like to hear 
about the State Department's efforts to urge the Chinese to trade more 
fairly, namely, to stop manipulating their currency, end their unfair 
policies of indigenous innovation and technology transfer, and enforce 
protections for intellectual property rights.
Answer:
    The Administration will continue to work to assure that our 
economic relationship with China is mutually beneficial. Economic and 
trade discussions were a major part of President Hu Jintao's visit to 
Washington last year and were again during Vice President Xi's visit 
this February. We are also using all available channels, including 
regular bilateral discussions such as the upcoming Strategic and 
Economic Dialogue and multilateral venues like the G-20, to push for 
progress on China's economic policies.
    The United States is committed to ensuring that all of our trading 
partners, including China, follow the rules set forth in international 
trade agreements. The United States regularly files WTO cases against 
other WTO members with which it has disagreements. This is a natural 
part of the international rules-based trading system, and China is no 
different. The U.S.-China trade relationship is one of the largest and 
most robust in the world. We seek negotiated solutions to trade 
disputes wherever possible, but do not hesitate to use available 
enforcement tools, including the WTO dispute system, when necessary. 
The Department of State works closely with other U.S. government 
agencies, including USTR, Treasury, and Commerce, to enforce these 
rules and defend the rights of American businesses in China.
    On the topic of currency, the President has made it clear that this 
issue remains a top priority for our Administration in addressing our 
economic concerns with China. Since China decided in June 2010 to allow 
its currency to appreciate, China's currency has appreciated by about 
eight percent in nominal terms, and about 13 percent in real terms, 
after taking into account the higher rate of inflation in China than in 
the United States. This represents some progress, but the process 
remains incomplete, and further progress is needed.
    With regard to innovation policies, at the end of the S&ED in 2010, 
United States and China reaffirmed that such policies, consistent with 
WTO rules, would leave the terms and conditions of technology transfer, 
production processes, and other proprietary information to agreement 
between individual enterprises. During the Xi visit this year, China 
reiterated that technology transfer and technological cooperation shall 
be decided by businesses independently, and will not be used by the 
Chinese government as a pre-condition for market access. During 
discussions leading up to the S&ED that will take place on May 3-4, we 
have been asking China to make fulfillment of this commitment a top 
priority.
    The protection of intellectual property rights is a key priority to 
this Administration and is a major component of the National Export 
Initiative (NEI) and the Administration's Innovation Strategy. At the 
conclusion of the 22nd Joint Commission on Commerce and Trade (JCCT) in 
November 2011, China agreed to make a significant systemic change in 
its enforcement of intellectual property rights. Through a high-level 
central government enforcement structure led by Vice Premier Wang 
Qishan, China will make permanent its 2010 Special intellectual 
property rights (IPR) Campaign. China will continue high-level 
involvement that will enhance its ability to crack down on intellectual 
property rights infringement. Additionally, at the 2011 Strategic and 
Economic Dialogue (S&ED), China pledged to improve its high-level, 
long-term IPR protection and enforcement mechanism, building on the 
2010-2011 Special Campaign Against IPR Infringement and Fake and Shoddy 
Products. China also pledged to eliminate all of its government 
procurement indigenous innovation products catalogues and revise 
Article 9 of the draft Government Procurement Law Implementing 
Regulations as part of its implementation of President Hu's January 
2011 commitment not to link Chinese innovation policies to government 
procurement preferences.
    Senior U.S. government officials are regularly engaging their 
Chinese counterparts on the importance of protecting and enforcing 
intellectual property rights. U.S. Ambassador Gary Locke recently led 
the Ambassador's IPR Roundtable in Beijing, where he said that China's 
IPR system makes it difficult for both foreign and Chinese companies to 
compete on a level playing field. The Ambassador went on to say that 
``the issue of intellectual property rights protection is troubling not 
just to foreign firms but to Chinese firms in China as well. Stronger 
IPR enforcement is essential to encourage the enterprises to be 
innovative.''

Question 3:
    Churches in Turkey--On December 13, 2011, the House overwhelmingly 
passed a resolution calling on Turkey to return Christian churches and 
properties (H.Res. 306). The resolution called on you as Secretary of 
State ``in all official contacts with Turkish leaders and other Turkish 
officials . . . [to] emphasize that Turkey should (1) end all forms of 
religious discrimination. . . . (2) allow the rightful church and lay 
owners of Christian church properties, without hindrance or 
restriction, to organize and administer prayer services. . . . And (3) 
return to their rightful owners all Christian churches and other places 
of worship, monasteries, schools, hospitals, monuments, relics, holy 
sites, and other religious properties. . . .'' As a cosponsor of this 
resolution, I am hoping you can share with us further details about 
your recent efforts and conversations with the Turkish government to 
urge them to cooperate on these matters. And, can you also share with 
us whether you are satisfied with Turkey's progress in returning stolen 
Christian churches and fully respecting the Armenian population that 
has lived on these lands since biblical times?
Answer:
    Christian and other religious minority populations continue to face 
significant challenges in Turkey. However, we are encouraged by 
concrete steps the government of Turkey has taken over the last year to 
return some religious properties. In August 2011, Prime Minister 
Erdogan introduced a decree that will allow for the return of 
properties confiscated from religious minority community foundations 
over the last 75 years. The announcement of property returns to the 13 
foundations that have so far applied continue to occur, with three new 
returns to Armenian and Rum (Anatolian Greek) foundations announced on 
April 19.
    Separately, speaking to the press on the issue of the re-opening of 
Halki Seminary, Deputy Prime Minister Bozdag said in February the 
government would ``support such a move.'' He went on to say, ``The main 
debate is on the status of the school; it is not about permission.'' On 
April 14, the head of the Directorate for Religious Affairs in Turkey 
said it was inappropriate that Greeks and Armenians in Turkey had to 
study outside of the country to be educated as clergy.
    Other steps respecting minority groups include the government's 
recent permission for the re-opening of an Armenian foundation in 
Istanbul and a new Jewish foundation in Izmir; the return of the 
Buyukada orphanage to the Ecumenical Patriarchate; the lifting of 
restrictions on religious services for the first time at significant 
sites of worship that had been converted to museums in 1923; and the 
granting of citizenship to over 20 Greek Orthodox metropolitans to 
expand the pool of candidates eligible to serve as Ecumenical 
Patriarch.
    The current constitutional redrafting process is also encouraging 
an unprecedented dialogue on individual rights and religious freedom. 
Deputy Prime Minister Arinc promoted this dialogue on February 13, 
noting, ``There are thousands of people in our country from various 
ethnic groups. Together, we are Turkey . . . We draw our strength from 
them.'' The Ecumenical Patriarch, who addressed the Turkish Parliament 
for the first time in connection to the constitution redrafting process 
on February 20, also noted the change taking place in Turkey, stating: 
``Unfortunately, there have been injustices toward minorities until 
now. These are slowly being corrected and changed. A new Turkey is 
being born.'' Other religious groups have also addressed the Turkish 
Parliament in the context of the constitutional redrafting process, 
including the Armenian Deputy Patriarch of Constantinople, and 
representatives from the Syriac and Catholic communities.
    The realization of religious freedom for all Turkish citizens is a 
major priority for this Administration, and is an issue we raise at the 
highest levels of the Turkish government on a continuous basis. 
President Obama, Vice President Biden, and I raised the topic of 
religious freedom with PM Erdogan during their most recent meetings. 
The Ambassador and officers from the U.S. Embassy and Consulate General 
also engage on this issue on a regular basis. While the developments 
described above are encouraging, the Administration will continue to 
urge the government at all levels to live up to its commitments, 
allowing Turkey's ethnic and religious communities to enjoy their 
rights fully.

Question 4:
    Nagorno Karabakh--Azerbaijan is increasing its armed aggression 
against the Nagorno-Karabakh Republic with more and more ceasefire 
violations. What actions has the State Department taken to address 
Azerbaijan's repeated calls to resolve the Nagorno-Karabakh conflict by 
military means?
Answer:
    As a Co-Chair of the OSCE Minsk Group, the United States remains 
deeply committed to assisting the sides of the Nagorno-Karabakh 
conflict to achieve a lasting and peaceful settlement. We have 
reiterated that the sides should prepare their populations for peace, 
not war, since only a negotiated settlement can lead to stability and 
reconciliation. We continue to urge the sides to show restraint both in 
their public rhetoric and actions on the ground.

Question 5:
    Nagorno-Karabakh--Can you provide information as to whether the 
Government of Azerbaijan has been taking demonstrable steps to cease 
all blockades and other offensive uses of force against Armenia and 
Nagorno-Karabakh, as required by Section 907 of the FREEDOM Support 
Act?
Answer:
    As a Co-Chair of the OSCE Minsk Group, the United States has been 
firm in reiterating that there is no military solution to the Nagorno-
Karabakh conflict. On January 23, 2012, Armenian President Sargsian and 
Azerbaijani President Aliyev reaffirmed in a joint statement their 
commitment to the peace process, and agreed to continue developing a 
mechanism to investigate incidents along the frontlines.

Question 6:
    Nagorno-Karabakh--Can you please provide information regarding how 
the Administration is distributing aid to Nagorno Karabakh?
Answer:
    Since 1998, the United States has provided over $37 million in 
humanitarian assistance to victims of the NK conflict, including food, 
shelter, emergency and medical supplies, access to quality healthcare 
and water, and demining projects. In addition to the ongoing demining 
project which has thus far cleared 94% of known minefields and 71% of 
the battle area, we are concluding a potable water project that will 
expand access to clean water in the city of Stepanakert. We intend to 
continue our support to the people of Nagorno-Karabakh in FY 2013.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
